<html>
<title> - IRAQ: THE CROCKER-PETRAEUS REPORT</title>
<body><pre>[Senate Hearing 110-490]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-490
 
                   IRAQ: THE CROCKER-PETRAEUS REPORT 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                           SEPTEMBER 11, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-322 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















































                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  

































                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Boxer, Hon. Barbara, U.S. Senator from California, March 22, 2005 
  Press Release, ``Combined Press Information Center Briefing by 
  Members of U.S. Congressional Delegation Led by Senate Minority 
  Leader Harry Reid in Baghdad, Iraq''...........................    68
Crocker, Hon. Ryan C., Ambassador to Iraq, Department of State, 
  Washington, DC.................................................     6
    Prepared statement...........................................    11
    Responses to questions submitted by Senator Joseph Biden.....   105
    Responses to questions submitted by Senator Bill Nelson......   116
    Responses to questions submitted by Senator George Voinovich.   124
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    46
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Obama, Hon. Barack, U.S. Senator from Illinois, prepared 
  statement......................................................    83
Petraeus, GEN David H., USA, Commander, Multinational Force-Iraq, 
  Baghdad, Iraq..................................................    16
    Prepared statement...........................................    23
    Charts presented during testimony............................    29
    Responses to questions submitted by Senator Joseph Biden.....   110
    Responses to questions submitted by Senator Richard Lugar....   113
    Responses to questions submitted by Senator Bill Nelson......   117
    Responses to questions submitted by Senator Robert Casey.....   117
    Responses to questions submitted by Senator George Voinovich.   127

                                 (iii)

  


                   IRAQ: THE CROCKER-PETRAEUS REPORT

                              ----------                              


                      TUESDAY, SEPTEMBER 11, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, Bill 
Nelson, Obama, Menendez, Cardin, Casey, Webb, Lugar, Hagel, 
Coleman, Corker, Sununu, Murkowski, DeMint, Isakson, and 
Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The committee will come to order. The hearing 
will come to order.
    Six years ago this morning, agents of al-Qaeda attacked the 
United States of America and murdered 2,998 people. So, I'd 
like you all to please join me, at the beginning of this 
hearing, for a moment of silence for the victims of 9/11.
    [A moment of silence was observed.]
    The Chairman. Thank you.
    Ambassador Crocker, General Petraeus, welcome. We've been 
seeing a lot of one another, and I want to thank Ambassador 
Crocker for his hospitality to me last week in both Ramadi and 
in Baghdad. And I'm glad to see you again, General. Welcome 
home, as brief as this stay may be.
    You're here today to give the American people a progress 
report on the war in Iraq and on the President's decision in 
January to surge more forces into Iraq. Americans are hearing a 
lot about this surge, and they want to know whether it's 
succeeding, whether the violence in Iraq is going up or down, 
and what impact that has on the future of Iraq, and, most 
importantly, from their perspective, the future of our men and 
women in uniform that are there, as well as the civilians we 
have stationed there.
    General Petraeus, you say the numbers show that violence is 
decreasing; others, including the independent Government 
Accounting Office, have different figures and contrary 
conclusions. But, in my view, this debate, in a sense, misses 
the point. The one thing virtually everyone now agrees on is 
that there is no purely military solution in Iraq, that lasting 
stability requires a political settlement among the Sunnis, the 
Shias, and the Kurds.
    In announcing the surge, President Bush said his primary 
purpose was just that, to buy time for a political settlement 
to emerge in Baghdad. And so, from my perspective, the most 
important questions we have to ask are these: Are we any closer 
to a lasting political settlement in Iraq at the national level 
today than we were when the surge began, 8 months ago? And if 
we continue to surge for another 6 months, is there any 
evidence that the Sunnis, the Shia, and the Kurds will stop 
killing each other and start governing together. In my 
judgment, I must tell you, based on my experience and my 
observation here, as well as in-country, the answer to both 
those questions is ``No.''
    First, are we any closer to a political settlement? 
According to you, General Petraeus, in a letter to U.S. forces 
and civilians in Iraq last Friday, you wrote--and I appreciate 
your candor--you said, ``Many of us had hoped this summer would 
be a time for tangible political progress at the national 
level. It has not worked out as we had hoped.'' Not according 
to the administration's own report card has it worked out, 
either. As of July, Iraq's Government had failed to make 
satisfactory progress in five of the eight political 
benchmarks. The Government Accounting Office gives the Iraq 
Government even lower grades.
    And not, according to the Iraqi people, apparently, have 
things gotten a lot better. They're voting on the surge with 
their feet. When the surge began, about 50,000 Iraqis a month 
were fleeing their homes for fear of sectarian violence, and 
today they're leaving their homes at a rate as high as 100,000 
a month, since the surge. Simply put, Iraqis, both Sunnis and 
Shiites, still live every day in deadly fear of each other. And 
until their leaders agree on some way to share power 
peacefully, that fear is not going to go away, and Iraq will 
not find stability.
    Of course, when we surge American troops into a 
neighborhood, they do a remarkable job of stopping violence and 
protecting the people. I know it sounds trite to say, but I--
every one of my trips, I am more impressed with the raw, sheer 
bravery--I don't use the word lightly--bravery of your troops, 
who get in those up-armored Humvees, ride down those roads, 
move through those neighborhoods. It just is absolutely 
stunning that they do it. And--but the fact is that the surge 
of our troops in the neighborhoods, although it has some 
salutary impact, when we leave, absent a political settlement, 
every one of the troops I spoke to believe those destructive 
forces are going to return. Your troops--whether I'm talking to 
a private or a lance corporal or a general--I've not found 
anybody who doesn't think that, unless there's a significant 
political settlement, once they leave--the troops--that chaos 
will return.
    In Anbar province, which I just visited with the 
Ambassador, we've had success in turning Iraqi Sunni tribes 
against Sunni jihadists. But that's not particularly relevant 
to the central problem, and that is the sectarian violence of 
Sunnis killing Shias. In my discussion with both the tribal 
leaders, as well as Sunni leaders, I didn't detect any sense of 
any greater trust or willingness to trust or cooperate with the 
Shia--the Shia government in Baghdad.
    If we killed or captured every jihadist in Iraq tomorrow, 
we would still face a major sectarian war that is pitting 
Iraqis' future against our interests. The fact of the matter is 
that American lives remain in jeopardy. And, as I said, if 
every single jihadi in the world was killed tomorrow, we still 
have a major, major war on our hands.
    Second, in continuing this surge of forces for another 6 
months, is that likely to change that reality? The conclusion I 
have reached is, ``No.'' The surge, whatever tactical or 
temporary security gains it might achieve, is at the service of 
a fundamentally flawed strategy, and that strategy is, the 
administration continues to believe that we can achieve 
political progress in Iraq by building a strong national unity 
government in Baghdad that secures the trust of the Iraqi 
people. In my view, gentlemen, I don't think that's going to 
happen in the lifetime of any of us. There is no trust within 
that central government in Baghdad, no trust in the government 
by the people, and no capacity of that government to deliver 
security and services. And, absent an occupation we cannot 
sustain, or return of a dictator we cannot want, Iraq, in my 
view, cannot be governed from the center, at this point in 
history.
    So, without a settlement, the surge is, at best, a stopgap 
that delays, but will not prevent, chaos. Its net effect will 
be to put more American lives at risk--in my view, with very 
little prospect of success. And I don't think that is 
conscionable.
    A majority of Senators believe the time is now to start 
drawing down U.S. forces, not just to presurge levels, but 
beyond them, and to limit the mission of those remaining to 
fight al-Qaeda, train Iraqis, and help protect the borders. 
But, while starting to leave Iraq is necessary, it's not 
enough. We also have to--we also have to shape what we leave 
behind, so that we do not trade a dictator for chaos.
    A number of us have offered alternatives. One of the 
possibilities I've offered, if--it is not a guarantee for 
stability of Iraq if we leave--is to, in fact, beef up the 
federal concept that exists in their constitution. It's based 
on a reality that Sunni, Shia, and Kurds are not ready to 
entrust their fate to one another. Instead, we have to give the 
Iraqi warring faction breathing room in regions, with local 
control over the fabric of their daily lives--police, 
education, jobs, marriage, religion--as, I might add, the Iraqi 
Constitution calls for. A limited central government would be 
in charge of common concerns, including distributing Iraqis' 
oil revenues. A federal, decentralized Iraq, in my view, is our 
last best hope for a stable Iraq, and we should refocus our 
efforts on making federalism work for all Iraqis, at least that 
is the view that I strongly--that I strongly hold.
    I would initiate a diplomatic surge, not a military surge, 
to do just that, bringing in the United Nations, major 
countries, and Iraq's neighbors, to help implement and oversee 
the political settlement that I'm proposing.
    No one, as I said with the Ambassador--kind enough to allow 
me to be with him at this conference, this reconstruction 
conference in Ramadi--as I said to the Iraqis assembled around 
the table, we cannot possibly want peace and security in Iraq 
more than the Iraqi people want it. It is up to them. We can 
help them get there by bringing power and responsibility down 
to the local level and by taking fear out of Iraq's future. But 
that fear will only come out when there's a political 
settlement.
    Ambassador Crocker, General Petraeus, the American 
military, as you know better than I do, cannot sustain a war in 
Iraq with no end in sight at the levels we are there now, and 
the American people will not support an infinite war whose sole 
remaining purpose is to prevent the situation in Iraq from 
becoming worse than it is today. It's time to turn the corner, 
in my view, gentlemen. We should stop this surge and start 
bringing our troops home. We should end a political strategy in 
Iraq that cannot succeed, and begin one that can. I believe if 
we make these changes, we can still leave Iraq without leaving 
behind a civil war that turns into a regional war, endangering 
America's interests, not for a year or two, but for a 
generation.
    So, gentlemen, I'm anxious to hear your testimony, and I'm 
anxious to be able to get to answer your specific--asking you 
specific questions about the overall strategy of the 
administration, and this surge, in particular.
    I now yield to the Senator from Indiana, Chairman Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming General Petraeus and Ambassador Crocker to our 
committee. Their report is essential for Congress and the 
American people as we evaluate the complex circumstances and 
policy options we face with respect to United States 
involvement in Iraq.
    Our national debate has framed two interdependent steps to 
the current surge strategy. We're attempting, first, to reduce 
the violence in Iraq through application of additional American 
troops, better training of Iraqi forces, and tactics aimed at 
sustaining stability in key neighborhoods. Second, we are 
hoping to use the breathing space created by improved security 
to induce Iraqi political leaders to conclude meaningful 
compromises on governmental and power-sharing.
    Now, in our last hearing on Iraq, featuring the GAO report 
on benchmarks, I expressed skepticism that success or failure 
of the benchmarks will be determinative in Iraq. Benchmarks are 
an important starting point for debate, but they do not answer 
many questions, including the most fundamental question 
pertaining to Iraq; namely, do Iraqis want to be Iraqis? By 
this, I mean, are the Iraqi people, most of whom are now 
organized according to sectarian and tribal loyalties, willing 
to sacrifice their own pursuit of national or regional hegemony 
by granting their sectarian rivals political and economic 
power? Can a unified society be achieved, despite the extreme 
sectarian fears and resentments incubated during the repressive 
reign of Saddam and intensified during the recent period of 
sectarian bloodletting? Is there sufficient room for national 
reconciliation, when many Sunnis continue to see their 
political preeminence as a birthright, and most Shiites believe 
that their numerical superiority and the oppression they 
suffered under Saddam Hussein give them the right to dominate 
the new Iraq? And, even if polling indicates that many Iraqis 
do want to live in a unified Iraq, how does this theoretical 
bloc acquire the political power and courage needed to stare 
down militia leaders, sectarian strongmen, criminal gangs, who 
routinely employ violence for their own tribal and personal 
ends?
    I framed the question in these stark terms because it 
underscores that achieving benchmarks, which have been a very 
difficult process up to this point, may be the least of the 
challenges ahead of us. Benchmarks measure only the official 
actions of the Iraqi leaders and the current status of Iraq's 
political and economic rebuilding effort. They do not measure 
the degree to which Iraqis intend to pursue tribal or sectarian 
agendas over the long term, irrespective of the decisions in 
Baghdad. They do not measure the impact of regional players who 
may choose to support or subvert stability in Iraq. They also 
do not measure the degree to which progress is dependent on 
current American military operations, which cannot be sustained 
indefinitely.
    Thus, the most uncertain step in the path to a unified, 
functioning Iraqi society is likely to be when benchmark 
successes would have been preserved and translated into 
sustainable national reconciliation. That reconciliation would 
have to be resilient enough to be--to withstand blood feuds, 
government corruption, brain drain, calculated terrorist acts, 
external interference that will challenge social order.
    One can debate, as many will do this week, whether progress 
in Iraq has been sufficient to justify continuing American 
sacrifices. But the greatest risk for a United States policy is 
not that we are incapable of making progress, but that this 
progress may be largely beside the point, given the divisions 
that now afflict Iraqi society. The risk is that our efforts 
are comparable to a farmer expending his resources and efforts 
to plant a crop on a flood plain without factoring in the 
probability that waters may rise. In my judgment, some type of 
success in Iraq is possible, but, as policymakers, we should 
acknowledge that we are facing extraordinarily narrow margins 
for achieving our goals.
    Our preoccupation with benchmarks is typical of our ``one-
step-at-a-time'' perspective related to Iraq, in which the 
political horizon is limited to the next major event. Now, in 
mid-September 2007, we have arrived at such a milestone--the 
delivery of the Petraeus-Crocker Report. The conventional 
wisdom is that the administration will cite enough progress to 
challenge calls for withdrawal, as lacking resolve, but not 
enough progress to alter the basic fault lines of the Iraq 
debate.
    This debate over progress may be less illuminating than 
determining whether the administration is finally defining a 
clear political/military strategy, planning for followup 
contingencies, and engaging in robust regional diplomacy. Each 
of these elements is essential if we are to expand our chances 
for success.
    At this stage of the conflict, with our military strained 
by Iraq deployments, our global advantage is being diminished 
by the weight of our burden in Iraq, it is not enough for the 
administration to counsel patience until the next milestone or 
the next report. We need to see a strategy for how our troops 
and other resources in Iraq might be employed to fundamentally 
change the equation. For example, are we going to attempt the 
sophisticated task of leveraging our new relationships with 
Sunni forces into a rough balance of power with the Shiites? 
Are we going to build bridges between our new friends in the 
Sunni community and Shiite elements? How will we maintain any 
enthusiasm among Shiite leaders for our goals if they perceive 
we are strengthening Sunni rivals?
    Even as the administration defines its current strategy, it 
is vital that it plan for a range of post-September 
contingencies. The surge must not be an excuse for failing to 
prepare for the next phase of our involvement, whether that is 
a partial withdrawal, a gradual redeployment, or some other 
option. We saw, in 2003, after the initial invasion of Iraq, 
the disastrous results of failing to play adequately for 
contingencies.
    Currently, because of the politically charged nature of the 
debate, military planning and diplomacy related to any so-
called Plan B are constrained by concerns that either would be 
perceived as evidence of a lack of confidence in the 
President's surge strategy. We need to lay the groundwork for 
sustainable alternatives, so that, as the President and 
Congress move to a new plan, it can be implemented effectively 
and rapidly.
    Finally, the pace and intensity of American regional 
diplomacy to Iraq has failed to match the urgency and magnitude 
of the problem. Although Secretary Rice and her team have made 
some inroads with the gulf nations and other players, we still 
lack a forum in which to engage Iraq's neighbors on a constant 
basis. We are allowing conditions in which miscalculation can 
thrive. Every nation surrounding Iraq has intense interest in 
what is happening there, yet the three Iraq Regional Working 
Groups, established at the Sharm el-Sheikh conference in early 
May, have met only once since then. Broader regional 
conferences, such as the one that took place in Baghdad this 
past weekend, also have convened so infrequently that they have 
had little positive impact on Iraq's status.
    An expanded ministerial meeting of Iraq's neighbors is 
scheduled to occur in Istanbul next month. This is positive, 
but it's not a substitute for a continuous, visible forum in 
which we ensure the transparency of national interests and 
actions.
    Bold and creative regional diplomacy is not just an 
accompaniment to our efforts in Iraq, it is a precondition for 
the success of any policy. We cannot sustain a successful 
policy in Iraq unless we repair alliances, recruit more 
international participants in Iraq, anticipate refugee flows, 
prevent regional aggression, generate new basing options, and 
otherwise prepare for future developments. If we have not made 
substantial diplomatic progress by the time a post-surge policy 
is implemented, our options will be severely constrained, and 
we will be guessing at a viable course in a rapidly evolving 
environment.
    I thank the chairman for calling this hearing, and look 
forward to the testimony of our witnesses.
    The Chairman. Thank you, Mr. Chairman.
    Ambassador Crocker.

    STATEMENT OF HON. RYAN C. CROCKER, AMBASSADOR TO IRAQ, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Crocker. Thank you, Mr. Chairman.
    I have submitted a statement, for the record, that I assume 
has been distributed to the committee. With your permission, 
I'd like to summarize that statement now.
    The Chairman. Without objection, your entire statement will 
be placed in the record.
    Ambassador Crocker. Mr. Chairman, Senator Lugar, thank you 
for the opportunity to address this committee this morning.
    My intention today is to give you an assessment of 
political, economic, and diplomatic developments in Iraq. In 
doing so, I will not minimize the enormity of the challenges 
faced by Iraqis, nor the complexity of the situation; yet, at 
the same time, I intend to demonstrate that it is possible for 
the United States to see its goals realized in Iraq, and that 
Iraqis are capable of tackling and addressing the problems 
confronting them today. In my view, a secure, stable, 
democratic Iraq at peace with its neighbors is attainable.
    In my judgment, the cumulative trajectory of political, 
economic, and diplomatic developments in Iraq is upward, 
although the slope of that line is not steep. The process will 
not be quick. It will be uneven, punctuated by setbacks as well 
as achievements, and it will require substantial U.S. resolve 
and commitment. There will be no single moment at which we can 
claim victory. Any turning point will likely only be recognized 
in retrospect.
    This is a sober assessment, but it should not be a 
disheartening one. Iraq is experiencing a revolution, not just 
regime change. It is only by understanding this that we can 
appreciate what is happening in Iraq and what Iraqis have 
achieved, as well as maintain a sense of realism about the 
challenges that remain.
    Evaluating where Iraqis are today only makes sense in the 
context of where they have been. Any Iraqi under 40 years of 
age--and that is the overwhelming majority of the population--
would have known nothing but the rule of the Baath Party before 
liberation 4\1/2\ years ago. Those 35 years were filled with 
crimes against humanity on every scale. Saddam Hussein ruled 
without mercy, not hesitating to use lethal force and torture 
against even those in his inner circle. His genocidal campaign 
against the Kurds, and savagery toward southern Shia, are well 
known. But he also used violence and intimidation as tools in 
the complete deconstruction of Iraqi society. No organization 
or institution survived that was not linked in some way to 
regime protection. He created a pervasive climate of fear in 
which even family members were afraid to talk to one another.
    This is the legacy that Iraqis had as their history when 
Saddam's statue came down on April 9, 2003. No Nelson Mandela 
existed to emerge on the national political scene. Anyone with 
his leadership talents would not have survived. A new Iraq had 
to be built almost literally from scratch, and the builders, in 
most cases, were themselves, reduced to their most basic 
identity: Ethnic or sectarian.
    Much progress has been made, particularly in building an 
institutional framework where there was none before. But, 
rather than being a period in which old animosities and 
suspicions were overcome, the past 18 months, in particular, 
have further strained Iraqi society. The sectarian violence of 
2006 and early 2007 had its seeds in Saddam's social 
deconstruction, and it had dire consequences for the people of 
Iraq, as well as its politics. Extensive displacement and 
widespread sectarian killings by al-Qaeda and other extremist 
groups have gnawed away at the already frayed fabric of Iraqi 
society and politics. It is no exaggeration to say that Iraq 
is, and will remain for some time, a traumatized society.
    It is against this backdrop that developments in Iraqi 
national politics must be seen. Iraqis are facing some of the 
most profound political, economic, and security challenges 
imaginable. They are not simply grappling with the issue of who 
rules Iraq, but they are asking what kind of country Iraq will 
be, how it will be governed, and how Iraqis will share power 
and resources among each other. The constitution, approved in a 
2005 referendum, answered some of these questions in theory, 
but much remains uncertain in both law and practice.
    Some of the more promising political developments at the 
national level are neither measured in benchmarks nor visible 
to those far from Baghdad. For instance, there is a budding 
debate about federalism among Iraq's leaders, and, most 
importantly perhaps, within the Sunni community. Those living 
in places like Anbar and Salaheddin are beginning to realize 
how localities having more of a say in daily decisionmaking 
will empower their communities. No longer is an all-powerful 
Baghdad seen as the panacea to Iraq's problems.
    We are also seeing Iraqis come to terms with complex 
issues, not by first constructing a national framework, but by 
tackling immediate problems. One such example is how the 
central government has accepted over 1,700 young men from the 
Abu Ghraib area west of Baghdad, including former members of 
insurgent groups, to be part of the Iraqi security forces; 
another is how the government, without much public fanfare, has 
contacted thousands of members of the former Iraqi Army, 
offering them retirement, return to the military, or public 
sector employment. So, without the proclamation of a general 
amnesty, we see amnesty being granted on the ground, and we are 
seeing de-Baathification reform, in the case of military 
officers with Baath Party linkages, in advance of national 
legislation. In both instances the seeds of reconciliation are 
being planted.
    In some respects, the debates in Iraq on issues such as de-
Baathification and provincial powers are akin to those that 
surrounded our civil rights movement and our own debate on 
States' rights. With de-Baathification, Iraqis are struggling 
to come to terms with a vicious past. They are trying to 
balance fear that the Baath Party would one day return to 
power, with the recognition that many former members of the 
party are guilty of no crime and joined the organization not to 
repress others, but for personal survival. With provincial 
powers, Iraqis are grappling with very serious questions about 
the right balance between the center and the periphery in Iraq. 
Many--mainly Shia and Kurds--see the devolution of power to 
regions and provinces as being the best insurance against the 
rise of a future tyrannical figure in Baghdad. Others--mainly 
Sunnis--see Iraq, with its complex demographics, as in need of 
strong central authority.
    I do believe that Iraq's leaders have the will to tackle 
the country's pressing problems, although it will take longer 
than we originally anticipated, because of the environment and 
the gravity of the issues before them. An important part of my 
judgment in this regard was the effort made by Iraqi leaders 
this past summer. After weeks of preparatory work and many days 
of intensive meetings, Iraq's five most prominent national 
leaders from the three main communities issued a communique, on 
August 26, that noted agreement on draft legislation dealing 
with de-Baathification and provincial powers. This agreement by 
no means solves all of Iraq's problems, but the commitment of 
its leaders to work together on hard issues is encouraging. 
Perhaps most significantly, these five Iraqi leaders, together, 
decided to publicly express their joint desire to develop a 
long-term relationship with the United States.
    At the provincial level, political gains have been more 
pronounced, particular in the north and west of Iraq, where the 
security improvements have been, in some places, dramatic. 
These have opened the door for meaningful politics.
    In Anbar, as we know, security progress has been 
extraordinary. Al-Qaeda overplayed its hand. Recognizing that 
the coalition could help eject al-Qaeda, the tribes began to 
fight with us, not against us, and the landscape in Anbar is 
dramatically different as a result. Tribal representatives are 
now on the Provincial Council, which is meeting regularly to 
find ways of restoring services, developing the economy, and 
executing a development budget.
    Shia extremists are also facing rejection. Recent attacks 
by the Iranian-backed Jaysh al-Mahdi on worshipers in the holy 
city of Karbala have provoked a backlash among--amongst 
moderate Shia and triggered a call by Muqtada al-Sadr for Jaysh 
al-Mahdi to cease attacks against Iraqis and coalition forces.
    One of the key challenges for Iraqis now is to link these 
positive developments on the provinces to the central 
government in Baghdad. Unlike our States, Iraqi provinces have 
little ability to generate funds through taxation, making them 
dependent on the central government for resources. The growing 
ability of provinces to design and execute budgets, and the 
readiness of the central government to resource them, are 
success stories.
    And, Mr. Chairman, you and I saw one element of that on 
September 6, when representatives of Iraq's senior federal 
leadership traveled to Anbar and announced a 70-percent 
increase in the 2007 provincial capital budget, as well as $50 
million from the central budget, to compensate Anbaris for 
losses suffered in the fight against al-Qaeda.
    In the economy, Iraq is starting to make some gains. The 
IMF estimates that economic growth will exceed 6 percent for 
2007. Budget execution has improved substantially. The latest 
data shows that ministries and provincial councils have 
committed these funds at more than twice the rate of last year, 
and much of the success, the high performers in the budget 
picture, are in the provinces.
    So, while there are signs of improvement, it is also true 
that the Iraqi economy is performing significantly under 
potential. Insecurity in the countryside raises transport 
costs, and especially affects manufacturing and agriculture. 
Electricity supply is improved in many parts of the country, 
but is still woefully inadequate in Baghdad. Many neighborhoods 
in the city receive 2 hours a day or less from the national 
grid, although power supplies for essential services, such as 
water, pumping stations, or hospitals, are much better.
    At the regional and international level, there is expanding 
engagement with Iraq. In August, the U.N. Security Council, at 
Iraq's invitation, provided the United Nations Assistance 
Mission in Iraq, UNAMI, with an expanded mandate through UNSCR 
1770. The work of the International Compact with Iraq moves 
forward, jointly chaired by Iraq and the United Nations. 
Seventy-four countries pledged support for Iraq's economic 
reform efforts at a ministerial conference in May. The United 
Nations has reported progress in 75 percent of the 400 areas 
Iraq has identified for action. Later this month, the Iraqi 
Prime Minister and the U.N. Secretary General will chair a 
ministerial-level meeting in New York to discuss further 
progress under the compact and how UNSCR 1770 can be most 
effectively implemented.
    Many of Iraq's neighbors recognize that they have a stake 
in the outcome of the current conflict in Iraq, and they're 
engaging with Iraq in a constructive way. A neighbors 
ministerial in May, also attended by the P5 and the G-8, has 
been followed by meetings of working groups on border security, 
refugees, and energy. An ambassadorial-level meeting just took 
place in Baghdad, and another neighbors ministerial will be 
held in Istanbul at the end of October, as Senator Lugar notes. 
And it is also worth noting that, at that ambassadorial 
meeting, just 2 days ago, one of the items under discussion was 
the establishment of a permanent standing secretariat for the 
neighbors, to allow precisely the kind of continuity that I 
think you were referring to, sir.
    Iraq is now exporting oil through its neighbor, Turkey, as 
well as through the gulf. Iraq and Kuwait are nearing 
conclusion on a commercial deal for Kuwait to supply its 
northern neighbor with critically needed diesel. Jordan 
recently issued a statement welcoming the recent leaders' 
communique and supporting Iraqi efforts at reconciliation. And 
Saudi Arabia is planning on opening an embassy in Baghdad, its 
first since the fall of Saddam.
    Syria's role has been more problematic. On one hand, Syria 
hosts over a million Iraqi refugees and hosted the Border 
Security Working Group meeting last month. Syria has also 
interdicted some foreign terrorists seeking to transit to Iraq. 
On the other hand, suicide bombers continue to cross the border 
from Syria to murder Iraqi civilians.
    Iran has actively undermined Iraqi stability by providing 
funding, training, and munitions to extremist militias that 
attack Iraqis as well as coalition forces.
    Whether Iraq reaches its potential is, of course, 
ultimately the product of Iraqi actions, but the changes in our 
strategy last January--the surge--have helped change the 
dynamics in Iraq for the better. The involvement and support of 
the United States will continue to be hugely important in 
shaping a positive outcome. Our country has given a great deal 
in blood and treasure to stabilize the situation in Iraq and 
help Iraqis build institutions for a united democratic country 
governed under the rule of law. They have not yet realized this 
vision, and to do so will take more time and patience on the 
part of the United States.
    I cannot guarantee success in Iraq. The challenges, as I 
have stated, are immense. I do believe, as I have described, 
that success is attainable. I am certain that abandoning or 
drastically curtailing our efforts will bring failure, and the 
consequences of such a failure must be clearly understood. An 
Iraq that falls into chaos or civil war will mean massive human 
suffering, well beyond what has already occurred within Iraq's 
borders. It could well invite the intervention of regional 
states, all of which see their future connected to Iraq's in 
some fundamental way. Undoubtedly, Iran would be a winner in 
such a scenario, consolidating its influence over Iraqi 
resources and, possibly, territory. The Iranian President has 
already announced that Iran will fill any vacuum in Iraq. In 
such an environment, the gains made against al-Qaeda and other 
extremist groups could easily evaporate, and they could 
establish strongholds to be used as safe havens for regional 
and international operations. Our current course is hard. The 
alternatives are far worse.
    Every strategy requires constant recalibration. This is 
particularly true in an environment like Iraq, where change is 
a daily occurrence. As chief of mission in Iraq, I am 
constantly assessing our efforts and seeking to ensure that 
they are coordinated with, and complementary to, the efforts of 
our military. I believe that, thanks to the support of 
Congress, we have an appropriate civilian posture in Iraq. Over 
the coming year, we will continue to increase our civilian 
efforts outside of Baghdad and the international zone. In the 
course of 2007, we have increased the number of our Provincial 
Reconstruction Teams, for example, from 10 to 25. This presence 
has allowed us to focus on capacity-building, especially in the 
provinces, and the provinces are likely to grow in influence as 
more power devolves from Baghdad.
    We will continue our efforts to assist Iraqis in the 
pursuit of national reconciliation, while recognizing that 
progress on this front may come in many forms, and must 
ultimately be done by Iraqis themselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Crocker follows:]

  Prepared Statement of Hon. Ryan C. Crocker, U.S. Ambassador to the 
           Republic of Iraq, State Department, Washington, DC

                              introduction
    Chairman, Senator Lugar, and members of the committee, thank you 
for the opportunity to address the Senate this week. I have considered 
it a privilege and an honor to serve in Iraq at a time when so much is 
at stake for our country and the people of the region--and when so many 
Americans of the highest caliber in our military and civilian services 
are doing the same. I know that a heavy responsibility weighs on my 
shoulders to provide the country with my best, most honest assessment 
of the political, economic, and diplomatic situation in Iraq and the 
implications for the United States.
    Americans, in this Chamber and beyond, are looking for more than an 
update on the latest events. They want to know the answers to some key 
questions. Are our objectives realistic? Is it possible that Iraq will 
become a united, stable country with a democratic government operating 
under the rule of law? What is the trajectory--is Iraq, on the whole, 
moving in the right direction? Can we expect more and under what 
timeframe? Are there alternative courses of action for our country 
which are superior?
    These are sensible questions to be asked by a nation investing in 
and sacrificing for another country and people. In asking these 
questions, however, we must not lose sight of the vital interests the 
United States has in a successful outcome in Iraq.
    My intention today is to give you an assessment of political, 
economic, and diplomatic developments in Iraq. In doing so, I will not 
minimize the enormity of the challenges faced by Iraqis, nor the 
complexity of the situation. Yet at the same time, I intend to 
demonstrate that it is possible for the United States to see its goals 
realized in Iraq and that Iraqis are capable of tackling and addressing 
the problems confronting them today. A secure, stable democratic Iraq 
at peace with its neighbors is attainable. In my judgment, the 
cumulative trajectory of political, economic, and diplomatic 
developments in Iraq is upward, although the scope of that line is not 
steep. The process will not be quick, it will be uneven, punctuated by 
setbacks as well as achievements, and it will require substantial U.S. 
resolve and commitment. There will be no single moment at which we can 
claim victory; any turning point will likely only be recognized in 
retrospect.
    This is a sober assessment, but it should not be a disheartening 
one. I have found it helpful, during my time in Iraq to reflect on our 
own history. At many points in the early years, our survival as a 
nation was questionable. Our efforts to build the institutions of 
government were not always successful in the first instance. And tough 
issues--such as slavery, universal suffrage, civil rights, and state 
rights--were resolved only after acrimonious debate and sometimes 
violence.
    Iraq is experiencing a revolution--not just regime change. It is 
only by understanding this that we can appreciate what is happening in 
Iraq and what Iraqis have achieved, as well as maintain a sense of 
realism about the challenges that remain.
                                context
    Evaluating where Iraqis are today only makes sense in the context 
of where they have been. Any Iraqi under 40 years old--and that is the 
overwhelming majority of the population--would have known nothing but 
the rule of the Baath Party before liberation 4\1/2\ years ago. Those 
35 years were filled with crimes against humanity on every scale. 
Saddam Hussein ruled without mercy, not hesitating to use lethal force 
and torture against even those in his inner circle. His genocidal 
campaign against the Kurds and savagery toward southern Shia are well 
known. But he also used violence and intimidation as tools in the 
complete deconstruction of Iraqi society. No organization or 
institution survived that was not linked in some way to regime 
protection. He created a pervasive climate of fear in which even family 
members were afraid to talk to one another.
    This is the legacy that Iraqis had as their history when Saddam's 
statue came down on April 9, 2003. No Nelson Mandela existed to emerge 
on the national political scene; anyone with his leadership talents 
would have not survived. A new Iraq had to be built almost literally 
from scratch, and the builders in most cases were themselves reduced to 
their most basic identity, ethnic or sectarian.
    Much progress has been made, particularly in building an 
institutional framework where there was none before. But rather than 
being a period in which old animosities and suspicions were overcome, 
the past 18 months in particular have further strained Iraqi society. 
The sectarian violence of 2006 and early 2007 had its seeds in Saddam's 
social deconstruction and it had dire consequences for the people of 
Iraq as well as its politics. Extensive displacement and widespread 
sectarian killings by al-Qaeda and other extremist groups have gnawed 
away at the already frayed fabric of Iraqi society and politics. It is 
no exaggeration to say that Iraq is--and will remain for some time to 
come--a traumatized society.
                           national politics
    It is against this backdrop that developments in Iraq must be seen. 
Iraqis are facing some of the most profound political, economic, and 
security challenges imaginable. They are not simply grappling with the 
issue of who rules Iraq--but they are asking what kind of country Iraq 
will be, how it will be governed, and how Iraqis will share power and 
resources among each other. The constitution approved in a referendum 
in 2005 answered some of these questions in theory, but much remains 
uncertain in both law and practice.
    Some of the more promising political developments at the national 
level are neither measured in benchmarks nor visible to those far from 
Baghdad. For instance, there is a budding debate about federalism among 
Iraq's leaders and, importantly, within the Sunni community. Those 
living in place like Al Anbar and Salahaddin are beginning to realize 
how localities having more of a say in daily decisionmaking will 
empower their communities. No longer is an all-powerful Baghdad seen as 
the panacea to Iraq's problems. This thinking is nascent, but it is 
ultimately critical to the evolution of a common vision among all Iraqi 
leaders.
    Similarly, there is a palpable frustration in Baghdad over the 
sectarian system that was used to divide the spoils of the state in the 
last few years. Leaders from all communities openly acknowledge that a 
focus on sectarian gains has led to poor governance and served Iraqis 
badly. And many claim to be ready to make the sacrifices that will be 
needed to put government performance ahead of sectarian and ethnic 
concerns. Such ideas are no longer controversial, although their 
application will be.
    Finally, we are seeing Iraqis come to terms with complex issues not 
by first providing a national framework, but instead by tackling 
immediate problems. One such example is how the central government has 
accepted over 1,700 young men from the Abu Ghurayb area west of 
Baghdad, including former members of insurgent groups, to be part of 
the Iraqi security forces. Another is how the government, without much 
public fanfare, has contacted thousands of members of the former Iraqi 
Army, offering them retirement, return to the military, or public 
sector employment. So without the proclamation of a general amnesty, we 
see amnesty being granted, and de-Baathification reform in advance of 
national legislation. In both instances, the seeds of reconciliation 
are being planted.
    We have come to associate progress on national reconciliation as 
meaning the passage of key pieces of legislation. There is logic to 
this, as the legislation we are urging the Iraqis to produce does--in 
one way or another--have to do with the question of how to share power 
and resources among Iraq's many communities. This legislation also has 
to do with the vision of the future Iraqi state. The oil and revenues-
sharing laws, for instance, deal with deeper issues than simply whether 
Iraqis in oil producing areas are willing to share their wealth with 
other Iraqis. What is difficult about the oil laws is that they take 
Iraq another step down the road toward a federal system that all Iraqis 
have not yet embraced. But once again, we see that even in the absence 
of legislation there is practical action as the central government 
shares oil revenues through budget allocations on an equitable basis 
with Iraq's provinces.
    In many respects, the debates currently occurring in Iraq--de-
Baathification and provincial powers--are akin to those surrounding our 
civil rights movement or struggle over states rights. On de-
Baathification, Iraqis are struggling to come to terms with a vicious 
past. They are trying to balance fear that the Baath Party would one 
day return to power with the recognition that many former members of 
the party are guilty of no crime and joined the organization not to 
repress others but for personal survival. With provincial powers, they 
are grappling with very serious questions about what the right balance 
between the center and the periphery is for Iraq. Some see the 
devolution of power to regions and provinces as being the best 
insurance against the rise of a future tyrannical figure in Baghdad. 
Others see Iraq, with its complex demographics, as in need of a strong 
central authority.
    In short, we should not be surprised or dismayed that Iraqis have 
not fully resolved such issues. Rather, we should ask whether the way 
in which they are approaching such issues gives us a sense of their 
seriousness and ultimate capability to resolve Iraq's fundamental 
problems. Is the collective national leadership of Iraq ready to 
prioritize Iraq over sectarian and community interests? Can and will 
they come to agreement about what sort of Iraq they want?
    I do believe that Iraq's leaders have the will to tackle the 
country's pressing problems, although it will take longer than we 
originally anticipated because of the environment and the gravity of 
the issues before them. Prime Minister Nouri al-Maliki and the other 
Iraqi leaders face enormous obstacles in their efforts to govern 
effectively. I believe they approach the task with a deep sense of 
commitment and patriotism. An important part of my assessment was the 
effort made by the leaders this past summer. After weeks of preparatory 
work and many days of intensive meetings, Iraq's five most prominent 
national leaders from the three major communities issued a communique 
on August 26 that noted agreement on draft legislation dealing with de-
Baathification and provincial powers. This agreement by no means solves 
all of Iraq's problems. But the commitment of its leaders to work 
together on hard issues is encouraging.
    Perhaps most significantly, these five Iraqi leaders together 
decided to publicly express their joint desire to develop a long-term 
relationship with the United States. Despite their many differences in 
perspectives and experiences, they all agreed on language acknowledging 
the need for a continued presence by the multinational forces in Iraq 
and expressing gratitude for the sacrifices these forces have made for 
Iraqis.
                     provincial and local politics
    At the provincial level, political gains have been more pronounced, 
particularly in the north and west of Iraq where the security 
improvements have been in some places dramatic. In these areas, there 
is abundant evidence that the security gains have opened the door for 
meaningful politics.
    In Al Anbar, the progress on the security side has been 
extraordinary. Six months ago, violence was rampant, our forces were 
under daily attack, and Iraqis were cowering from the intimidation of 
al-Qaeda. But al-Qaeda overplayed its hand in Al Anbar and Anbaris 
began to reject its excesses--be they beheading school children or 
cutting off peoples' fingers as punishment for smoking. Recognizing the 
coalition would help eject al-Qaeda, the tribes began to fight with us, 
not against us, and the landscape in Al Anbar is dramatically different 
as a result. Tribal representatives are on the provincial council, 
which is now meeting regularly to find ways of restoring services, 
developing the economy, and executing a provincial budget. These 
leaders are looking for help to rebuild their cities and talking of 
attracting investment. Such scenes are also unfolding in parts of 
Diyala and Ninawa, where Iraqis have mobilized with the help of the 
coalition and Iraqi security forces to evict al-Qaeda from their 
communities. The world should note that when al-Qaeda began 
implementing its twisted vision of the Caliphate in Iraq, Iraqis, from 
Al Anbar to Baghdad to Diyala, have overwhelmingly rejected it.
    Shia extremists are also facing rejection. Recent attacks by 
elements of the Iranian-backed Jaysh al-Mahdi on worshipers in the holy 
city of Karbala have provoked a backlash and triggered a call by 
Moqtada al-Sadr for Jaysh al-Mahdi to cease attacks against Iraqis and 
coalition forces.
    A key challenge for Iraqis now is to link these positive 
developments in the provinces to the central government in Baghdad. 
Unlike our states, Iraqi provinces have little ability to generate 
funds through taxation, making them dependent on the central government 
for resources. The growing ability of the provinces to design and 
execute budgets and the readiness of the central government to resource 
them are success stories. On September 6, Iraq's senior federal 
leadership traveled to Al Anbar where they announced a 70-percent 
increase in the 2007 provincial capital budget as well as $50 million 
to compensate losses in the fight against al-Qaeda. The support of the 
central government is also needed to maintain hard-won security in 
areas like Al Anbar through the rapid expansion of locally generated 
police. The Government of Iraq has placed some 21,000 Anbaris on police 
roles.
                    economics and capacity building
    Iraq is starting to make some gains in the economy. Improving 
security is stimulating revival of markets, with the active 
participation of local communities. In some places, war damage is being 
cleared and buildings repaired, roads and sewers built, and commerce 
energized.
    The IMF estimates that economic growth will exceed 6 percent for 
2007. Iraqi ministries and provincial councils have made substantial 
progress this year in utilizing Iraq's oil revenue for investment. The 
2007 governmental budget allocated $10 billion (nearly one-third Iraq's 
expected oil export revenue) to capital investment. Over $3 billion was 
allocated to the provinces and the Kurdish Region for spending. The 
latest data show that spending units (national ministries and 
provincial councils) have proceeded to commit these funds at more than 
twice the rate of last year. Doing the best are the provincial 
authorities, in the process gaining experience with making plans and 
decisions, and running fair tenders. In so doing, they are stimulating 
local business development and providing employment. Over time we 
expect the experience with more responsive local authorities will 
change Iraqi attitudes toward their elected leaders, and of the 
provinces toward Baghdad.
    At two conferences in Dubai in the last 2 weeks, hundreds of Iraqi 
businessmen met an equal number of foreign investors newly interested 
in acquiring shares of businesses in Iraq. An auction of cell phone 
spectrum conducted by Pricewaterhouse Coopers netted the Government a 
better-than-expected sum of $3.75 billion. The Minister of Finance 
plans to use the funds, along with all the country's oil revenue, to 
apply to its pressing investment and current expenditure needs.
    Overall, however, the Iraqi economy is performing significantly 
under potential. A lack of security in many parts of the countryside 
raises transport costs and especially affects manufacturing and 
agriculture. Electricity supply has improved in many parts of the 
country, but is woefully inadequate in Baghdad. Many neighborhoods in 
the city receive 2 hours a day or less from the national grid, although 
power supplies for essential services such as water pumping stations or 
hospitals are much better. The Minister of Electricity said last week 
that it would take $25 billion through 2016 to meet demand 
requirements, but that by investing the $2 billion a year the Ministry 
is now receiving from the government's budget, as well as private 
investment in power generation, that goal could be met.
    We are deploying our assistance funds to make a difference to 
ordinary Iraqis and to support our political objectives. Military units 
are using Commanders Emergency Response (CERP) funds to ensure that 
residents see a difference when neighborhood violence declines. USAID 
Community Stabilization Funds provide tens of thousands of jobs. With 
the recent apportionment of 2007 Supplemental funds, we are putting 
``Quick Response Funds'' in the hands of our Provincial Reconstruction 
Team leaders to build communities and institutions in post-kinetic 
environments. Vocational training and microfinance programs are 
supporting nascent private businesses. And in Baghdad, we are 
increasing our engagement and capacity-building efforts with 
ministries.
                  regional and international dynamics
    On the diplomatic front, there is expanding international and 
regional engagement with Iraq. In August, the U.N. Security Council, at 
Iraq's invitation, provided the United Nations Assistance Mission in 
Iraq (UNAMI) with an expanded mandate through UNSCR 1770. The work of 
the International Compact with Iraq moves forward, jointly chaired by 
Iraq and the U.N. Seventy-four countries pledged support for Iraq's 
economic reform efforts at a Ministerial Conference in May. The U.N. 
has reported progress in 75 percent of the 400 areas Iraq has 
identified for action. Later this month, the Iraqi Prime Minister and 
the U.N. Secretary General will chair a ministerial-level meeting in 
New York to discuss further progress under the Compact and how UNSCR 
1770 can be most effectively implemented.
    Many of Iraq's neighbors recognize that they have a stake in the 
outcome of the current conflict in Iraq, and are engaging with Iraq in 
a constructive way. A neighbors' ministerial in May, also attended by 
the P-5 and the G-8, has been followed by meetings of working groups on 
security, border issues, and energy. An ambassadorial level meeting 
just took place in Baghdad, and another neighbors' ministerial will be 
held in Istanbul in October.
    Against the backdrop of these new mechanisms, the business of being 
neighbors is quietly unfolding. For the first time in years, Iraq is 
exporting oil through its neighbor, Turkey, as well as through the 
gulf. Iraq and Kuwait are nearing conclusion on a commercial deal for 
Kuwait to supply its northern neighbor with critically needed diesel. 
Jordan recently issued a statement welcoming the recent leaders' 
communique and supporting Iraqi efforts at reconciliation. And Saudi 
Arabia is planning on opening an Embassy in Baghdad--its first since 
the fall of Saddam.
    Syria's role has been more problematic. On one hand, Syria has 
hosted a meeting of the border security working group and interdicted 
some foreign terrorists in transit to Iraq. On the other hand, suicide-
bombers continue to cross the border from Syria to murder Iraqi 
civilians.
    Iran plays a harmful role in Iraq. While claiming to support Iraq 
in its transition, Iran has actively undermined it by providing lethal 
capabilities to the enemies of the Iraqi state. In doing so, the 
Iranian Government seems to ignore the risks that an unstable Iraq 
carries for its own interests.
                             looking ahead
    Two thousand six was a bad year in Iraq. The country came close to 
unraveling politically, economically, and in security terms; 2007 has 
brought some improvements. Enormous challenges remain. Iraqis still 
struggle with fundamental questions about how to share power, accept 
their differences and overcome their past. The changes to our strategy 
last January--the Surge--have helped change the dynamics in Iraq for 
the better. Our increased presence made besieged communities feel that 
they could defeat al-Qaeda by working with us. Our population security 
measures have made it much harder for terrorists to conduct attacks. We 
have given Iraqis the time and space to reflect on what sort of country 
they want. Most Iraqis genuinely accept Iraq as a multiethnic, 
multisectarian society--it is the balance of power that has yet to be 
sorted out.
    Whether Iraq reaches its potential is of course ultimately the 
product of Iraqi decisions. But the involvement and support of the 
United States will be hugely important in shaping a positive outcome. 
Our country has given a great deal in blood and treasure to stabilize 
the situation in Iraq and help Iraqis build institutions for a united, 
democratic country governed under the rule of law. Realizing this 
vision will take more time and patience on the part of the United 
States.
    I cannot guarantee success in Iraq. I do believe, as I have 
described, that it is attainable. I am certain that abandoning or 
drastically curtailing our efforts will bring failure, and the 
consequences of such a failure must be clearly understood. An Iraq that 
falls into chaos or civil war will mean massive human suffering--well 
beyond what has already occurred within Iraq's borders. It could well 
invite the intervention of regional states, all of which see their 
future connected to Iraq's in some fundamental way. Undoubtedly, Iran 
would be a winner in this scenario, consolidating its influence over 
Iraqi resources and possibly territory. The Iranian President has 
already announced that Iran will fill any vacuum in Iraq. In such an 
environment, the gains made against al-Qaeda and other extremists 
groups could easily evaporate and they could establish strongholds to 
be used as safehavens for regional and international operations. Our 
current course is hard. The alternatives are far worse.
    Every strategy requires recalibration as time goes on. This is 
particularly true in an environment like Iraq where change is a daily 
or hourly occurrence. As chief of mission in Iraq, I am constantly 
assessing our efforts and seeking to ensure that they are coordinated 
with and complementary to the efforts of our military. I believe that, 
thanks to the support of Congress, we have an appropriate civilian 
posture in Iraq. Over the coming year, we will continue to increase our 
civilian efforts outside of Baghdad and the international zone. This 
presence has allowed us to focus on capacity-building, especially in 
the provinces. The number of Provincial Reconstruction Teams has grown 
from 10 to 25 this year. In support of these goals, we will be asking 
Congress for additional economic assistance including additional quick 
response funds for capacity-building. We will also seek support for two 
significant proposals that hold the prospect of creating permanent jobs 
for thousands of Iraqis. One would be the establishment of an ``Iraqi-
American Enterprise Fund,'' modeled on our successful funds in Poland 
and elsewhere in Central Europe. Such a fund could make equity 
investments in new and revamped firms based in Iraq. The second would 
be a large-scale operations and maintenance facility based on our 
Highway Trust Fund. On a cost-sharing basis, such a fund would train 
Iraqis to budget for and maintain important public sector 
infrastructure (power plants, dams, roads). Over time, the cost-sharing 
would phase down and out, leaving behind well-trained professionals and 
instilling the habits of preventative maintenance.
    We will continue our efforts to assist Iraqis in the pursuit of 
national reconciliation, while recognizing that progress on this front 
may come in many forms and must ultimately be done by Iraqis 
themselves. We will seek additional ways to neutralize regional 
interference and enhance regional and international support. And we 
will help Iraqis consolidate the positive developments at local levels 
and connect them with the national government. Finally, I expect we 
will invest much effort in developing the strategic partnership between 
the United States and Iraq, which is an investment in the future of 
both countries.

    The Chairman. Thank you, Mr. Ambassador.
    General.
    The committee will--the police will clear the----
    [Pause.]
    The Chairman. General.

      STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, 
            MULTINATIONAL FORCE-IRAQ, BAGHDAD, IRAQ

    General Petraeus. Mr. Chairman, Senator Lugar, members of 
the committee, thank you for the opportunity to provide my 
assessment of the security situation in Iraq and to discuss the 
recommendations I have provided to my chain of command for the 
way forward.
    As I stated in testimony to the two House committees 
yesterday, this is my testimony. Although I have briefed my 
assessment and recommendations to my chain of command, I wrote 
this myself, and did not clear it with anyone in the Pentagon, 
the White House, or Congress.
    Today, I will provide a summary of the full written 
testimony I have provided to each of you and for the record.
    As a bottom line up front, the military objectives of the 
surge are, in large measure, being met. In recent months, in 
the face of tough enemies in the brutal summer heat of Iraq, 
coalition and Iraqi security forces have achieved progress in 
the security arena. Though improvements have been uneven across 
Iraq, the overall number of security incidents in Iraq, for 
example, has declined in 8 of the past 12 weeks. During this 
time, ethnosectarian violence has also been reduced, and the 
number of overall civilian deaths has declined, though both are 
clearly still at troubling levels.
    The progress is a result of many factors. Coalition and 
Iraqi forces have dealt significant blows to al-Qaeda-Iraq, and 
have disrupted Shia militia extremists. Additionally, in a very 
significant development, we and our Iraqi partners are being 
assisted by tribes and local citizens who are rejecting 
extremism and choosing to help secure Iraq. Iraqi security 
forces have also continued to grow and to shoulder more of the 
load, albeit slowly and amid continuing concerns about the 
sectarian tendencies of some elements in their ranks.
    Based on all this and on the further progress we believe we 
can achieve over the next few months, I believe that we will be 
able to reduce our forces to the presurge level of Brigade 
Combat Teams by next summer, withdrawing one-quarter of our 
combat brigades by that time, without jeopardizing the security 
gains that we have fought so hard to achieve.
    Beyond that, while noting that the situation in Iraq 
remains complex, difficult, and sometimes downright 
frustrating, I also believe that it is possible for us to 
achieve our objectives in Iraq over time, though doing so will 
be neither quick nor easy.
    Having provided that summary, I would like to review, 
briefly, the nature of the conflict in Iraq, recall the 
situation before the surge, describe the current situation, and 
explain the recommendations I have provided to my chain of 
command.
    The fundamental source of the conflict in Iraq is 
competition among ethnic and sectarian communities for power 
and resources. This competition will take place. The question 
is whether it is resolved more or less violently.
    This chart shows the security challenges in Iraq. And you 
have charts in front of you, as well. Foreign and homegrown 
terrorists, insurgents, militia extremists, and criminals all 
push the ethnosectarian competition toward violence. Malign 
actions by Syria, and especially by Iran, fuel the violence. 
And lack of adequate governmental capacity, lingering sectarian 
mistrust, and various forms of corruption add to the 
challenges.
    In January 2007, in response to the horrific ethnosectarian 
violence that spiraled out of control in 2006, and to an 
assessment in December 2006, that we were failing to achieve 
our objectives, a surge of forces began flowing into Iraq, 
focusing on protecting the population and reducing sectarian 
violence, especially in Baghdad.
    In so doing, these forces have employed counterinsurgency 
practices, such as living among the people they are securing. 
In mid-June, with all the surge brigades in place, we launched 
a series of offensive operations, in partnership with Iraqi 
security forces. These operations focused on expanding the 
gains achieved in the preceding months in Anbar province, 
pursuing al-Qaeda in the Diyala River Valley and several other 
areas, and clearing Baqubah, several key Baghdad neighborhoods, 
the remaining sanctuaries in Anbar province and important areas 
around Baghdad. And, with coalition and Iraqi forces located 
among the populations they are securing, we have sought to keep 
areas clear and to help Iraqis in rebuilding them. All the 
while, we have engaged in dialog with insurgent groups and 
tribes, leading to additional elements standing up to oppose 
al-Qaeda and other extremists.
    The progress our forces have achieved with our Iraqi 
counterparts has, as I noted at the outset, been substantial. 
While there have been setbacks, as well as successes, and tough 
losses along the way, overall our tactical commanders see 
improvements in the security environment.
    We do not, however, just rely on gut feel or personal 
observations. To gauge progress and determine trends, we also 
conduct rigorous, consistent data collection and analysis. In 
fact, two U.S. intelligence agencies recently reviewed our 
methodology and concluded that the data we produce is the most 
accurate and authoritative in Iraq.
    As I mentioned up front, and as the chart before you 
reflects, the level of security incidence has decreased 
significantly since the start of the surge of offensive 
operations in mid-June, declining in 8 of the past 12 weeks, 
with the level of incidence in the past 2 weeks the lowest 
since June 2006. Civilian deaths of all categories, less 
natural causes, have also declined considerably, by over 45 
percent Iraqwide, since the height of the sectarian violence in 
December. This is shown by the top line on this next chart. And 
the decline by some 70 percent in Baghdad is shown by the 
bottom line. Periodic mass-casualty attacks, car bombings by 
al-Qaeda, have, tragically, added to the numbers outside 
Baghdad, in particular. Even without the sensational attacks, 
however, the level of civilian deaths is of serious concern.
    As the next chart shows, the number of ethnosectarian 
deaths, an important subset of the overall civilian casualty 
figures, has also declined significantly since the height of 
the sectarian violence in December. Iraqwide, as shown by the 
top line on this chart, ethnosectarian deaths have come down by 
over 55 percent. In Baghdad, as the bottom line shows, 
ethnosectarian deaths have declined by some 80 percent since 
December. This chart also displays the density of sectarian 
incidents in various Baghdad neighborhoods, and it both 
reflects the progress made in reducing ethnosectarian violence 
and identifies the areas where more work must be done.
    As we have gone on the offensive in former al-Qaeda and 
insurgent sanctuaries, and as locals have increasingly 
supported our efforts, we have found a substantially increased 
numbers of arms, ammunition, and explosive caches. As this next 
chart shows, we have, so far this year, already found and 
cleared over 4,400 caches, nearly 1,700 more than we discovered 
in all of last year. This may be a factor in the reduction in 
the overall improvised explosive device attacks in recent 
months, which, as this next chart shows, has declined sharply, 
by about one-third, since June.
    The change in the security situation in Anbar province has, 
of course, been particularly dramatic. As this next chart 
shows, monthly attack levels in Anbar have declined from some 
1,350 in October 2006, to a bit over 200 in August of this 
year. This dramatic decrease reflects the significance of the 
local rejection of al-Qaeda and the new-found willingness of 
local Anbaris to volunteer to serve in the Iraqi Army and Iraqi 
police services.
    To be sure, trends have not been uniformly positive across 
Iraq, as is shown by this next chart depicting violence levels 
in several key Iraqi provinces. The trend in Ninawa province, 
for example, has been much more up and down until a recently 
decline. And the same has been true in Salah al-Din province, 
though recent trends there, and in Baghdad, as shown, have been 
in the right direction. In any event, the overall trajectory in 
Iraq, a steady decline of incidents in the past 3 months, is 
still quite significant.
    The number of car bombings and suicide attacks has also 
declined in each of the past 5 months, from a high of some 175 
in March, as this next chart shows, to about 90 this past 
month. While this trend has been heartening, the number of 
high-profile attacks is clearly still too high, and we continue 
to work hard to destroy the networks, with our Iraqi 
counterparts, that carry out these barbaric attacks.
    Our operations have produced substantial progress against 
al-Qaeda in Iraq. As this next chart shows, in the past 8 
months we have considerably reduced the areas in which al-Qaeda 
enjoyed sanctuary. We have also neutralized five important 
media cells, detained the senior Iraqi leader of al-Qaeda-Iraq, 
and killed or captured nearly 100 other key leaders and some 
2,500 rank-
and-file fighters. Al-Qaeda-Iraq is certainly not defeated; 
however, it is off balance, and we are pursuing its leaders and 
operators aggressively.
    Of note, these gains against al-Qaeda are a result of the 
synergy of actions by conventional forces; intelligence, 
surveillance, and reconnaissance assets; and special-operations 
elements. A combination of these assets is necessary to conduct 
effective operations against terrorist elements.
    In the past 6 months, we have also targeted Shia militia 
extremists, killing or capturing over 1,400 rank-and-file and 
senior leaders. It is increasingly apparent to both coalition 
and Iraqi leaders that Iran, through the use of the Iranian 
Republican Guard Corps, Quds Force, seeks to turn these Shia 
militia extremists into a Hezbollah-like force to serve its 
interests and fight a proxy war against the Iraqi state and 
coalition forces in Iraq.
    The Chairman. We will clear the room.
    [Pause.]
    The Chairman. General.
    General Petraeus. The most significant development in the 
past 6 months likely has been the increasing emergence of 
tribes and local citizens rejecting al-Qaeda and other 
extremists. The success in Anbar is an example of what can 
happen when local Iraqis decide to oppose al-Qaeda and reject 
its Taliban-like ideology and indiscriminate violence.
    While Anbar's model cannot be replicated everywhere in 
Iraq, it does demonstrate the dramatic change in security that 
is possible with the support and participation of local 
citizens.
    As this next chart shows, other tribes have been inspired 
by the actions of those in Anbar, and have volunteered to fight 
extremists, as well. Over 20,000 such individuals are already 
being hired for the Iraqi national--or the Iraqi police 
service. Thousands of others are being assimilated into the 
Iraqi Army, and thousands more are vying for a spot in Iraq's 
security forces.
    As I noted earlier, Iraqi security forces have continued to 
grow to develop their capabilities and to shoulder more of the 
burden of providing security for their country.
    Despite concerns about sectarian influence, inadequate 
logistics and supporting institutions, and an insufficient 
number of qualified commissioned and noncommissioned officers, 
Iraqi units are engaged around the country. As this next chart 
shows, there are now nearly 140 Iraqi Army, national police, 
and special operations forces battalions in the fight, with 
about 95 of those capable of taking the lead in operations, as 
judged by the operational readiness assessments, albeit it with 
some coalition support. Although their qualitative development 
has not always kept pace with their quantitative growth, all of 
Iraq's battalions have been heavily involved in combat 
operations that often result in the loss of leaders, soldiers, 
and equipment. Despite the losses, a number of Iraqi units 
across Iraq now operate with minimal coalition assistance.
    In order to take over the security of their country, the 
Iraqis are rapidly expanding their security forces. In fact, 
they now have some 445,000 assigned to the Ministries of 
Interior and Defense forces, and we believe there will be close 
to 480,000 by year's end.
    Significantly, in 2007 Iraq will, as in 2006, spend more on 
its security forces than it will receive in security assistance 
from the United States. In fact, Iraq is becoming one of the 
United States larger foreign military sales customers, 
committing some $1.6 billion to FMS already, with the 
possibility of up to $1.8 billion more being committed before 
the end of this year. And I appreciate the attention that some 
Members of Congress have recently given to speeding up the FMS 
process for Iraq.
    To summarize, the security situation in Iraq is improving, 
and Iraqi elements are slowly taking on more of the 
responsibility for protecting their citizens. Innumerable 
challenges lie ahead; however, coalition and Iraqi security 
forces have made progress toward achieving sustainable 
security. As a result, the United States will be in a position 
to reduce its forces in Iraq in the months ahead.
    Two weeks ago, I provided recommendations for the way ahead 
in Iraq to the members of my chain of command and the Joint 
Chiefs of Staff. The essence of the approach I recommended is 
captured in its title, ``Security While Transitioning: From 
Leading to Partnering to Overwatch.'' This approach seeks to 
build on the security improvements our troopers and our Iraqi 
counterparts have achieved in recent months. It reflects 
recognition of the importance of securing the population and 
the imperative of transitioning responsibilities to Iraqi 
institutions and Iraqi forces as quickly as possible, but 
without rushing to failure. It includes substantial support for 
the continuing development of Iraqi security forces. It also 
stresses the need to continue the counterinsurgency strategy 
that we have been employing, but with Iraqis gradually 
shouldering more of the load. And it highlights the importance 
of regional and global diplomatic approaches.
    Finally, in recognition of the fact that this war is not 
only being fought on the ground in Iraq, but also in 
cyberspace, it also notes the need to contest the enemy's 
growing use of that important medium to spread extremism.
    The recommendations I've provided were informed by 
operational and strategic considerations. The operational 
considerations include recognition that military aspects of the 
surge have achieved progress and generated momentum. Iraqi 
security forces have slowly been shouldering more of the 
security burden. A mission focused on either population 
security or transition alone will not be adequate to achieve 
our objectives. Success against al-Qaeda-Iraq and Iranian-
supported militia extremists requires conventional forces, as 
well as special-operations forces. And the security and local 
political situations will enable us to draw down the surge 
forces.
    My recommendations also took into account a number of 
strategic considerations. Political progress will only take 
place if sufficient security exists. Long-term U.S. ground-
force viability will benefit from force reductions as the surge 
runs its course.
    Regional, global, and cyberspace initiatives are critical 
to success. And Iraqi leaders, understandably, want to assume 
greater sovereignty in their country, although, as they 
recently announced, they do desire a continued presence of 
coalition forces in Iraq in 2008, under a new U.N. Security 
Council resolution, and, following that, they want to negotiate 
a long-term security agreement with the United States and other 
nations.
    Based on these considerations and having worked the 
battlefield geometry with LTG General Ray Odierno, Commander of 
the Multinational Corps-Iraq, to ensure that we retain and 
build on the gains for which our troopers have fought, I have 
recommended a drawdown of the surge forces from Iraq. In fact, 
later this month the Marine Expeditionary Unit deployed as part 
of the surge will depart Iraq. Beyond that, if my 
recommendations are approved, this will be followed by the 
withdrawal of a Brigade Combat Team, without replacement, in 
mid-December, and the further redeployment, without 
replacement, of four additional Brigade Combat Teams and two 
Marine battalions in the first 7 months of 2008, until we reach 
the presurge level of 15 Brigade Combat Teams by mid-July 2008.
    Force reductions will continue beyond the presurge levels 
of Brigade Combat Teams that we will reach by mid-July 2008. In 
my professional judgment, however, it would be premature to 
make recommendations on the pace of such reductions, at this 
time. In fact, our experience in Iraq has repeatedly shown that 
projecting too far into the future is not just difficult, it 
can be misleading and even hazardous. In view of this, I do not 
believe it is reasonable to have an adequate appreciation for 
the pace of further reductions and mission adjustments beyond 
the summer of 2008 until about mid-March of next year. We will, 
no later than that time, consider factors similar to those on 
which I base the current recommendations, having, by then, of 
course, a better feel for the security situation, the 
improvements in the capabilities of our Iraqi counterparts, and 
the enemy situation.
    This final chart captures the recommendations I have 
described, showing the recommended reduction of Brigade Combat 
Teams and illustrating the concept of our units adjusting their 
missions and transitioning responsibilities to Iraqis as the 
situation and Iraqi capabilities permit. It also reflects the 
no-later-than date for recommendations on force adjustments 
beyond next summer, and provides a possible approach we have 
considered for the future force structure and mission set in 
Iraq.
    In describing the recommendations I have made, I should 
note, again, that, like Ambassador Crocker, I believe Iraq's 
problems will require a long-term effort. There are no easy 
answers or quick solutions. And, though we both believe this 
effort can succeed, it will take time. Our assessments 
underscore, in fact, the importance of recognizing that a 
premature drawdown of our forces would likely have devastating 
consequences. That assessment is supported by the findings of a 
16 August Defense Intelligence Agency report on the 
implications of a rapid withdrawal of U.S. forces from Iraq. 
Summarizing it in an unclassified fashion, it concludes that a 
rapid withdrawal would result in the further release of the 
strong centrifugal forces in Iraq, and produce a number of 
dangerous results, including a high risk of disintegration of 
the Iraqi security forces, rapid deterioration of local 
security initiatives, al-Qaeda-Iraq regaining lost ground and 
freedom of maneuver, a marked increase in violence, and further 
ethnosectarian displacement and refugee flows, alliances of 
convenience by Iraqi groups with internal and external forces 
to gain advantages over their rivals, and exacerbation of 
already challenging regional dynamics, especially with respect 
to Iran.
    Lieutenant General Odierno and I share this assessment and 
believe that the best way to secure our national interests and 
avoid an unfavorable outcome in Iraq is to continue to focus 
our operations on securing the Iraqi people while targeting 
terrorist groups and militia extremists, and, as quickly as 
conditions are met, transitioning security tasks to Iraqi 
elements.
    Before closing, I want to thank you and your colleagues for 
your support of our men and women in uniform in Iraq. The 
soldiers, sailors, airmen, marines, and coast guardsmen with 
whom I'm honored to serve are the best equipped and very likely 
the most professional force in our Nation's history. All of us 
appreciate what you have done to ensure that these great 
troopers have had what they've needed to accomplish their 
mission, just as we appreciate what you have done to take care 
of their families, as they, too, have made significant 
sacrifices in recent years.
    The advances you have underwritten in weapons systems and 
individual equipment, in munitions, in command, control, and 
communications systems, in intelligence, surveillance, and 
reconnaissance capabilities, in vehicles, in counter-IED 
systems and programs, and in manned and unmanned aircraft have 
proven invaluable in Iraq. Additionally, your funding of the 
Commanders Emergency Response Program has given our leaders a 
critical tool with which to prosecute the counterinsurgency 
campaign. Finally, we appreciate, as well, your funding of our 
new detention programs and rule-of-law initiatives.
    In closing, it remains an enormous privilege to soldier 
again in Iraq with America's new ``Greatest Generation.'' Our 
country's men and women in uniform have done a magnificent job 
in the most complex and challenging environment imaginable. All 
Americans should be very proud of their sons and daughters 
serving in Iraq today.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]

Prepared Statement of GEN David H. Petraeus, Commander, Multi-National 
                       Force-Iraq, Baghdad, Iraq

    Mr. Chairman, Mr. Ranking Member, members of the committee, thank 
you for the opportunity to provide my assessment of the security 
situation in Iraq and to discuss the recommendations I recently 
provided to my chain of command for the way forward.
    At the outset, I would like to note that this is my testimony. 
Although I have briefed my assessment and recommendations to my chain 
of command, I wrote this testimony myself. It has not been cleared by, 
nor shared with, anyone in the Pentagon, the White House, or Congress.
    As a bottom line up front, the military objectives of the surge 
are, in large measure, being met. In recent months, in the face of 
tough enemies and the brutal summer heat of Iraq, coalition and Iraqi 
security forces have achieved progress in the security arena. Though 
the improvements have been uneven across Iraq, the overall number of 
security incidents in Iraq has declined in 8 of the past 12 weeks, with 
the numbers of incidents in the last 2 weeks at the lowest levels seen 
since June 2006.
    One reason for the decline in incidents is that coalition and Iraqi 
forces have dealt significant blows to al-Qaeda-Iraq. Though al-Qaeda 
and its affiliates in Iraq remain dangerous, we have taken away a 
number of their sanctuaries and gained the initiative in many areas.
    We have also disrupted Shia militia extremists, capturing the head 
and numerous other leaders the Iranian-supported Special Groups, along 
with a senior Lebanese Hezbollah operative supporting Iran's activities 
in Iraq.
    Coalition and Iraqi operations have helped reduce ethnosectarian 
violence, as well, bringing down the number of ethnosectarian deaths 
substantially in Baghdad and across Iraq since the height of the 
sectarian violence last December. The number of overall civilian deaths 
has also declined during this period, although the numbers in each area 
are still at troubling levels.
    Iraqi security forces have also continued to grow and to shoulder 
more of the load, albeit slowly and amid continuing concerns about the 
sectarian tendencies of some elements in their ranks. In general, 
however, Iraqi elements have been standing and fighting and sustaining 
tough losses, and they have taken the lead in operations in many areas.
    Additionally, in what may be the most significant development of 
the past 8 months, the tribal rejection of al-Qaeda that started in 
Anbar province and helped produce such significant change there has now 
spread to a number of other locations as well.
    Based on all this and on the further progress we believe we can 
achieve over the next few months, I believe that we will be able to 
reduce our forces to the presurge level of brigade combat teams by next 
summer without jeopardizing the security gains that we have fought so 
hard to achieve.
    Beyond that, while noting that the situation in Iraq remains 
complex, difficult, and sometimes downright frustrating, I also believe 
that it is possible to achieve our objectives in Iraq over time, though 
doing so will be neither quick nor easy.
    Having provided that summary, I would like to review the nature of 
the conflict in Iraq, recall the situation before the surge, describe 
the current situation, and explain the recommendations I have provided 
to my chain of command for the way ahead in Iraq.
                       the nature of the conflict
    The fundameintal source of the conflict in Iraq is competition 
among ethnic and sectarian communities for power and resources. This 
competition will take place, and its resolution is key to producing 
long-term stability in the new Iraq. The question is whether the 
competition takes place more--or less--violently. This chart shows the 
security challenges in Iraq. Foreign and home-grown terrorists, 
insurgents, militia extremists, and criminals all push the ethno-
sectarian competition toward violence. Malign actions by Syria and, 
especially, by Iran fuel that violence. Lack of adequate governmental 
capacity, lingering sectarian mistrust, and various forms of corruption 
add to Iraq's challenges.
              the situation in december 2006 and the surge
    In our recent efforts to look to the future, we found it useful to 
revisit the past. In December 2006, during the height of the 
ethnosectarian violence that escalated in the wake of the bombing of 
the Golden Dome Mosque in Samara, the leaders in Iraq at that time--
General George Casey and Ambassador Zalmay Khalilzad--concluded that 
the coalition was failing to achieve its objectives. Their review 
underscored the need to protect the population and reduce sectarian 
violence, especially in Baghdad. As a result, General Casey requested 
additional forces to enable the coalition to accomplish these tasks, 
and those forces began to flow in January.
    In the ensuing months, our forces and our Iraqi counterparts have 
focused on improving security, especially in Baghdad and the areas 
around it, wresting sanctuaries from al-Qaeda control, and disrupting 
the efforts of the Iranian-supported militia extremists. We have 
employed counterinsurgency practices that underscore the importance of 
units living among the people they are securing, and accordingly, our 
forces have established dozens of joint security stations and patrol 
bases manned by coalition and Iraqi forces in Baghdad and in other 
areas across Iraq.
    In mid-June, with all the surge brigades in place, we launched a 
series of offensive operations focused on: Expanding the gains achieved 
in the preceding months in Anbar province; clearing Baqubah, several 
key Baghdad neighborhoods, the remaining sanctuaries in Anbar province, 
and important areas in the so-called ``belts'' around Baghdad; and 
pursuing al-Qaeda in the Diyala River Valley and several other areas.
    Throughout this period, as well, we engaged in dialogue with 
insurgent groups and tribes, and this led to additional elements 
standing up to oppose al-Qaeda and other extremists. We also continued 
to emphasize the development of the Iraqi security forces and we 
employed nonkinetic means to exploit the opportunities provided by the 
conduct of our kinetic operations aided in this effort by the arrival 
of additional Provincial Reconstruction Teams.
                      current situation and trends
    The progress our forces have achieved with our Iraqi counterparts 
has, as I noted at the outset, been substantial. While there have been 
setbacks as well as successes and tough losses along the way; overall, 
our tactical commanders and I see improvements in the security 
environment. We do not, however, just rely on gut feel or personal 
observations; we also conduct considerable data collection and analysis 
to gauge progress and determine trends. We do this by gathering and 
refining data from coalition and Iraqi operations centers, using a 
methodology that has been in place for well over a year and that has 
benefited over the past 7 months from the increased presence of our 
forces living among the Iraqi people. We endeavor to ensure our 
analysis of that data is conducted with rigor and consistency, as our 
ability to achieve a nuanced understanding of the security environment 
is dependent on collecting and analyzing data in a consistent way over 
time. Two U.S. intelligence agencies recently reviewed our methodology, 
and they concluded that the data we produce is the most accurate and 
authoritative in Iraq.
    As I mentioned up front, and as the chart before you reflects, the 
level of security incidents has decreased significantly since the start 
of the surge of offensive operations in mid-June, declining in 8 of the 
past 12 weeks, with the level of incidents in the past 2 weeks the 
lowest since June 2006 and with the number of attacks this past week 
the lowest since April 2006.
    Civilian deaths of all categories, less natural causes, have also 
declined considerably, by over 45 percent Iraq-wide since the height of 
the sectarian violence in December. This is shown by the top line on 
this chart, and the decline by some 70 percent in Baghdad is shown by 
the bottom line. Periodic mass casualty attacks by al-Qaeda have 
tragically added to the numbers outside Baghdad, in particular. Even 
without the sensational attacks, however, the level of civilian deaths 
is clearly still too high and continues to be of serious concern.
    As the next chart shows, the number of ethnosectarian deaths, an 
important subset of the overall civilian casualty figures, has also 
declined significantly since the height of the sectarian violence in 
December. Iraq-wide, as shown by the top line on this chart, the number 
of ethnosectarian deaths has come down by over 55 percent, and it would 
have come down much further were it not for the casualties inflicted by 
barbaric al-Qaeda bombings attempting to reignite sectarian violence. 
In Baghdad, as the bottom line shows, the number of ethnosectarian 
deaths has come down by some 80 percent since December. This chart also 
displays the density of sectarian incidents in various Baghdad 
neighborhoods and it both reflects the progress made in reducing 
ethnosectarian violence in the Iraqi capital and identifies the areas 
that remain the most challenging.
    As we have gone on the offensive in former al-Qaeda and insurgent 
sanctuaries, and as locals have increasingly supported our efforts, we 
have found a substantially increased number of arms, ammunition, and 
explosives caches. As this chart shows, we have, so far this year, 
already found and cleared over 4,400 caches, nearly 1,700 more than we 
discovered in all of last year. This may be a factor in the reduction 
in the number of overall improvised explosive device attacks in recent 
months, which as this chart shows, has declined sharply, by about one-
third, since June.
    The change in the security situation in Anbar province has, of 
course, been particularly dramatic. As this chart shows, monthly attack 
levels in Anbar have declined from some 1,350 in October 2006 to a bit 
over 200 in August of this year. This dramatic decrease reflects the 
significance of the local rejection of al-Qaeda and the newfound 
willingness of local Anbaris to volunteer to serve in the Iraqi Army 
and Iraqi Police Service. As I noted earlier, we are seeing similar 
actions in other locations, as well.
    To be sure, trends have not been uniformly positive across Iraq, as 
is shown by this chart depicting violence levels in several key Iraqi 
provinces. The trend in Nineveh province, for example, has been much 
more up and down, until a recent decline, and the same is true in Salah 
ad-Din province, though recent trends there and in Baghdad have been in 
the right direction. In any event, the overall trajectory in Iraq--a 
steady decline of incidents in the past 3 months--is still quite 
significant.
    The number of car bombings and suicide attacks has also declined in 
each of the past 5 months, from a high of some 175 in March, as this 
chart shows, to about 90 this past month. While this trend in recent 
months has been heartening, the number of high profile attacks is still 
too high, and we continue to work hard to destroy the networks that 
carry out these barbaric attacks.
    Our operations have, in fact, produced substantial progress against 
al-Qaeda and its affiliates in Iraq. As this chart shows, in the past 8 
months, we have considerably reduced the areas in which al-Qaeda 
enjoyed sanctuary. We have also neutralized 5 media cells, detained the 
senior Iraqi leader of al-Qaeda-Iraq, and killed or captured nearly 100 
other key leaders and some 2,500 rank-and-file fighters. Al-Qaeda is 
certainly not defeated; however, it is off balance and we are pursuing 
its leaders and operators aggressively. Of note, as the recent National 
Intelligence Estimate on Iraq explained, these gains against al-Qaeda 
are a result of the synergy of actions by: Conventional forces to deny 
the terrorists sanctuary; intelligence, surveillance, and 
reconnaissance assets to find the enemy; and special operations 
elements to conduct targeted raids. A combination of these assets is 
necessary to prevent the creation of a terrorist safe haven in Iraq.
    In the past 6 months we have also targeted Shia militia extremists, 
capturing a number of senior leaders and fighters, as well as the 
deputy commander of Lebanese Hezbollah Department 2800, the 
organization created to support the training, arming, funding, and, in 
some cases, direction of the militia extremists by the Iranian 
Republican Guard Corps' Quds Force. These elements have assassinated 
and kidnapped Iraqi governmental leaders, killed and wounded our 
soldiers with advanced explosive devices provided by Iran, and 
indiscriminately rocketed civilians in the International Zone and 
elsewhere. It is increasingly apparent to both coalition and Iraqi 
leaders that Iran, through the use of the Quds Force, seeks to turn the 
Iraqi Special Groups into a Hezbollah-like force to serve its interests 
and fight a proxy war against the Iraqi state and coalition forces in 
Iraq.
    The most significant development in the past 6 months likely has 
been the increasing emergence of tribes and local citizens rejecting 
al-Qaeda and other extremists. This has, of course, been most visible 
in Anbar province. A year ago the province was assessed as ``lost'' 
politically. Today, it is a model of what happens when local leaders 
and citizens decide to oppose al-Qaeda and reject its Taliban-like 
ideology. While Anbar is unique and the model it provides cannot be 
replicated everywhere in Iraq, it does demonstrate the dramatic change 
in security that is possible with the support and participation of 
local citizens. As this chart shows, other tribes have been inspired by 
the actions of those in Anbar and have volunteered to fight extremists 
as well. We have, in coordination with the Iraqi Government's National 
Reconciliation Committee, been engaging these tribes and groups of 
local citizens who want to oppose extremists and to contribute to local 
security. Some 20,000 such individuals are already being hired for the 
Iraqi Police, thousands of others are being assimilated into the Iraqi 
Army, and thousands more are vying for a spot in Iraq's security 
forces.
                         iraqi security forces
    As I noted earlier, Iraqi security forces have continued to grow, 
to develop their capabilities, and to shoulder more of the burden of 
providing security for their country. Despite concerns about sectarian 
influence, inadequate logistics and supporting institutions, and an 
insufficient number of qualified commissioned and noncommissioned 
officers, Iraqi units are engaged around the country.
    As this chart shows, there are now nearly 140 Iraqi Army, National 
Police, and Special Operations Forces Battalions in the fight about 95 
of those capable of taking the lead in operations, albeit with some 
coalition support. Beyond that, all of Iraq's battalions have been 
heavily involved in combat operations that often result in the loss of 
leaders, soldiers, and equipment. These losses are among the 
shortcomings identified by operational readiness assessments, but we 
should not take from these assessments the impression that Iraqi forces 
are not in the fight and contributing. Indeed, despite their shortages, 
many Iraqi units across Iraq now operate with minimal coalition 
assistance.
    As counterinsurgency operations require substantial numbers of 
boots on the ground, we are helping the Iraqis expand the size of their 
security forces. Currently, there are some 445,000 individuals on the 
payrolls of Iraq's Interior and Defense Ministries. Based on recent 
decisions by Prime Minister Maliki, the number of Iraq's security 
forces will grow further by the end of this year, possibly by as much 
as 40,000. Given the security challenges Iraq faces, we support this 
decision, and we will work with the two security ministries as they 
continue their efforts to expand their basic training capacity, leader 
development programs, logistical structures and elements, and various 
other institutional capabilities to support the substantial growth in 
Iraqi forces.
    Significantly, in 2007, Iraq will, as in 2006, spend more on its 
security forces than it will receive in security assistance from the 
United States. In fact, Iraq is becoming one of the United States 
larger foreign military sales customers, committing some $1.6 billion 
to FMS already, with the possibility of up to $1.8 billion more being 
committed before the end of this year. And I appreciate the attention 
that some Members of Congress have recently given to speeding up the 
FMS process for Iraq.
    To summarize, the security situation in Iraq is improving, and 
Iraqi elements are slowly taking on more of the responsibility for 
protecting their citizens. Innumerable challenges lie ahead; however, 
coalition and Iraqi security forces have made progress toward achieving 
sustainable security. As a result, the United States will be in a 
position to reduce its forces in Iraq in the months ahead.
                            recommendations
    Two weeks ago I provided recommendations for the way ahead in Iraq 
to the members of my chain of command and the Joint Chiefs of Staff. 
The essence of the approach I recommended is captured in its title: 
``Security While Transitioning: From Leading to Partnering to 
Overwatch.'' This approach seeks to build on the security improvements 
our troopers and our Iraqi counterparts have fought so hard to achieve 
in recent months. It reflects recognition of the importance of securing 
the population and the imperative of transitioning responsibilities to 
Iraqi institutions and Iraqi forces as quickly as possible, but without 
rushing to failure, It includes substantial support for the continuing 
development of Iraqi security forces. It also stresses the need to 
continue the counterinsurgency strategy that we have been employing, 
but with Iraqis gradually shouldering more of the load. And it 
highlights the importance of regional and global diplomatic approaches. 
Finally, in recognition of the fact that this war is not only being 
fought on the ground in Iraq but also in cyberspace, it also notes the 
need to contest the enemy's growing use of that important medium to 
spread extremism.
    The recommendations I provided were informed by operational and 
strategic considerations. The operational considerations include 
recognition that:

  <bullet> Military aspects of the surge have achieved progress and 
        generated momentum;
  <bullet> Iraqi security forces have continued to grow and have slowly 
        been shouldering more of the security burden in Iraq;
  <bullet> A mission focus on either population security or transition 
        alone will not be adequate to achieve our objectives;
  <bullet> Success against al-Qaeda-Iraq and Iranian-supported militia 
        extremists requires conventional forces as well as special 
        operations forces; and
  <bullet> The security and local political situations will enable us 
        to drawdown the surge forces:

    My recommendations also took into account a number of strategic 
considerations:

  <bullet> Political progress will take place only if sufficient 
        security exists;
  <bullet> Long-term U.S. ground force viability will benefit from 
        force reductions as the surge runs its course;
  <bullet> Regional, global, and cyberspace initiatives are critical to 
        success; and
  <bullet> Iraqi leaders understandably want to assume greater 
        sovereignty in their country although, as they recently 
        announced, they do desire continued presence of coalition 
        forces in Iraq in 2008 under a new U.N. Security Council 
        Resolution and, following that, they want to negotiate a long-
        term security agreement with the United States and other 
        nations.
    Based on these considerations, and having worked the battlefield 
geometry with LTG Ray Odierno to ensure that we retain and build on the 
gains for which our troopers have fought, I have recommended a drawdown 
of the surge forces from Iraq. In fact, later this month, the Marine 
Expeditionary Unit deployed as part of the surge will depart Iraq. 
Beyond that, if my recommendations are approved, that unit's departure 
will be followed by the withdrawal of a brigade combat team without 
replacement in mid-December and the further redeployment without 
replacement of four other brigade combat teams and the two surge Marine 
battalions in the first 7 months of 2008, until we reach the presurge 
level of 15 brigade combat teams by mid-July 2008.
    I would also like to discuss the period beyond next summer. Force 
reductions will continue beyond the presurge levels of brigade combat 
teams that we will reach by mid-July 2008; however, in my professional 
judgment, it would be premature to make recommendations on the pace of 
such reductions at this time. In fact, our experience in Iraq has 
repeatedly shown that projecting too far into the future is not just 
difficult, it can be misleading and even hazardous. The events of the 
past 6 months underscore that point. When I testified in January, for 
example, no one would have dared to forecast that Anbar province would 
have been transformed the way it has in the past 6 months. Nor would 
anyone have predicted that volunteers in one-time al-Qaeda strongholds 
like Ghazaliyah in western Baghdad or in Adamiya in eastern Baghdad 
would seek to join the fight against al-Qaeda. Nor would we have 
anticipated that a Shia-led government would accept significant numbers 
of Sunni volunteers into the ranks of the local police force in Abu 
Ghraib. Beyond that, on a less encouraging note, none of us earlier 
this year appreciated the extent of Iranian involvement in Iraq, 
something about which we and Iraq's leaders all now have greater 
concern.
    In view of this, I do not believe it is reasonable to have an 
adequate appreciation for the pace of further reductions and mission 
adjustments beyond the summer of 2008 until about mid-March of next 
year. We will, no later than that time, consider factors similar to 
those on which I based the current recommendations, having by then, of 
course, a better feel for the security situation, the improvements in 
the capabilities of our Iraqi counterparts, and the enemy situation. I 
will then, as I did in developing the recommendations I have explained 
here today, also take into consideration the demands on our Nation's 
ground forces, although I believe that that consideration should once 
again inform, not drive, the recommendations I make.
    This chart captures the recommendations I have described, showing 
the recommended reduction of brigade combat teams as the surge runs its 
course and illustrating the concept of our units adjusting their 
missions and transitioning responsibilities to Iraqis, as the situation 
and Iraqi capabilities permit. It also reflects the no-later-than date 
for recommendations on force adjustments beyond next summer and 
provides a possible approach we have considered for the future force 
structure and mission set in Iraq.
    One may argue that the best way to speed the process in Iraq is to 
change the MNF-I mission from one that emphasizes population security, 
counterterrorism, and transition, to one that is strictly focused on 
transition and counterterrorism. Making that change now would, in our 
view, be premature. We have learned before that there is a real danger 
in handing over tasks to the Iraqi security forces before their 
capacity and local conditions warrant. In fact, the drafters of the 
recently released National Intelligence Estimate on Iraq recognized 
this danger when they wrote, and I quote, ``We assess that changing the 
mission of coalition forces from a primarily counterinsurgency and 
stabilization role to a primary combat support role for Iraqi forces 
and counterterrorist operations to prevent AQI from establishing a safe 
haven would erode security gains achieved thus far.''
    In describing the recommendations I have made, I should note again 
that, like Ambassador Crocker, I believe Iraq's problems will require a 
long-term effort. There are no easy answers or quick solutions. And 
though we both believe this effort can succeed, it will take time. Our 
assessments underscore, in fact, the importance of recognizing that a 
premature drawdown of our forces would likely have devastating 
consequences.
    That assessment is supported by the findings of a 16 August Defense 
Intelligence Agency report on the implications of a rapid withdrawal of 
U.S. forces from Iraq. Summarizing it in an unclassified fashion, it 
concludes that a rapid withdrawal would result in the further release 
of the strong centrifugal forces in Iraq and produce a number of 
dangerous results, including a high risk of disintegration of the Iraqi 
security forces; rapid deterioration of local security initiatives; al-
Qaeda-Iraq regaining lost ground and freedom of maneuver; a marked 
increase in violence and further ethnosectarian displacement and 
refugee flows; alliances of convenience by Iraqi groups with internal 
and external forces to gain advantages over their rivals; and 
exacerbation of already challenging regional dynamics, especially with 
respect to Iran.
    Lieutenant General Odierno and I share this assessment and believe 
that the best way to secure our national interests and avoid an 
unfavorable outcome in Iraq is to continue to focus our operations on 
securing the Iraqi people while targeting terrorist groups and militia 
extremists and, as quickly as conditions are met, transitioning 
security tasks to Iraqi elements.
                            closing comments
    Before closing, I want to thank you and your colleagues for your 
support of our men and women in uniform in Iraq. The Soldiers, Sailors, 
Airmen, Marines, and Coast Guardsmen with whom I'm honored to serve are 
the best equipped and, very likely, the most professional force in our 
Nation's history. Impressively, despite all that has been asked of them 
in recent years, they continue to raise their right hands and volunteer 
to stay in uniform. With 3 weeks to go in this fiscal year, in fact, 
the Army elements in Iraq, for example, have achieved well over 130 
percent of the reenlistment goals in the initial term and careerist 
categories and nearly 115 percent in the mid-career category. All of us 
appreciate what you have done to ensure that these great troopers have 
had what they've needed to accomplish their mission, just as we 
appreciate what you have done to take care of their families, as they, 
too, have made significant sacrifices in recent years.
    The advances you have underwritten in weapons systems and 
individual equipment; in munitions; in command; control, and 
communications systems; in intelligence, surveillance, and 
reconnaissance capabilities; in vehicles and counter-IED systems and 
programs; and in manned and unmanned aircraft have proven invaluable in 
Iraq. The capabilities that you have funded most recently--especially 
the vehicles that will provide greater protection against improvised 
explosive devices--are also of enormous importance. Additionally, your 
funding of the Commander's Emergency Response Program has given our 
leaders a critical tool with which to prosecute the counterinsurgency 
campaign. Finally, we appreciate as well your funding of our new 
detention programs and rule of law initiatives in Iraq.
    In closing, it remains an enormous privilege to soldier again in 
Iraq with America's new ``Greatest Generation.'' Our country's men and 
women in uniform have done a magnificent job in the most complex and 
challenging environment imaginable. All Americans should be very proud 
of their sons and daughters serving in Iraq today.

  [Charts referred to by GEN Petraeus during his testimony and in his 
                      prepared statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, General.
    Mr. Chairman, we go to 7-minutes--I think--I say to my 
colleagues, our witnesses have to be at the Armed Services 
Committee this afternoon, so we're going to hold this to 7-
minute rounds, and that will just, I think, get us under the 
wire, everybody being able to ask their questions. OK? But I'm 
going to hold us strictly to 7 minutes, if you don't mind.
    General, as you know, there are independent studies, such 
as the General Accounting Office report, that disputes your 
statistics, but let me not get into that debate, let me just 
ask you a question. Can a Sunni Arab travel safely to a Shia 
neighborhood in Baghdad today, without fear of being kidnapped 
or killed?
    General Petraeus. First of all, Mr. Chairman, if I could 
just make one comment about the GAO report, because one of the 
reasons for difference, frankly, is that they did have an 
earlier data cutoff. It's at least 5 weeks prior to our data 
cutoff, which runs until this past Friday, and the trends that 
have developed, in fact, have been, in many respects, confirmed 
by the data since that time. In some cases, there were 
earlier----
    The Chairman. You're saying----
    General Petraeus [continuing]. Than the data cutoff.
    The Chairman [continuing]. The 5-week trends--5-week 
difference confirms your data being correct. Is that what 
you're saying?
    General Petraeus. What I'm saying, Mr. Chairman, is that 
the additional 5 weeks of data--their data is our data. I mean, 
everyone generally uses the same database. And they just--
because of the requirement to submit their report, to go--get 
back here and to write it, and so forth, they had a data cutoff 
that was about 5 weeks before the data that I just showed you, 
and that does have quite a significant difference, because, 
again, the trend of--a 12-week trend--the final 5 weeks have 
been pretty important. In some cases, we think the data cutoff 
may have been even earlier, in their particular report.
    The Chairman. Well, again, I don't want to get in an 
argument about that, but if you look at your own chart, there 
have been at least four other occasions where there have been 
significant decreases in violence over a 3-month period, and 
then it's shot back up. Five weeks in Iraq is a moment, as you 
know better than I do, General.
    General Petraeus. Well, this is 3 months, of course.
    The Chairman. I understand that.
    General Petraeus. And, again, we are certainly watching it 
to see, and we're fighting, obviously----
    The Chairman. We're still talking about 1,000--over 1,000 
weekly attacks--1,000--and we're calling that ``success.'' 
Granted, it is down from 1,680 or thereabouts, but 1,000 a 
week.
    Let me get directly to my question, and that is: Can a 
Sunni Arab travel safely from a Sunni neighborhood in Baghdad 
into a Shia neighborhood in Baghdad?
    General Petraeus. It depends on the neighborhood, frankly, 
sir. There's no question but that travel of Sunni Arabs in a 
number of Shia neighborhoods in Baghdad is still hazardous. 
And, as I mentioned----
    The Chairman. Is there any neighborhood in Baghdad that a 
Shia can safely travel that's a--a Sunni can travel--that's a 
Shia neighborhood? Is there any----
    General Petraeus. Well, there are still substantial mixed 
neighborhoods, certainly, in the southeastern part of Baghdad, 
in particular, in which that is possible; yes, sir.
    The Chairman. The Ambassador and I went to this 
reconstruction conference. The leaders from Baghdad--the 
Kurdish Deputy Prime Minister, the Shia Vice President, Sunni 
Vice President--we were all--I was supposed to fly back and 
meet with Maliki. The helicopter was grounded because of a 
windstorm; we all sat there for 3 hours, because no one dared 
leave that city in a vehicle. Now, I found that kind of 
interesting, that if--we would have stayed there the whole 
night. I don't think there's any possibility, had we--that 
sandstorm kept up--would anybody--those guys--gotten in a 
vehicle and traveled back to Baghdad. Maybe I'm mistaken. Was 
there any possibility that was likely to happen?
    Ambassador Crocker. Yes, sir. We tried to keep some of the 
commotion behind the scenes and out of your view, but one of 
the alternatives we were actively working on was a road 
movement all the way back to Baghdad if we couldn't get the 
helicopter----
    The Chairman. And that road movement would have been highly 
secured, would it not?
    Ambassador Crocker. Well, for the chairman of the Senate 
Foreign Relations Committee, yes, sir.
    The Chairman. Oh, I love ya. [Laughter.]
    I love ya. Would have been, also, for the Kurdish Deputy 
Prime Minister. He would not be riding back and getting in his 
diplomatic automobile and driving back. Let's be straight, 
guys. You know, we--the idea that I could have walked outside--
or we could have walked outside that city and just toured the 
outside of the city--you guys would have had an apoplectic fit 
were that to occur, and no one would have stepped outside the 
city. I--let's assume you're right, there's a reduction. It's 
the difference--my view, without the distinction--
    Well, let me get to my next question. Mr. Ambassador, you 
indicated that progress will not be quick. In nondiplomatic 
speak, what does that mean? Should we be telling the American 
people that we're there for another 3, 4, 5, 6, 7, 10 years, in 
relatively large numbers? What do you mean by, ``It will not be 
quick''?
    Ambassador Crocker. I think, in the past we have set some 
expectations that simply couldn't be met. And I'm trying not to 
do that.
    The Chairman. I'm trying to get an accurate estimation.
    Ambassador Crocker. In terms of concrete things like force 
levels, as General Petraeus said, neither of us believe we can 
see beyond next summer. It would be----
    The Chairman. But you are seeing beyond next summer. You're 
saying, ``The process will not be quick.'' Are you talking 
about ``not quick,'' meaning a timeframe of a year? Are you 
talking about ``not quick'' being well beyond the end of next 
summer?
    Ambassador Crocker. It could be well beyond the end of next 
summer. It certainly will be well beyond the end of next summer 
before Iraq can achieve the end state I've laid out. There's no 
question. What that implies for, you know, our presence--levels 
and so forth--that I can't----
    The Chairman. Well--I have a minute and 16 seconds left--
let me suggest that the administration's policy, from the 
outset, has been to set up a democratic central government in 
Iraq that is trusted by the Iraqi people, that we will stand up 
an Iraqi Army so our men and women can stand down and come 
home, and that the security forces that were added in this 
tactical ramp-up were designed in order to provide for the 
government to have breathing room to reach a political 
reconciliation. Is it not true that the fundamental purpose of 
the surge, the primary purpose--political settlement--has not 
been met, at this point?
    Ambassador Crocker. Sir, clearly we do not have a national-
level political settlement. It also, I think, is in no way 
reasonable to expect that a surge that reached its full 
strength just in the middle of June----
    The Chairman. Well, that's what you asserted, though. The 
administration asserted that's what they need. Let me ask a 
concluding question in my 19 seconds, here. If, in fact, the 
circumstances at the ground are exactly what they are today in 
March of next year, will you recommend the continuation of 
somewhere between 130 and 160,000 American troops being shot 
at, killed, and maimed every day there?
    General Petraeus. Mr. Chairman, I--that's a pretty big 
hypothetical. And as----
    The Chairman. Well, I don't think it's hypothetical.
    General Petraeus. As it--I would be very hard-pressed to 
recommend that, at that point in time, obviously.
    The Chairman. Well, I would pray you'd be wise enough not 
to recommend it and start to listen to General Jones and 
others, who talk about a fundamental redeployment of our force, 
a fundamental change in our footprint in the region, and a 
fundamental alteration of our objective in moving toward a 
federal system.
    But my time is up. I yield to Senator Lugar.
    Senator Lugar. Mr. Chairman, I express the regrets of 
Senator Voinovich in being unable to attend the hearing. He's 
attending the funeral of Congressman Paul Gilmore in Ohio. He 
sends his best to both of you gentlemen, and appreciates your 
attendance, and asks that questions that he might ask might 
follow his return.
    The Chairman. Without objection.
    Senator Lugar. Thank you, Mr. Chairman.
    General Petraeus, in the current Newsweek magazine there is 
a description of strategy-building in Iraq--the article is 
called ``Brainiac Brigade,'' and it discusses, and compliments, 
the officers that you have gathered around you who, at least 
beginning in meetings in March and perhaps thereafter, defined 
a possible strategy of beefing up the local people. You have 
both mentioned this today, that essentially you try to find 
pockets of stability, or near-stability, where ethnic cleansing 
has ceased, where at least violence appears to be lower, or can 
be contained, and there appear to be responsible persons at the 
local or the provincial level who are prepared to take some 
responsibility. And, at least according to the Newsweek 
article, this strategy has won out over a strategy that would 
pursue every insurgent everywhere, which would be less 
practical than the one you apparently adopted.
    Now, building on that, essentially, David Brooks, in the 
New York Times today, responding to the testimony of both of 
you gentlemen yesterday, indicates that this strategy of 
attempting to build the locals at least is making some headway. 
Even if the central government is not able to reconcile Shiites 
and Sunnis, or various divisions even among the Shiites and so 
forth, locals are doing better at this. He also, of course, 
mentions that, in part, one reason for the decline in killings 
in Baghdad, and in those areas that were illustrated on the 
charts, is that as many as 35,000 Sunni families have fled 
Baghdad this year. A good number of formerly mixed 
neighborhoods are now more homogeneous. Some of your troops 
have built walls around various neighborhoods--it's been 
reported for several months--so people could not kill each 
other as readily. In some places you may have total cleansing, 
while in others you have reconciliation and still others a 
local consensus to enforce law and order. This raises a 
question on where and how to intervene or enforce. The 
President, by going to Anbar not to Baghdad on his recent trip 
perhaps acknowledges this. Anbar, being perhaps a signal 
victory for localism.
    Now, Ambassador Crocker, from the diplomatic standpoint, as 
you look at all of this over the course of time, potentially, 
this is clearly not a strategy that anyone would have founded 
at the beginning, but perhaps one in which a good number of 
people are able to live and let live, and to govern themselves.
    We note the Kurds, yesterday, were dealing with the Hunt 
Oil Company. Now, the Hunts are not drilling for oil yet, but, 
nevertheless, they left well beyond the oil law, although they 
promised to distribute the money if any of it comes to it. In 
other words, are there possibilities in which you have these 
local situations that, sort of, contribute in a united way, so 
the central government, feeble as it may be, inept, and so 
forth, either for purposes of distribution or some sense of 
unity. Or perhaps a functioning federalism will develop, or 
what some have called--sort of, soft partition--not the three 
parts that were often mentioned, but multiple parts, as a 
matter of fact?
    And, if so, can this be protected or reinforced, then, by 
the diplomacy, which you mentioned? Can we institute something 
more forcefully, with a regular secretariat, meeting all the 
time? I envision a forum with people rubbing shoulders on a 
regular basis rather than wondering who they're talking to, 
simply so there are not misapprehensions or miscalculations and 
bringing transparency, at least among the neighbors into what 
is occurring. This might prevent invasions of others, as we go 
forward perhaps with a minimal number of American troops there 
to keep the peace, generally, to be a gentle referee of the 
process as the Iraqis work things out.
    Can you make any comment about this, sort of, general view 
of things?
    Ambassador Crocker. Thank you, sir.
    I'd make two general comments. First, on what is going on, 
or what may go on, in Iraq. I would agree completely that we 
have to maintain an open mind, a minimum of preconceptions, an 
absence of U.S. models for what Iraq should be, and an 
awareness and readiness to respond to what may actually be 
happening on the ground that can take Iraq in a positive 
direction, whatever that may be. The Iraq of the future will 
definitely not resemble Iraq of 2003, and it may differ greatly 
from Iraq today.
    There is decentralization going on. There's no question. 
The role and power of governors and provincial councils, 
although not yet fully defined, is far in excess of what it 
ever has been. And I think that is a good thing. So, the 
Iraqis, again, are going to need to debate these things for 
themselves at every level, and there have to be connections 
between the levels. And that's what I was referring to in my 
statement when I noted that we are starting to see a more 
robust debate on what the nature of federalism is, and we're 
starting to see it among Sunnis, which I think is a positive 
sign.
    So, I think things can very well move in that direction. 
And, if, and as, they do, we need to be there to encourage 
positive direction.
    With respect, again, to the neighbors and others, that is 
exactly our intent, to have a more intensive, more positive, 
more regulated engagement between Iraq and its neighbors. I 
think, for example, that it would be a very good thing if some 
of Iraq's Arab neighbors, themselves, decided to support 
economic development, say, in Anbar, now that you have a 
security environment that permits that.
    I also think the United Nations is now positioned to play a 
more active and involved role. As you know, the new mandate for 
UNAMI contains a number of additional areas, including those 
you touch on. They now have a mandate to support national 
dialog and political reconciliation, to resolve disputed 
boundaries within Iraq, to promote regional dialogue, all with, 
of course, the permission of the Iraqi Government, at the 
request of the Iraqi Government. So, I think, again, you have 
an Iraqi internal process--or, in reality, processes--that we 
have to be attuned to and encourage them to move on, but then a 
number of opportunities to support that, regionally--
bilaterally, regionally, internationally, and internationally 
with the U.N. mission in Iraq. So, I think all of those come 
into play.
    Senator Lugar. I thank you very much. I thank both of you 
for your service. America is fortunate to have such 
extraordinary leadership, at this point.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Dodd.
    Senator Dodd. Thank you. Thank you, Mr. Chairman. My 
understanding, is that our longer statements will all be 
included in the record.
    The Chairman. Yes. Any opening statement that anyone would 
want to make will be placed in the record before the question 
period.
    Senator Dodd. I think you, Mr. Chairman. And I'll ask that 
be done.
    [The prepared statement of Senator Dodd follows:]

   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, thank you for holding this critical hearing. General 
Petraeus and Ambassador Crocker thank you for your service to this 
country and for appearing before this committee today.
    It pains me to say that this administration's Iraq policy, 
including the surge tactic is a failure--and that failure is 
reconfirmed everyday by unfolding events in Iraq.
    The August 2007 National Intelligence Estimate makes clear that 
violence in Iraq remains high and critical. Among its conclusions are 
that, ``the level of overall violence, including attacks on and 
causalities among civilians remains high,'' that ``Iraq's sectarian 
groups remain unreconciled,'' and that ``Iraqi political leaders remain 
unable to govern effectively.'' It also determined that ``broadly 
accepted political compromises required for sustained security, long-
term political progress and economic development are unlikely to emerge 
unless there is a fundamental shift in the factors driving Iraqi 
political and security developments.''
    The Government Accountability Office has also weighed in on this 
matter. In its recently released report assessing the progress that 
Iraqi authorities have made in meeting benchmarks that were set by 
them, the GAO declared that the Iraqi Government has not met the vast 
majority of its own legislative and security benchmarks. The GAO report 
directly contradicts the Defense Department's analysis of the alleged 
decreasing violence in Iraq.
    Testifying before this committee last week, Comptroller General 
David Walker explained that ``the primary point of the surge was to 
improve security, in particular, in Baghdad, in order to provide 
political breathing room, to make the necessary tradeoffs to achieve 
political progress, hopefully resulting in national unification.'' And 
with respect to achieving its intended goal, Mr. Walker asserted that 
``as of this point in time, it [the surge] has not achieved its desired 
outcome.''
    General Jones recently reiterated this exact point--he concluded 
that ``the most important event that could immediately and favorably 
affect Iraq's direction and security is political reconciliation . . . 
Sustained progress within the Iraqi security forces depends on such a 
political agreement.''
    In the 8 months since President Bush announced the surge, we have 
spent tens of billions of dollars, over 700 American service men and 
women have sacrificed their lives, and nearly 4,400 have been wounded--
all to provide breathing space for the Iraqi Government to engage in 
political reconciliation. And what has the Iraqi Government done with 
this breathing space?
    It failed to meet vital political benchmarks it set for itself: 
Those benchmarks include completing a constitutional review, 
implementing laws to roll back de-Baathification, enacting legislation 
relating to oil revenue sharing, amnesty, and outlawing and disarming 
militias.
    This unfinished legislative agenda did not stop the Iraqi Congress 
from taking an entire month of vacation this past summer, all while our 
troops continued to surge into the streets of Baghdad, sustaining some 
of the highest casualty rates in recent months. And in July a block of 
Sunni politicians resigned from the government, leaving more than half 
of the cabinet seats vacant.
    And all the happy talk that the surge is working isn't fooling the 
Iraqi people.
    According to recent polling, about 68 percent of Iraqis believe 
that the surge tactic has hampered conditions for political 
reconciliation, reconstruction, and economic developments. Seventy 
percent of Iraqis believe that security has deteriorated as a result of 
the surge tactic, while 60 percent believe it's OK to attack U.S.-led 
forces.
    This poll also found that 93 percent of all Iraqi Sunnis think it 
is justified to kill American troops. I sincerely hope that the Sunnis 
whom we are arming and training in Anbar province all fall within the 7 
percent of that population that does not think it is justified to kill 
American troops. Otherwise, we are simply arming our future enemies--
making the exact same mistakes we made in Afghanistan during the cold 
war, with dire consequences for the safety of our men and women in 
uniform and the future in Iraq.
    It is crystal clear that continued military intervention in a 
domestic sectarian internecine civil war in Iraq is only delaying the 
day of political reckoning in Iraq. Only the Iraqi political 
leadership, at all levels, can reach political accommodations necessary 
to bring that country together politically and thereby reduce violence, 
of all forms, in that country. There is no military solution to the 
conflict in Iraq; you said that yourself, General Petraeus.
    And yet our military tactics have resulted in zero political 
movement toward a political solution. That government is further away 
from such an accommodation than when the surge tactic started. And 
frankly unless we make them take ownership of their own destiny they 
never will reach a political accommodation to resolve their 
differences.
    That is why I will not support any additional assistance for our 
military involvement in Iraq that does not include a clear enforcement 
date for beginning and completing the deployment of U.S. combat forces 
from Iraq.
    I sincerely hope that members of this committee will continue to 
stand in opposition to this failed policy in Iraq and continue to 
demand that the President immediately change course in Iraq by 
beginning a redeployment of our combat forces from that country.

    Senator Dodd. Let me join with the chairman and you, 
General Petraeus, in, of course, expressing our deep 
appreciation for the men and women under your command. Whatever 
disagreements we have here about policy, I don't think you'll 
find any member of this committee, or any Member of this 
Congress--in fact, the constituents we represent--while there 
are disagreements, and serious ones, over policy issues, there 
is a deep and profound respect for the men and women who are 
serving in a very, very difficult set of circumstances. And I 
wouldn't want to begin any comments without expressing that 
view. It's important. I think they understand that--but, while 
we debate about policy questions, there's no debate about the 
admiration we have for the courage they're showing under these 
circumstances.
    There have been reports about the data and the methods used 
for securing the number of statistics we're going to deal with, 
that we are dealing with regarding the level of violence in the 
area. I noted, on the chart, General, that you showed--I think 
it was the--one of the first page--I won't ask you to put it 
back up, but it shows the chart of the violence. I'm just 
curious--it shows, here, actually, that the surge begins, 
really, about February 1, 2007, on the chart, and that--the 
numbers seem to come down. They're already down from the high 
mark earlier. Am I misreading that?
    General Petraeus. No; that is absolutely correct. In fact, 
there was actually quite a substantial drop in the month of 
February, just with the announcement of the Baghdad Security 
Plan. In fact, a number of, we think, Shia militia elements 
took a knee for a while to sort of sort out. I think they 
didn't realize that we did not have more than just the initial 
brigade on the ground. But there's no question that the 
ethnosectarian violence had crested, really, in December, and 
was headed down at that time, although still at very, very high 
levels.
    Senator Dodd. OK. Well, we can go around and debate the 
statistics here back and forth. The GAO, obviously, has a 
different set of conclusions, and there are others who argue 
about how well the surge is working, in terms of the level of 
violence. But the whole purpose of it, of course, as you've 
been stating, and the Ambassador has, is creating that space 
for the political process to move forward. Now, some 700 troops 
have been injured in the timeframe we've been there in this 
past 8 or 9--8 months or so.
    I was at Walter Reed recently, talking to a young man from 
Connecticut who had lost his eye in Iraq--would go back, by the 
way, this afternoon; not an uncommon reaction of people 
serving--and he said the following to me, and I'm almost 
quoting him for you, General. I asked him about the surge and 
how it was working. He said to me, ``Senator, we'll spend a 
month, month and a half to clean out an area.'' He said, ``An 
hour and a half,'' and I'm quoting him exactly here, ``an hour 
and a half after we leave''--it may be an exaggeration, 
obviously--``after we leave, things are right back the way they 
were before.'' He went on to say, ``Look, the civilian 
population''--and, again, I'm quoting him--he said, ``they know 
where the IEDs are, they know where the ammo dumps are. They 
won't share that information with us here.''
    I'm looking at statistics. This morning, when asking, ``Do 
you think the increase in U.S. forces in Baghdad and the 
surrounding provinces over the past months has made security 
better?'' 70 percent say worse in the deployment areas; 68 
percent, elsewhere in Iraq, draw the same conclusions. Another 
recent poll had--68 percent of Iraqis believe that the surge 
has hampered conditions for political reconciliation, 70 
percent believe the security has deteriorated as a result of 
this, 93 percent of all Iraqi Sunnis think it's justifiable to 
kill Americans.
    How do we justify this continuation? And what makes us 
believe, given the failure over the past number of months on a 
number of key issues, which Senator Lugar raised, and Senator 
Biden has raised, the benchmarks that they set for themselves--
completing a constitutional review, implementing laws to roll 
back the de-Baathification, enacting legislation relating to 
oil revenue-sharing, amnesty, and outlawing and disarming 
militias--all of those benchmarks, they set for themselves, and 
yet we're seeing nothing getting better here at all. And, as 
General Jones recently pointed out in his own testimony, or 
talking, here, he said that, ``Long-term security advances in 
Iraq are impossible without political reconciliation,'' again, 
something both of you recognize. And yet, I don't seem to get 
an indication, don't get a feeling here, that there's any real 
opportunity or optimism that this is going to get better. All 
of the effort that's been made over the years--before the 
surge--how many conversations did President Bush have with the 
leadership in Iraq--Vice President Cheney, congressional 
leaders going over there? We have been begging that leadership 
for the last 4\1/2\ years to get their act together, begging 
them to do it, understanding that only they can do it. And yet, 
you come here again this morning, 4\1/2\ years later, even 
after the surge--you can argue about statistics, but no real 
indication that we're getting any closer to that. What makes 
you possibly believe that anything further like this is going 
to produce the results that everyone else has failed to produce 
over the previous 4\1/2\ years?
    General Petraeus. What I draw some encouragement from, 
Senator, is, again, the activity that is ongoing, actually, in 
the absence of legislation. There is, for example, no oil-
revenue-sharing law that has been agreed, that--it's been 
proposed, but certainly not passed, by the Council of 
Representatives. But Iraq is actually sharing oil revenue. In 
fact, very similar to what is likely to happen if that--the 
bill, as currently envisioned, is passed. In fact, as--when the 
Ambassador was out in Ambar province, they increased the budget 
of Anbar province, a Sunni Arab province, a Shia government--
Shia-majority government did that.
    There is no general amnesty law. There is, actually, 
though, conditional immunity. That's the only description of 
what happens when former insurgents from a place like Abu 
Ghraib--Sunni Arab, but right next to a Shia--a Sunni-Shia 
fault line--are allowed to attend the Iraqi police academy, 
where they will graduate, some number of them, on the 10th of 
this month, and others from another location. That's a very 
significant step. And, candidly, that is what gives some 
encouragement. There are a number of examples of this, where 
the big law--the national reconciliation has not taken place, 
but there are steps just happening, there are actions being 
taken, that give you hope that they can, indeed, reconcile with 
one another, accommodate one another, and so forth.
    We have worked very hard with the local peace. That is now 
supported by the Iraqis. We have a senior diplomat, a two-star 
British general, on the force--or the engagement cell. And 
Prime Minister Maliki has formed a National Reconciliation 
Committee that works with that cell to try to connect the 
national-level actions to move, for example, local volunteers 
on to the rolls of the Ministry of Interior, Ministry of 
Defense forces, so they're paid nationally, then. As you know, 
there's no local funding for police. And that is happening. 
That's what happened in Anbar province, and that's what gives 
some confidence that these tribes--you know, certainly we 
applauded when they turned their weapons, instead of on us, on 
al-Qaeda. We have not armed them, by the way. We have not--we 
don't have weapons to give to tribes, or something like that. 
We have funded some of them for periods, and then they have 
been moved onto the rolls of these national ministries. That 
means that they're in a chain of command that extends to the 
top. It means that the budget is paid by the center; in this 
case, a Sunni Arab Minister of Defense, but a Shia Minister of 
Interior has hired now, again, over--some 20,000 or so police 
in Anbar province alone. That's the type of activity that gives 
me some encouragement, even though, as the chairman correctly 
quoted from my letter to the troops, they have not met--it has 
not worked out the way we had hoped with respect to the 
national legislation, but there have been these other 
activities that have given us some cause for hope.
    Senator Dodd. Can I just quickly ask you--that young 
soldier at Walter Reed, are his views commonly held views about 
the cooperation from the----
    General Petraeus. Sir, it----
    Senator Dodd [continuing]. Iraqi population?
    General Petraeus. I mean, you--there's 165,000 different 
views on the ground. And if you go to Anbar province right now, 
they feel as if they have--you know, they're in the loving arms 
of their Sunni Arab citizens who shot at them, you know, 6, 8 
months ago. And it does change. There's no question about it. 
And you can walk around the map, and you could say, looking at 
it, literally, this is where they'll help you, this is where 
they won't. The fact is that we are getting a lot more help. I 
mean, that's the only explanation for the fact that we now have 
4,400 weapons caches. We may actually have doubled the number 
that we got all of last year. And they're pretty substantial 
ones, and quite a few of them, in fact, are materials that 
would have been put into car bombs and so forth.
    Senator Dodd. Thank you.
    General Petraeus. Thank you, sir.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome.
    As Senator Dodd and others have noted this morning, every 
American is proud of the service of our American military and 
those who are serving, in whatever capacity, in a very 
difficult situation in Iraq. And we should not at all confuse 
the sense of support and the gratitude that all Americans have 
for your leadership and your service.
    That said, we just--as you--each have responsibilities. We 
are elected by the people of our States. To question strategy 
is not unpatriotic.
    Now, with that said, Ambassador, General, when you look 
at--and I know you have--the preceding reports that we have 
talked about today and you have added to with information, 
numbers--General Jones's report, the General Accountability 
report--I spent some time with Stuart Bowen, the IG for Iraqi 
Reconstruction--the latest National Intelligence Estimate; 
Anthony Cordesman's latest report--threaded throughout those 
reports, and then listening carefully to what the two of you 
have said this morning, are some very bright-line 
contradictions.
    Let's start with the one that almost everyone that I'm 
aware of has said the core issue is--the most important issue--
and that is political reconciliation. And I have quotes from 
you, General Petraeus, and you, Ambassador Crocker, from the 
President. Every senior member of our Government involved in 
our policy and our strategy in Iraq all agree, as you said, 
General Petraeus, there will be no military solution in Iraq.
    Now, when you look at the reports--let's start with the 
question I asked the Comptroller General last week, when I 
asked him his analysis of the current Iraqi Government. Is it a 
functioning government? And his response to me was, ``At best, 
it is dysfunctional.''
    Now, you may disagree with that. But when you take the sum-
total analysis of these reports that we've looked at, they lead 
us to a pretty clear conclusion, that, in fact, this Government 
in Iraq is dysfunctional. And, when you add further to what the 
Chief of Staff to the United States Army had to say--General 
Casey--about tactical effects of surges and how minimal they 
are, and how they will--as Admiral Fallon has said, ``No amount 
of time will make--or troops--will make much difference unless 
there is a political reconciliation''--I doubt if you--either 
of you disagree with that analysis. If you do, please tell the 
committee why. The other part of this is--it seems to me 
logical--that when you flood a zone with more troops, when you 
put more troops in Baghdad, or Anbar province, you're going to 
see some consequence to that, you're going to see some result. 
So, I don't think that that's particularly news, that where we 
have inserted more American troops, costing more American 
lives, we've seen some differences. But, just as one of the 
most flawed dynamics of our policy invading Iraq 4\1/2\ years 
ago, is, we never had enough troops, we still don't have enough 
troops. So, it seems to be logical that it would follow. But 
when you look at the southern part of Iraq, which I noted 
neither one of you noted today, one of the senior members of 
General Jones's task force said to me, when he returned, 
``We've probably lost southern Iraq.'' And I said, ``You must 
be kidding?'' He said, ``No.'' He said, ``The four provinces of 
southern Iraq are gone, they are lawless, there's no Iraqi 
national army down there, the police are corrupt''--as 
indicated in General Jones's report, incidentally, as well as 
others--``the British used to have 40,000 troops in Iraq. As 
you all know, they are at about 5,000. They're huddled in the 
airport in Basrah. What I was told, by not just this individual 
from General Jones's group, but other reports, intelligence 
reports and other reports I get--actually, the newspaper--is, 
lawless gangs of marauders, of Shia militia, are in charge in 
Basrah and those four provinces. As you both know, two 
governors have been assassinated in the last 2 months. I was 
told, by one individual who has been down there recently, that 
we are essentially paying tribute to these people to keep open 
the port.
    Now, the contradictions, in my mind, Ambassador and 
General, as much as you want to put a good picture on this, and 
that's partly, I understand, your job, and I understand it's 
your responsibility, and I don't question--you believe exactly 
what you've come before this committee to say--but I have to 
ask this question. Where is this going? Now, let's don't get 
down into the underbrush of the 18 benchmarks. And, by the way, 
let's clear some of the record on that. Those 18 benchmarks 
didn't come from the Congress of the United States; those 
benchmarks came from the Iraqi Government and this 
administration. Somehow it's, ``The Congress dictated these 
benchmarks.'' Well, we didn't. We didn't. Well, let's not argue 
about who's got better numbers or better numbers in the context 
of more frequent numbers. Let's get above the underbrush and 
look at the strategic context, which, essentially, we have 
never done. That's not your fault, General. It's not Ambassador 
Crocker's fault. It's this administration's fault. We have 
never, ever looked at Iraq from the larger strategic context 
of--not of Iraq only, but Iran, Syria, and the Middle East.
    Now, where is this going to go? Because the question that 
is going to continue to be asked--and you all know it, and you 
have to live with it--and when you ask questions, as we all do, 
about, ``Is it worth it, the continued investment of American 
blood and treasure?''--when Senator Dodd presents to you the 
evaluation of one lowly enlisted man--and, by the way, I assume 
you read the New York Times piece, 2 weeks ago--seven NCOs in 
Iraq today, finishing up 15-month commitments. Are we going to 
dismiss those seven NCOs? Are they ignorant? They laid out a 
pretty different scenario, General, Ambassador, from what 
you're laying out today. Senator Biden said to me once--I 
think, on our first trip to Iraq--he turned around, and I was 
gone, and he said, ``Where did Senator Hagel go?'' He found me 
out talking to the guys in the jeep, the corporals and the 
sergeants who have to do the dying and the fighting. I've 
always found it--you want an honest evaluation, not through 
charts, not through the White House evaluations--you ask a 
sergeant or a corporal what they think. I'll bet on them every 
time, as I know you will, General, I know you will.
    Now, where is this going? We've got too many disconnects 
here, General, way too many disconnects. Are we going to 
dismiss the five reports that I just noted?
    I would say to you, Ambassador, one of your quotes--``If we 
don't be careful, we're going to see Iraq devolve into a civil 
war.'' Come on. Our national intelligence report, earlier this 
year, said we're in a civil war, that they're--it's sectarian 
violence. But yet, you said that in your testimony this 
morning. You gave us a great inventory of what a brutal, bloody 
dictator Saddam was. Well, we know that. That's not the issue 
here. Are we going to continue to invest American blood and 
treasure at the same rate we're doing now--for what? The 
President said, ``Let's buy time.'' Buy time? For what? Every 
report I've seen--and I assume both of you agree with this--
there's been, really, very little, if any, political process 
that is the ultimate core issue, political reconciliation in 
Iraq.
    I know my time is up, but I would appreciate, Mr. Chairman, 
if I could get an answer with--from these two gentlemen on that 
question.
    Thank you.
    Ambassador Crocker. Thank you, Senator. I'll just touch 
very briefly on the key and critical points you raise here.
    There is an enormous amount of dysfunctionality in Iraq. 
That is beyond question. The government, in many respects, is 
dysfunctional, and members of the government know it. There is 
a lot of discontent about that, in and out of government. And, 
if you will, that's some qualified good news. People who 
previously espoused a strict sectarian or ethnic line, and how 
positions were apportioned, for example, are now saying, ``This 
isn't working.'' That's part of the debate in Iraq, and a 
fairly common part of the debate. The application is going to 
be a lot more difficult, but Iraqis are talking about precisely 
that kind of dysfunctionality.
    A second point I'd make is on security and violence. Iraq, 
in my judgment, almost completely unraveled in 2006 and the 
very beginning of 2007, as sectarian violence after February 
2006 just spiraled up. Under those conditions, it is extremely 
difficult--it is impossible--to proceed with effective 
governance or an effective process of national reconciliation. 
It's just in the last couple of months that those levels of 
violence have come down in a measurable way.
    And we can have lots of debates about what measure is used, 
but the one that, as a Foreign Service officer, that I take the 
most seriously is the perception among Iraq's leaders, all the 
main communities, that the security situation has improved. 
That gives you an environment when you can start working on 
meaningful national reconciliation. And that's why I placed an 
emphasis, in my statement, on the need for Iraqis to work out 
these fundamental questions that are as yet unresolved. What is 
this state going to look like? What is the relation between the 
provinces and the center, the provinces and each other? That's 
still unresolved. Now they're starting to get the space to work 
on it.
    What I do point to as a moderately encouraging factor is 
that, when security does improve, as we saw in Anbar, political 
life starts up again. For example, in Anbar now every 
significant town has a municipal council, has an elected mayor. 
That was not the case 6 months ago. We have also seen provinces 
and the center connecting to each other. And if there is one 
thing where the government is showing some functionality on, in 
marked difference to last year, it's distributing revenues. 
Provincial budgets are being funded, and they're being funded 
in a reasonably equitable way. We do not hear from the Sunnis 
that they're getting shortchanged, for example. So, that 
suggests to me that, at a minimum now, we've got an environment 
developing--not fully developed, but developing--with violence 
at low enough levels where a meaningful discussion on national 
reconciliation can take place. That's now what needs to happen.
    General Petraeus. Senator, first of all, with respect, my 
responsibility, as I see it, is not to give a good picture, 
it's to give an accurate picture, as forthright a picture as I 
can provide. And that is what I've tried to do.
    Second, we will--certainly will not be at the same rate of 
forces. What I--if the recommendations are approved, as I 
mentioned, the Marine expeditionary unit, 2,000-plus, will be 
coming out this month, and we'll then draw down one-quarter of 
our ground combat brigades and two additional Marine 
battalions.
    The Chairman. General, point of clarification, excuse me. 
Was that----
    General Petraeus. Yes, sir.
    The Chairman [continuing]. Expeditionary force--was there--
they were scheduled to come out anyway, right?
    General Petraeus. Sir, they are scheduled to come out, but 
I could have easily requested----
    The Chairman. No, no; I understand.
    General Petraeus [continuing]. An extension of them. And--
--
    The Chairman. You could have.
    General Petraeus [continuing]. In fact, we were--I 
considered that. We did request an extension earlier, and that 
was granted. And, in fact--so, we are now----
    The Chairman. Excuse me again, factually----
    General Petraeus [continuing]. Allowing them to go home.
    The Chairman [continuing]. They're--you extended them to 15 
months?
    General Petraeus. No, sir.
    The Chairman. How----
    General Petraeus. This is a MEU, that was in--a float MEU, 
came ashore a couple months ago, was extended on the ground, 
just to continue the work--they're working north of Fallujah, 
cleaning up a pocket of al-Qaeda--allow the Iraqi Army to go in 
there and to replace them in that area. And they will now go 
home, without replacement. The key is ``without replacement,'' 
actually. They're--the MEU is scheduled to rotate out, and that 
was going to happen, but we're not asking for the Central 
Command strategic reserve. Again, that's the point.
    The Chairman. Thank you for the clarification.
    General Petraeus. And then, as I mentioned, the other 
forces.
    Another important point, Senator, is that many of the 
positive developments have not just been a result of additional 
forces. Some cases, they have. There's neighborhoods in Baghdad 
where we are sitting on a sectarian fault line, trying to 
stabilize it to stop the eating that continues, it--literally, 
just this sectarian violence that never stops until it--the 
area is stabilized. And there are some neighborhoods where we 
are, indeed, trying to do that. The seven sergeants are in one 
such neighborhood.
    But, in a number of cases, the progress is not just because 
of more forces sitting on a problem, it's the result of a 
fundamental change on the ground. Nowhere is that more visible, 
obviously, than Anbar province, where--and this bears out the 
whole idea that it is about political change--what happened in 
Anbar is politics. It was the result of tribes, sheikhs, 
saying, ``No more,'' to al-Qaeda. That's a political decision, 
to oppose an organization with which they were at least tacitly 
in league, and perhaps supporting. And that has happened in 
other areas, now, as well. In Diyala province, a very, very 
challenging area, mixed ethnic--in fact, Sunni, Shia, and 
Kurd--the sheikhs have come together there and said, ``We 
reject extremism of any form,'' including, therefore, Shia 
militia extremism. And the government, and we, are trying to 
figure out how to help them, how to build on that, how to use 
that to augment, to reinforce, build on the success that our 
soldiers and Iraqi forces achieved in clearing Baqubah of al-
Qaeda, to then hold it and continue that effort with the 
support, again, of the tribes. And that is hugely important, 
because that is a shift. Sunni Arabs, by and large in Iraq for 
a number of years, were supportive, at the least--at least 
tacitly, again--to al-Qaeda because of their feelings of 
dispossession, disrespect, unemployment, and a variety of other 
reasons. And that's an important development, that's an 
important phenomenon that we obviously want to work very hard 
to reinforce, while ensuring that we still tie it in to the 
center sufficiently so that it doesn't create additional 
problems down the road.
    We're talking about, really, sort of finding who are the 
irreconcilables, and trying to isolate them, and then to help 
the Iraqi Government to bring the reconcilables--to become part 
of the solution, instead of part of the problem. And that is 
what has happened, again, most notably, in Anbar, but is 
applicable, to some degree, in other areas, as well.
    Thank you, sir.
    The Chairman. Senator Kerry.
    Senator Kerry. Thank you.
    Ambassador Crocker, General Petraeus, thank you very much 
for being here today, and, more importantly, thank you both, 
and thanks to all of the diplomatic service and the troops, for 
their remarkable sacrifices on our behalf. We are enormously 
grateful--and respectful, for their duty and sacrifice.
    I would like to ask you both a couple of questions, and 
that's difficult, given the timeframes, so let me try to frame 
them, put them in a context, and then let you answer.
    But, first of all, this is a historic moment. Not since the 
country heard from General Westmoreland, almost 40 years ago, 
has an active-duty general played such an important role in the 
national debate with respect to security strategy. So, this is 
different and significant. But I also will remind you, and 
those who are following this discussion, that almost half the 
names that found their way etched into the Vietnam Wall after 
Westmoreland's testimony found their way there when our leaders 
had acknowledged, in retrospect, that they knew the policy was 
not working, and would not work. And all you need do to 
underline this chilling fact is read Defense Secretary 
McNamara's books and other histories of that period.
    So, obviously, we dare not repeat those mistakes now, and 
that's why these judgments are so critical. Our troops are owed 
nothing less than a policy worthy of their high sacrifice. And 
our country is owed a policy that meets our needs, our national 
interest, and one that ultimately can get the job done. What I 
fear, as I hear these analyses, is that we are passing by the 
strategic, larger issues here, and finding ourselves dealing 
with statistics and analysis that may have meaning as to one 
location or one conceptualization, but doesn't have meaning as 
to the larger question of the strategic reconciliation 
necessary, the makings of inherently political decisions. For 
all of your efforts, General, for all of the efforts of our 
troops, they can't make the Iraqis make the decisions that they 
must.
    So, one question is this: Is it acceptable that young 
Americans are dying and being grievously wounded while Iraqi 
politicians delay and delay--and again delay--meeting their own 
standards?
    Second, in the south, as Senator Hagel has mentioned: Is it 
acceptable that the British redeploy to an air base and leave 
four southeastern provinces, where 30 percent of the Iraqi 
population is and 80 percent of the oil revenues are, and then 
leave it to local militia to fundamentally fight it out under 
Iranian influence? If that is acceptable, then why is it not 
acceptable to other parts of the country? And if such a 
scenario is not acceptable, what are we going to do about it?
    Third question, to Ambassador Crocker, with respect to 
reconciliation and diplomacy: It must be emphasized that 15 
months after the Maliki government has come to power, that its 
commitments are not being met. This is not something Congress 
put forward, it's not something the administration dreamt up. 
It is the Iraqis who said to us, ``Measure us by these 
benchmarks.'' And here we are now, after the escalation of 
forces, making that measurement. Why is it not appropriate that 
they should be held to their own standards? And isn't it, in 
fact, moving goal posts to suggest, ``Well, we're not really 
going to look at the benchmarks themselves, we're instead going 
to look at the activity underneath and find out whether or not 
that is adequate''? It clearly is not adequate when the 
fundamental issue is: How long can you continue to ask our 
troops to make these kinds of sacrifices, when you don't have 
the necessary fundamentals of political accommodation?
    Now, you've pointed to Anbar province, but you have to show 
us how that is relevant to accommodation nationally, because 
every indicator points to a narrative that Anbari sheikhs 
decided they were tired of having their daughters raped, their 
sons beheaded, their businesses undermined, and their towns 
blown up by al-Qaeda, and they've made an accommodation with 
us, not with the national accommodation, in order to avoid that 
from happening. That makes sense. But, in the end, if we've 
armed them and trained them, and there is no national 
reconciliation, have we simply made more complicated the 
question of how you resolve the civil war that is ongoing?
    The only way this is resolved is through such 
accommodation. When the war started, Baghdad was 65 percent 
Sunni. Today, Baghdad is 75-or-so percent Shia. And one of the 
many reasons the violence is down is because there's been this 
enormous dislocation of the population, the middle class has 
left, and some would say that a kind of partition has already 
taken place.
    So, help us, please, Mr. Ambassador, to understand. How 
then are you not moving the goal posts? Why should we not hold 
the Iraqi Government itself accountable to its own standards? 
And why will there be any indication that accommodation will 
now effectively take place, when you've said you're going to 
leave 130,000 troops, which is where we were last year, when 
Iraq almost fell apart. That's what you're telling the American 
people. We'll be there next year and next summer, and, having 
told that to the Iraqis, what's the leverage to make them make 
the decisions they've been unwilling to make to this moment?
    Three questions.
    Ambassador Crocker. If I could start, again, I think we all 
agree--we clearly agree--that the essence of the issue here is 
national reconciliation, political reconciliation. I think, at 
the same time, we've got to acknowledge the clear linkage 
between security conditions, levels of violence, and the 
capacity of people in an environment to move meaningfully 
toward reconciliation. Those security conditions--those 
necessary security preconditions--simply have not existed over 
the last year and a half. I agree, completely, that the country 
almost came apart completely in the course of 2006.
    Senator Kerry. With 130,000 troops there.
    Ambassador Crocker. And that process is what led to the 
recommendations of our predecessors, that we needed to assume a 
role of population security, and that's what we're now doing. 
And it is making a difference. But it's going to take time. 
It's not just a switch that you flip, that, as the surge starts 
to make a real difference at the beginning of the summer, that 
then everyone is prepared to sit down and make historic 
compromises. That is going to take time and effort.
    Will it succeed? How fast will it succeed? In what form 
will it succeed? I don't know. I do agree very much with 
Senator Lugar on this issue of benchmarks. The benchmarks are 
important, and they are Iraqi. But, at the same time, we've got 
to maintain enough strategic and tactical flexibility here, I 
think, to recognize when things are happening that may be 
moving toward reconciliation that doesn't line up exactly with 
a benchmark, which is why I talked, as did General Petraeus, 
about the things going on with amnesty, with de factor de-
Baathification reform, some of the other issues related to 
benchmarks. We've got to find ways to identify and encourage 
those things.
    So, again, it's not simply an issue of a government and a 
leadership that is dithering, incapable, unwilling. It is a set 
of circumstances that, for the last year and a half, have made 
meaningful reconciliation somewhere between very hard and 
outright impossible. Those conditions are changing. Now they're 
going to have to move ahead to take advantage of the time and 
the space. But the time and the space is really just--it's 
really just starting in the course of this summer. It's not 
something they have been squandering over the last year or 
more.
    In terms of Anbar--and not to overemphasize this one 
particular province, but there are things there that are of 
broader significance, and I think it is important to understand 
them--it isn't at all only about us and the Anbaris. That has 
been a key element of our focus since the beginning of this 
process, to ensure that what happens in Anbar is linked to the 
center in ways that are agreeable to both the center and the 
province. That's why the 21,000 young Anbaris who have come 
aboard as police officers, and who graduated, I guess, 
yesterday--that's why that's important. The central government 
has them on the central government's payroll to maintain 
security in their own province. That's why the readiness of the 
government--the central government--to provide additional 
resources to the province to meet its reconstruction needs and 
to pay compensation is also important. So, you're seeing a 
process working in Anbar that, obviously, is important, in and 
of itself, but it's also important in the way the two 
entities--the province and the center--have managed to 
establish some working linkages.
    Can that be replicated? No; it can't be done so in a 
cookie-cutter fashion, but, in Diyala, a much more complex 
situation--Kurd, Shia, Sunni, all intermingled there--we're 
seeing some of the same phenomenon, a rejection of radicals, a 
desire to get on with reconstruction and development, an 
expectation of the central government to support that. So, 
that, to me, is the stage for, at least, a reconciliation 
process that may actually mean something, and I think we've got 
to--we've got to follow it and encourage it.
    General Petraeus. Senator, I won't repeat what the 
Ambassador just said, but--I do want to talk about the south--
but, first, with respect to this local accommodation that is 
taking place--really, conditional immunity again--we are seeing 
that, even in Baghdad neighborhoods. For example, Ghazaliyah, 
Amiriyah, and Adhamiyah, all were al-Qaeda strongholds, as 
little as just a few months ago. Ottomiyah has just begun 
turning, in the last month or so, but, already, local 
volunteers are coming forward. And, again, the key with that is 
to make sure that it is tied in to the central government 
through the national reconciliation committee that they have 
set up, so that they become legitimate security force members 
and not the fixed-site security elements that we have literally 
hired them to be in the interim to help maintain the momentum 
against al-Qaeda in those area, because those have changed 
completely, those particular areas.
    Senator Kerry. I know my time is up, and I don't want to 
abuse it, but I will say, General, that the main issue is not 
Iraqi versus al-Qaeda, because everyone has had confidence that 
they didn't want foreign jihadists, and that they would be 
kicked out, at one time or another. The main issue is 
reconciliation.
    General Petraeus. Well, again, the local accommodation that 
is represented by the Iraqi Government, a Shia-majority 
government--Prime Minister Maliki's office--Reconciliation 
Committee--enabling these individuals to be hired--to be 
trained and hired in the Ministry of Interior, for example, 
that's what I'm really getting at. And that is reconciliation. 
It may not be the reconciliation law. Candidly, that is what 
gives me, again, some hope.
    The Chairman. General, isn't the truth, though--just get 
this fact about--isn't it true that the reason why you got this 
deal is, the Anbaris weren't going to allow any national police 
in their streets? What you did is, you made a deal. They're 
paying for their own cops. It wasn't until you guys said, ``You 
can hire your own. Go out there, tribal chiefs, tell your sons 
to join. We'll guarantee only--only Sunnis will be here in your 
neighborhood.'' Isn't that what happened?
    General Petraeus. Well, Senator, again, the idea here is 
that local police should be local. There were not local police 
in the past, because they didn't have the courage to raise 
their hand. We had to close the police academy in Anbar 
province, over 2 years ago, and just reopened it about 2 months 
ago. There were no volunteers. It didn't matter what you said. 
We wanted volunteers for the Iraqi Army and the local police in 
Anbar, and they stopped raising their hand, about 2 years ago, 
when so many of them had their families killed, kidnaped, 
tortured, and so forth, and they themselves were treated the 
same way.
    So, it took, really, sort of a critical mass of tribal 
leaders, joining with our forces that were augmented at that 
time, to clear a place like Ramadi. Ramadi was not going to be 
cleared by tribes alone. It took hard combat fighting in 
cities, urban combat, and it was tough. But it is now clear, 
and they are now very much invested in keeping it clear. And, 
again, having local police is a concept that we had tried to 
do, for years in Iraq, but were unsuccessful in doing, because 
we couldn't get Sunni Arabs to stay in the force.
    Now, with respect to solutions in the Shia south, there are 
four provinces in Multinational Division-Southeast. Two of 
those are doing fine, frankly. Muthanna province, even though 
the governor was assassinated, we're pretty certain by militia 
extremists, continues to stay fine. They will have a new 
governor. They'll work out OK. And there are no coalition 
forces whatsoever in Muthanna province. It went to provincial 
Iraqi control last year. That's--that has the capital of 
Samawah. Dhi Qar province, which has Nasiriyah, there have been 
efforts by militia extremists to take on the legitimate--and, 
by the way, again, in Muthanna, it's legitimate Iraqi security 
forces--army elements and police--that are providing the 
security there--very, very low level of violence, until this 
recent assassination of the governor. In Dhi Qar province, the 
capital of Nasiriyah, we have a single U.S. Special Forces 
team. There's an Australian battalion focused primarily on 
civil-military operations. And, again, that province, doing, 
really, quite well. And those forces there are led by--you 
know, again, this comes down to leadership, and when you find a 
good Iraqi leader--Colonel Abu Likah, who's been wounded a 
couple of time, and--but his forces have stood up, very much, 
to the militia extremists, and even pursued them beyond 
Nasariyah to neighboring cities. And then, they all--then the 
tribes get together, and there's some negotiations. But that 
is--that's OK. That is an Iraqi solution that works in the Shia 
south. These solutions are not necessarily transferable, 
however, to mixed areas or others.
    With respect to another province down there, Maysan 
province--that's the marsh Arabs--Maysan province has never 
been controlled by any Iraqi Government. It's not been 
controlled in the past few years, really. I mean, again, the 
marsh Arabs are going to do what the marsh Arabs are going to 
do. And that's really what they have been doing--it's 
provincial Iraqi control, a few months ago. And they'll come to 
their Iraqi solutions.
    Basrah province, very, very important to Iraq, of course. 
The ports, the oil, and all the rest of that all flow through 
there. The British did a good handoff to a force that was 
trained and equipped and certified to hand off the palace. They 
had, earlier, handed off the logistical base and other bases, 
consolidating at the airport. They have a number of important 
tasks there. In fact, I will go home--or, you know, go--it is 
home now, Iraq--I'll go back to Iraq through London and talk to 
them with the Ministry of Defense and the Prime Minister, to 
discuss the tasks and make sure we have a common site picture 
on that.
    Beyond that, Prime Minister Maliki put a pretty strong--a 
very strong four-star general down there as the Basrah 
Operations Command commander, several months ago. That has 
already had a salutary effect. There's no question but that 
there is a competition down there between the Fadhila Party, 
the Supreme Council, the Badr Corps, and, certainly, Sadr's 
Party and militia. Interestingly, there have been deals there 
recently, and the violence level has just flat plummeted. It's 
included some release of some Jaysh al-Mahdi figures, and, 
again, accommodations between all of them.
    Again, for the Shia south, that's probably OK. These are 
Iraqi solutions for Iraqi problems. The problem is that that 
does not necessarily transfer to a province that has mixed 
ethnosectarian identities, such as Diyala, Baghdad, or some of 
the others.
    The Chairman. Thank you, General.
    General Petraeus. Thank you, sir.
    The Chairman. Senator Coleman.
    Senator Coleman. Thanks, Mr. Chairman.
    General Petraeus and Ambassador Crocker, first, thank you 
for your extraordinary service.
    General, I will say to you that I found the attacks on your 
credibility--personal attacks by MoveOn.org--to be really 
despicable. And I would hope that it would be roundly rejected. 
We need to put the politics aside in this issue, if we can, 
listen to your troops on the ground, try to figure out the way 
forward.
    I had a chance, when I was in Ramadi, about 9 days ago, to 
listen to some of those troops on the ground. One of them was 
Captain Marcus Maine. He was at the Joint Security Station, 
right in Ramadi. And Marines were good, not just at killing 
foreign fighters and al-Qaeda, but he was rebuilding a town. He 
had bulletin boards in the neighborhoods, and he had a 
loudspeaker system to, at times, play the Iraqi national 
anthem. It was--he was rebuilding a city. As a former mayor, 
it--I understood what he was trying to do. I met with the mayor 
of Ramadi, who was talking about--they've got Lake Habbaniyah 
there, and he's talking about, you know, a resort area. Well, 
every one of his buildings are filled with bullet holes. That's 
a long-term vision. And that's my--you know, I appreciate the 
hope, but then here's the concern. Ambassador Crocker, you talk 
about, ``It's going to take time, it's going to take time.'' 
Between now and next March or April, there are going to be ups 
and downs in Iraq. There, you know, may be more folks who pull 
out of the government. I suspect we'll see efforts by al-
Qaeda--and they have the ability--to commit massive violence, 
massive violence there. They may be on the run, but they're 
clearly not out.
    And so, as we, kind of, listen to the American people on 
this issue, what I think we do need, what we don't even have 
now, in spite of this testimony, is--Ambassador, to you--
objective measures of progress. It's one thing to say that, 
``Well, benchmarks aren't an end to themselves,'' but can you 
offer us--can we lay on the table something that--so that when 
we have the next downturn, when we have the next pullout, when 
we have the next, you know, fissure between Sunni and Shia, 
that we at least have some objective measures to say that we 
are on a path to progress. This is about--we're talking about 
reconciliation--it's about power-sharing. It's power-sharing. 
It's reconciliation, perhaps, between Sunni and Shia. It's 
power between--in Baghdad, it's power-sharing between central 
government and Baghdad; in Anbar--and it's power-sharing, in 
the southern provinces, between Shia and Shia. So, that's the--
so, for you, my question would be: Can you offer us--can we put 
on the table objective measures that we can then look at and 
come back to when things get shaky, to determine: Are we on a 
course to success?
    And, General, for you, it would be perhaps the same thing. 
Americans want to see light at the end of the tunnel. And it's 
one thing to say--and I applaud the troop drawdown this year, I 
applaud the fact that we'll be at presurge levels next year. 
But, again, because there are going to be these attacks, there 
are going to be these things that clearly undermine American 
confidence that we are, in fact, continuing with progress, we 
need to see some plan out there.
    The Peace Institute had a--which was composed of many of 
the folks involved in the Iraqi Study Group--they had--they 
came out with something the other day that said, we could, you 
know, get down to half the number of troops we have now in 3 
years, a total turning over of bases in 5 years. They don't say 
it, but I suspect you'd have to have the United Nations in 
there. We're going to be in Iraq a long time. But, much as 
we're in Kosovo, it doesn't have to be America fighting the 
fight for the Iraqis. So, General, is it--for you, can we get a 
longer term vision? Can we get a longer term plan? Can we say 
that--yeah, we can be down to half our troops in 3 years, we 
can get to 5 years, we can be turning over our bases and some 
other paradigm--but I think we need something a little more 
than, say, ``Give us more time to come back again in the 
fall.''
    So, Ambassador, if you could respond, and, General, if you 
could respond.
    Ambassador Crocker. Thank you, Senator.
    What I look to are the continuation or initiation of 
processes--again, more than fixed decisions. Because I--
benchmarks go two ways, in my view, as a potential misleading 
indicators, and one of them is--I believe that Iraqis could hit 
all the benchmarks and still not achieve national 
reconciliation. So, how can we better define what national 
reconciliation looks like, if it's there or if it's not there?
    I think we've already got processes out there that we can 
keep an eye on and see if the Iraqis are able to further expand 
them in the months ahead. The association, again, between the 
central government and the provinces--is the central government 
able to increase its ability to support provincial efforts at 
reconstruction and rebuilding? And are the provinces, if they 
get the resources, able to execute budgets on behalf of their 
citizenry? Because an awful lot of this is about resources, 
services, equitable distributions. So, that's one.
    That presupposes--and this, I think, is crucial--that 
levels of violence stay down, and go down further. As General 
Petraeus said in his opening remarks, this has been an 
ethnosectarian competition for power and resources. The 
question now--the critical question for Iraqis, and, 
ultimately, for ourselves--is whether, under changing 
conditions, the competition, before it, hopefully, evolves into 
something that is not purely ethnic-sectarian based--whether 
that competition increasingly translates into a political, as 
opposed to a political competition, as opposed to a street 
fight. So, I think that's going to be key.
    A third element that I would look at is one that several of 
your colleagues have alluded to, and that's the militias. Is 
the central government, with our support, as necessary and 
appropriate, able to begin taking apart the militias? As I 
mentioned, we've seen some early promising indication of a 
popular backlash against Jaysh al-Mahdi. You know, does that 
translate into popular intolerance for Jaysh al-Mahdi among 
Shia communities, sort of, as we saw among Sunni communities, 
with respect to al-Qaeda? And if so--and even if not--is the 
government increasingly able to take on these militias?
    So, that would be three, kind of, interlinked areas that 
I'm certainly going to have my eye on as we move forward.
    And, you know, there are, kind of, subpoints. Population 
displacements, they have slowed, as far as I can tell, but they 
haven't stopped. They need to stop, and then they need to begin 
to reverse. That would be an indication, also, obviously, of an 
advancing national reconciliation process, and it's something 
that one can point to that is, to some degree, measurable.
    So, that's what I would offer, at this point.
    Senator Coleman. Thank you.
    General.
    General Petraeus. Well, Senator, first of all, I very much 
agree with your assessment of al-Qaeda-Iraq. That 
organization--terrorist organization is off balance, but it 
remains very dangerous. We know that it is trying to reignite 
ethnosectarian violence, in the way that it did in February 
2006 with the bombing of the Golden Dome Mosque in Samarra. 
They tried it again, as you'll recall, several months ago, and 
took down the minarets of that mosque. And it probably would 
have gotten out of hand again, had it not been for the unified 
and swift response by government--of Iraqi leaders of all 
ethnosectarian groupings, standing together, literally, and 
denouncing it, calling for calm, and so forth, and also very 
swift action by the Ministry of Defense and Interior and the 
Prime Minister, in fact, literally flying there, personally, 
standing on the ground, ordering some reinforcements and so 
forth, and rapidly carrying that out.
    But there's no question, we see the intel that al-Qaeda is 
trying to open new fronts in certain locations. They've been 
run out of a lot of areas. They've been killed or captured in 
substantial numbers, but they remain a very, very dangerous 
foe, an adaptable foe, and one that, again, wants to retain 
sanctuaries in Iraq and to continue to inflict enormous death 
and destruction on the Iraqi people.
    Now, looking to the future, you saw the final chart that I 
used, that showed a stairstep--although the timing of that is 
to be determined, as I mentioned, that is--that reflects--that 
does reflect our sense of how we would like this to play out, 
both in terms of reductions of forces over time, and the shift 
of the missions, going increasingly from leading, again, to 
partnering, to the various forms of overwatch as we transition 
responsibilities to Iraqi forces. The fact is, we are already 
in that mix. We have already literally handed off certain 
provinces completely, as I mentioned, several in the south. 
We'll hand off Karbala, here, in about a month or so, as well, 
and then others over time. And then, in other cases, we have 
shifted to various forms of partnering, but still, certainly, 
in some of the very tough neighborhoods, in Baghdad, in 
particular, still in the lead or partnering.
    The Chairman. General, I hate to interrupt you, but let me 
suggest to my colleagues that the method of using your 5 
minutes to ask 10 minutes' worth of responses is never going to 
get us to the end here.
    So, General, thank you for your answer.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman.
    And thank you both for testifying here today. Ambassador, I 
want to thank you for all the time you've given me over the 
years, especially when we were in Pakistan, and your briefings 
on that critical country. And General, on both occasions that I 
was in Iraq, the time you spent helping me understand these 
variety of issues--I, too, thank you for your service.
    But, Mr. Chairman, it is simply tragic that, 6 years to the 
day after the terrorist attacks of September 11, 2001, our 
attention is so focused on what has been the greatest mistake 
in the fight against al-Qaeda, and that's the Iraq war. Both 
yesterday at the House hearings, and today, there has been 
virtually no reference by either the Members of Congress or the 
witnesses to the broader context outside of Iraq. I strongly 
supported the decision to go to war in Afghanistan, which 
served as a sanctuary for al-Qaeda. The war in Iraq has been a 
terrible diversion from Afghanistan and from what should be a 
global fight against a global enemy.
    As this summer's declassified NIE confirmed, al-Qaeda 
remains the most serious threat to the United States, and key 
elements of that threat have been regenerated, or even 
enhanced. While our attention and resources have been focused 
on Iraq, al-Qaeda has protected its safe haven in Pakistan and 
increased cooperation with regional terrorist groups.
    So, the question we must answer is not whether we are 
winning or losing in Iraq, but whether Iraq is helping or 
hurting our efforts to defeat al-Qaeda. That is the lesson of 
9/11, and it's a lesson we must remember today and, I would 
say, every single day.
    And in that vein, this past July, President Bush referred 
to al-Qaeda more than 90 times in a single speech about Iraq 
and has repeatedly called Iraq ``the central front'' or ``the 
key theater'' in the war on terror. But this is misleading, at 
best, as is the effort to suggest that al-Qaeda is the primary 
driver of violence in Iraq.
    While AQI may give al-Qaeda an extended reach, our extreme 
focus on Iraq, I think, prevents us from adequately addressing 
the global nature of al-Qaeda and from targeting sufficient 
resources--whether they're military, diplomatic, intelligence, 
or financial--to other parts of the world where al-Qaeda is 
operating.
    Now, Senator Hagel mentioned some of the other places. He 
mentioned Iran, he mentioned Syria, he mentioned the Middle 
East, but what about Africa? Last week, for example, two bombs 
exploded in Algeria, killing more than 50 people and wounding 
scores more. Both explosions were virtually unnoticed here in 
the United States, as were the ones that exploded in the same 
region this past April and that were claimed by, as you both 
know, another al-Qaeda affiliate, known as al-Qaeda in the 
Islamic Maghreb.
    So, I'd like to ask, first, General Petraeus and Ambassador 
Crocker: Do you believe that the United States is providing 
sufficient resources to address the threat posed by al-Qaeda in 
the Islamic Maghreb?
    Ambassador.
    Ambassador Crocker. Senator, frankly, that takes me a 
little bit beyond my area of expertise. I don't focus on the 
Maghreb. I could say a few things, based on my 2\1/2\ years in 
Pakistan. And, of course, I went directly from Pakistan to Iraq 
in March. The presence of al-Qaeda in the Pakistan-Afghanistan 
border area is a major challenge to us. And I----
    Senator Feingold. How concerned are you about al-Qaeda safe 
haven in Pakistan?
    Ambassador Crocker. We're all quite concerned.
    Senator Feingold. But which is more important to defeating 
al-Qaeda: The situation in Pakistan or the situation in Iraq, 
Ambassador?
    Ambassador Crocker. I'd say just one----
    Ambassador Crocker. That's surely within your expertise----
    Ambassador Crocker. Yes, sir.
    Ambassador Crocker [continuing]. Since you've been the 
Ambassador to one and the Ambassador to the other.
    Ambassador Crocker. Yes, sir; which is why I'm addressing 
this. The challenges in confronting al-Qaeda in the Pak-Afghan 
border area are immense, and they're complicated. I did not 
feel, from my perspective as Ambassador to Pakistan, that the 
focus, the resources, the people needed to deal with that 
situation weren't available or weren't there because of Iraq.
    Senator Feingold. What's more important, though, to 
fighting al-Qaeda, the situation in Pakistan or the situation 
in Iraq?
    Ambassador Crocker. Senator, in my view, fighting al-Qaeda 
is what's important, whatever front they're on. Fighting al-
Qaeda in Pakistan is critically important to us----
    Senator Feingold. But, Ambassador, surely----
    Ambassador Crocker [continuing]. Fighting al-Qaeda in----
    Senator Feingold [continuing]. Surely----
    Ambassador Crocker [continuing]. Iraq is critically----
    Senator Feingold [continuing]. Surely in a war----
    Ambassador Crocker [continuing]. Important to us.
    Senator Feingold [continuing]. You have to have priorities. 
Some are more important than others.
    I'd like to ask the General his response. What about the 
situation that we find in North Africa and the other regions? 
You obviously must take this into account in thinking about 
your role in Iraq.
    General Petraeus. I am not in a position to comment on the 
resources we've committed to the Maghreb or to other areas. 
General McCrystal does brief us, about once a week, on the 
overall situation, but it is clearly with a focus to how that 
is affecting al-Qaeda in Iraq.
    For what it's worth, he, the commander of the Joint Special 
Operations Command, and the CIA Director, when I talked to them 
a couple of months ago, agreed that their belief is that al-
Qaeda-Central sees al-Qaeda in Iraq as their central front in 
their global war on terror. That seems confirmed by the 
communications that we periodically see between al-Qaeda-
Central and al-Qaeda-Iraq, although that could be changing as a 
result of the loss of momentum, to some degree, by al-Qaeda--
Iraq, and it's something that we need to keep an eye on, 
clearly. There's a----
    Senator Feingold. Well, with all due respect, these two 
critical leaders here in our government, who I have great 
respect for, are not willing to seriously comment about how 
this relates to the larger global fight against terrorism, the 
allocation of resources. This is a classic example of myopia. 
This is the myopia of Iraq that is affecting our ability to 
look at this as the global challenge it is.
    And, by the way, General, I'd like to know: When will the 
level of American troops' deaths start to seriously decline in 
Iraq?
    General Petraeus. First of all, if I could just come back 
to your earlier comment, with respect, Senator, what this is, 
is an example of a commander focused on his area of 
responsibility, and that is my mission. It is to accomplish the 
military tasks that are associated with this policy, not to 
fight the overall global war on terror.
    Senator Feingold. I respect that, and I understand that, 
but I guess where I'm coming----
    General Petraeus. With respect----
    Senator Feingold [continuing]. Is the broader context, 
here, of our discussions, that this is the most----
    General Petraeus. Sure.
    Senator Feingold [continuing]. Critical hearing we've had, 
and yet it's only about Iraq. But go ahead and please answer 
the question.
    General Petraeus. Well----
    Senator Feingold. When can we expect the troop deaths to 
decline in Iraq?
    General Petraeus. It might be, again, that Admiral Fallon 
or others would be the ones--or the chairman--to comment on 
that. There has been a gradual reduction in deaths in Iraq 
since about June, I believe it was. That--unfortunately, in 
August we suffered a number of noncombat-related deaths, due to 
helicopter crashes, although the number of combat deaths was 
lower.
    Senator Feingold. General, just let me----
    General Petraeus. We need to see----
    Senator Feingold [continuing]. Let me just follow----
    General Petraeus [continuing]. What happens in ensuing 
months.
    Senator Feingold. I want the American people to know that, 
in every single month this year--January, February, March, 
April, May, June, July, and August--a significantly greater 
number of troops died than in the previous month in 2006--in 
every single month. And, according to my information, there's 
already 32 this month. So, to suggest that there was some 
decline in the number in June and July, versus the other 
months, does not address the fact that the number of troops 
deaths have greatly increased, and I'm not getting an answer 
that even begins to suggest when we can tell the American 
people that the number of troop deaths will decline.
    General Petraeus. Senator, we are on the offensive. And 
when you go on the offensive, you have tough fighting. That was 
particularly true, again, during the period immediately after 
the start of the surge of offensives, in mid-June, and 
continued for a while. It appeared to have crested then, and 
was coming down. And, again, we'll have to see. We had a tragic 
loss, yesterday, in fact, in some vehicle accidents that, 
again--you know, just very, very, very sad.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you, General.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    First of all, I want to thank you both for your service. I 
understand I'm new here, and I understand I'm at a semi-low 
point in the way we do things, and I regret that, while people 
certainly have the ability to criticize policies and judgments, 
that it's taken on the note of criticizing or questioning 
integrity. And I want to say, to both of you, I regret that, 
and I want to thank you for your service and the service of our 
men and women.
    I also have noticed that we tend to look at governing in 
Iraq as being apparently less difficult than it is here. We 
want to hold them to standards, and yet, we have issues that 
we've talked about for generations here that still are not 
dealt with. We not only don't deal with the issues, sometimes 
we don't even talk about dealing with the issues.
    And so, I'd like to move to that point, talking about the 
benchmarks, if you will, that the Iraqi Government has set out 
for itself, like we do many times and never achieve. OK? Unlike 
us, where we ride from nice homes to the Senate and workout in 
nice gyms, they're in a little bit different situation. And 
there's been a--I guess, some discussion that we need to 
leverage them into doing the right thing, that the way we do 
that is to pull troops out and cause them to take more of their 
own responsibility, and that somehow that's going to, if you 
will, leverage them into doing things that they're now not 
doing. And I'd like for both of you, if you will, to respond to 
that, because my sense is, that may be one of the 
recommendations, if you will, that comes forth from the Senate.
    Ambassador Crocker. Thank you. Senator.
    That is a key question, because obviously we spend our time 
working out what--the full range of instruments of national 
power we have to leverage outcomes in Iraq that are favorable 
to our interests in Iraq's future. So, this is a legitimate 
question to ask.
    I think we have to be very careful with that, frankly. The 
Iraqis are keenly aware that we may change our posture, we may 
go away entirely; we may go away entirely, sooner rather than 
later. They know all that. They also know they're going to be 
there forever. And I would be concerned that an approach that 
says we're going to start pulling troops, regardless of the 
objective conditions on the ground and what might happen in 
consequence of that, could actually push the Iraqis in the 
wrong direction, to make them less likely to compromise, rather 
than more likely. It would make them, I would fear, more 
focused on, you know, building the walls, stocking the 
ammunition, and getting ready for a big, nasty street fight 
without us around, than it would push them toward compromise 
and accommodation with the people who would be on the other 
side of that fight.
    Iraqis are aware that our--that the patience of the 
American people is not limitless in this matter. And that has, 
I think, been a helpful prod with the Iraqi leadership, to push 
them forward, as we saw, this summer. But to directly tie troop 
levels to achievement of political reconciliation goals, I 
think, could make achievement of those goals less likely, 
rather than more.
    Senator Corker. General Petraeus, any comment?
    General Petraeus. Well, I share the Ambassador's view with 
respect to that. There are some steps that we've taken. These 
are a bit more tactical, if you will. But we can literally 
withdraw support for certain elements of the Iraqi security 
forces, and there's a variety--we can say, ``We'll stop working 
with you. We're going to stop helping your logistics.'' As the 
commander of the Multinational Security Transition Command in 
Iraq in the late summer of 2005, I withdrew all support to the 
Major Crimes Unit, because of an investigation that revealed 
that they had been engaged in abusing detainees. So, there are 
actions like that, that can be taken to encourage force--
require action on their part. But when it gets up to the level 
of national legislation, I think that's an awfully tough 
question, frankly. I think that the Ambassador and his 
colleagues in the Embassy worked quite skillfully with the five 
leaders of Iraq who convened for the summit several weeks ago, 
after a number of weeks of preparation, and did achieve a 
modestly encouraging outcome from that. But the idea of, in a--
again, threatening to withdraw may actually harden something 
that we're trying to soften. So, there's a very, very real 
issue of feel for what we think might happen in such a case.
    Senator Corker. On the issue of, I guess, the troop 
drawdowns that you've talked about, I assume they've been 
calibrated to the buildup and the ability of the Iraqi Army to 
do their--do the work themselves, and you've calibrated that as 
finely as you can.
    General Petraeus. That is correct. In some cases--you know, 
again, there are fits and starts. It's uneven, as I said. And 
that, I think, is an honest assessment of the progress. There 
is progress. The progress is uneven.
    In one case, we actually shifted some forces out of Anbar 
province way before I certainly thought we would, say, 6 or 7 
months ago. We moved a battalion from Anbar Army battalion over 
into the adjacent province to the east of it. So, we'll be 
making tactical adjustments, if you will, but we have sat down 
and figured out the so-called battlefield geometry, projecting 
out to where we want to be by mid-July of next year, and then 
tried to figure out, again, how to best get there. And that is 
a big factor, frankly, in our starting by withdrawing the first 
brigade, without replacement, in mid-December, vice running the 
surge all the way, say, to every brigade staying for 15 months. 
In fact, in some cases we'll replace the surge brigades, 
geographically, or in its area of responsibility, because 
that's an important area, that's why we put it there, and 
actually thin out, or withdraw, without replacement, a brigade 
in another area in which things are going better. And a key 
component of that certainly is the Iraqi security forces, a key 
component of which, increasingly, is, again, local volunteers 
who are standing up, as I said, in a way that, particularly in 
Sunni Arab areas, was not the case in the past.
    The Chairman. Senator, I hate to do this, but your time is 
up, and there--in order for us to get finished, we have another 
84 minutes, so, gentlemen, it's overwhelmingly in your interest 
to make your answers shorter, if you can, in order for people 
to be able to ask their questions.
    We realize this is a difficult process, but I don't know 
any other way to do it.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    Gentlemen, thank you for your service. I represent 37 
million people, so you can imagine how many letters I get about 
the Iraq war. I get letter after letter asking me how long 
we'll be in Iraq. I tell them it depends on who the President 
is and how many votes there are in Congress to change course. 
And, as for my own views, I tell them that this war is the 
biggest foreign-policy mistake ever because it took our eye off 
defeating the terrorists, led by Osama bin Laden, who killed 
our people 6 years ago today. It is the greatest mistake 
because it strained our military, especially our National 
Guard. In California, gentlemen, we are short 50 percent of the 
equipment we need to respond to an earthquake and the Secretary 
of the Army said we'd be in trouble if there was a major 
earthquake. It is the greatest mistake, because we've lost so 
many of our own, and so many are wounded, who will need care 
for years and years. It breaks our hearts, all of our hearts. 
It is the biggest mistake, because we've lost the support of 
the world, when we had the whole world on our side after 9/11.
    So, I want to go back to when I first met you, General 
Petraeus. We had a good meeting. I don't know if you remember 
it. I sure do. And I have a picture of you with Senator Reed, 
Senator Murray, Senator Durbin, and myself. At that point, you 
were in charge of training the Iraqi troops. You were so 
upbeat, General. You told me--I'll never forget it--you were 
sitting in an armored vehicle--you said, ``You're about to see 
some terrific troops. We're going to have them ready to go.'' 
And you talked about training over 100,000 of them, at that 
time. And the fact is, I was very upbeat after that meeting.
    I have all the documentation. I'd ask unanimous consent to 
put in all the documentation----
    The Chairman. Without objection----
    Senator Boxer [continuing]. I refer to.
    The Chairman [continuing]. It will be put in the record.
    [The information previously referred to follows:]

                 [Federal News Service, Mar. 22, 2005]

     Combined Press Information Center Briefing by Members of U.S. 
 Congressional Delegation Led by Senate Minority Leader Harry Reid in 
                             Baghdad, Iraq

    STAFF. Thank you all for coming. We're very pleased this afternoon 
to have a congressional delegation, headed by Senator Harry Reid of 
Nevada, the Senate minority leader, with six of his colleagues. Senator 
Reid will introduce his colleagues. I believe each will give a brief 
statement and then answer your questions. We have about half an hour, 
so we'll try to use our time effectively.
    Senator Reid.
    SENATOR REID. Thank you all very much for being here today. We've 
had a long day so far. We've had the opportunity to visit the training 
of the Iraqis. This is something that we, of course, are very concerned 
about. And I think it was--to say the least, it was most impressive to 
watch the training take place. We had a good briefing by General Casey. 
We've had the opportunity to visit with the Iraqi leaders themselves.
    And I think that I recognize that we have a situation where we have 
to be concerned, first of all, about the security of this country. We 
all know that this country will never be secure with the United States 
being here only. The only way it will be secure is the Iraqis having a 
security force that they can handle their own problems here. That's 
under way. We, of course, recognize that until that's taken place--
until that takes place, there's nothing that can be done to stabilize 
the economy; that reconstruction won't take place until the security is 
in place, there's no question about that, and the political aspect of 
this as we move down the road with the successful elections that took 
place on January 30.
    Why are we here? Well, the week we return back, the Senate will 
take up the $80 billion supplemental appropriation bill, the vast 
majority of which will come to Iraq in one form--fashion or another. So 
we have responsibilities. And it's very difficult to be briefed in your 
offices, at committee hearings in Washington. It's not the same as 
traveling and seeing what's going on in the country itself. This is the 
first trip for me to Iraq. Some of my colleagues here have been here on 
previous occasions. But to me, this has been a very, very good day. 
I've learned a lot. I have a better feeling about what's going on here, 
not only from the perspective of the Americans who are here with the 
military, the diplomatic corps, who we've had extensive briefings from 
today, are tremendously important here, as they are every place in the 
world; and then, of course, to get the perspective we have from the 
Iraqis themselves.
    So I feel good about this.
    This is a very large Senate delegation. Rarely do you see seven 
senators traveling together. We're fortunate in being able to do that.
    We have a bipartisan group. We have Democrats. We have Republicans. 
We have senators from virtually every part of the country.
    And what we're going to do now, as has already been indicated, is 
each of my colleagues will make a brief statement, and then we'll take 
questions. We'll first hear from the assistant minority leader of the 
United States Senate, Richard Durbin, from the State of Illinois.
    SENATOR RICHARD DURBIN (D-IL). Thank you very much, Senator Reid.
    This is my first visit to Iraq, and it's been a typical visit where 
we come for a day. And I wish that we could stay longer and see more.
    But first and foremost, I want to say thank you to the men and 
women of America who are literally risking their lives every day for 
the future of Iraq, our men and women in uniform, as well as those who 
work in our government, in many different capacities, who believe so 
much in the future of Iraq and its freedom that they have come here, 
with great personal sacrifice.
    And I also want to issue my heartiest congratulations to the people 
of Iraq. What they showed on election day here in Iraq is what we had 
hoped and dreamed about: That they would care enough about controlling 
their own future and their own destiny that they would run the risk of 
voting. And they did, in dramatic numbers.
    So as Senator Reid said, we come today knowing that in just a few 
days we will be voting to continue this effort in Iraq.
    One of the people who met with us today, I thought, used a very 
important way to describe the situation in Iraq. He called Iraq an 
``infant democracy.'' And he said, ``You can't leave this infant 
alone.'' We understand that.
    But we know that the day is going to come, and soon, when Iraq will 
be able to stand on its own and move forward as a democracy. And that 
is a day that we're going to work for. Seeing the training of the 
troops and the police force is just moving that day even closer.
    I believe what we have seen here in meeting with the different 
groups and factions in Iraq is a common purpose. And I hope that we can 
stand with the Iraqi people and realize the success of that purpose 
very soon.
    SENATOR REID. Senator Bennett of Utah.
    SENATOR ROBERT BENNETT (R-UT). Thank you very much, Senator Reid. 
We appreciate your leadership on this codel, which has been 
fascinating.
    When I've been to Iraq before or last--the beginning of last summer 
and arrived in country just about a day or two after General Petraeus 
did, one of our first briefings was with General Petraeus. And he 
outlined in very optimistic fashion all of the things he hoped we could 
do. And it's particularly gratifying to come back and have him be our 
first briefer and outline all of the things that they have done.
    And we see that the progress has gone from those initial plans, 
that were nothing more than plans and hopes, to the demonstration that 
Senator Reid has referred to today that showed us how expert the Iraqi 
security forces are in the process of becoming.
    And seeing it in that fashion, the outline last summer and then the 
activity today, gives me the hope that the continued projections of 
progress that we are receiving optimistically from both the diplomatic 
corps and the military people will, in fact, come to pass. If we had 
not had that record of accomplishment, I think we'd all be a little 
more skeptical. But I find a quiet optimism, I guess is the right way 
to put it, instead of cautious optimism.
    The Americans are generally optimistic about the future. They 
recognize, everyone who's briefed us, whether it's been an American or 
an Iraqi, how difficult the road ahead still is. I don't think there 
are any illusions that we have passed the tipping point and it's all 
easy from here on. But I think the combination of the elections and the 
increased ability of the Iraqi security forces to perform has given 
everyone a kind of quiet optimism that we are, in fact, however long 
and difficult the road ahead may still be, going to see the 
establishment of a successful country here. And that, of course, is 
very gratifying to everybody.
    We still have a lot to do. We still have a lot to worry about. It 
is not a done deal yet. But the signs are much more optimistic now than 
they were then, and I'm just very glad that I had the opportunity to 
have this second visit here and see this change that's taken place for 
the better.
    SENATOR REID. Senator Barbara Boxer of California represents more 
people--10 million more people than live in the country of Iraq.
    SENATOR BARBARA BOXER (D-CA). Yes, that's true.
    Senator Reid, I want to thank you again for putting this together. 
It has been an incredible opportunity for all of us to meet with our 
troops, both in Kuwait and here in country, and to thank them and to 
let them know that we understand the hardships they're facing. Also a 
chance to meet with some of the emerging Iraqi leadership, very 
important.
    So I have two points to make. One, at the end of the day, success 
in Iraq is totally up to the Iraqis. We can help, and we have, and of 
course we will, and hopefully, the world will, as well. But success 
means, I believe, a government that is inclusive of all the elements in 
the society. And I believe it is fair to say that all of us gave that 
message today to the various leaders that we met here--Shia, Sunni, and 
Kurd.
    And I guess success also greatly depends upon the training of these 
Iraqi security forces, because there is no way you can have a country--
it doesn't matter whether it's the United States or Canada or anywhere 
in Europe or here--if you can't ensure the safety of the people. And we 
did see some very impressive training today. We did get a very upbeat 
report from our military on the numbers being trained. We got a 
slightly different view from Dr. Ja'afari as far as, you know, how 
ready they are to take things over.
    But all in all, I think this has been an extraordinary time. I 
think to all of you who are here in the press, I just want to say I 
think you're courageous, and I hope you will report the truth as you 
see it because the truth is always the way to get to the best result.
    Thank you very much.
    SENATOR REID. Senator Patty Murray, the State of Washington.
    SENATOR PATTY MURRAY (D-WA). Thank you, Senator Reid.
    It is truly an amazing experience to be here on the ground in Iraq, 
to be able to visit with the leaders from Shia, Sunni, and Kurdish 
governments who are working so hard to make progress here in Iraq.
    Last night we had the opportunity to visit our troops in Kuwait, 
and I had dinner with some of our brigades that are headed home 
shortly, and had an opportunity to listen to them, and have lunch today 
with some of our troops that are here in Baghdad from the State of 
Washington. I'm very proud to say that when the University of 
Washington Huskies play this weekend, there will be a number of troops 
here in Baghdad who will be watching the game with Husky shirts that 
the team sent out here for them. So we will be having a tremendous show 
of support here from Baghdad for our team back at home.
    We have had the opportunity to see Iraqi soldiers being trained, 
which is extremely important to move forward in terms of security. We 
were able to see some on the ground, in terms of moving towards 
reconstruction, that is so important for economic security. We had an 
opportunity to talk to political leaders as the constitution is being 
put together--an important roadmap ahead for this country. And I think 
we all believe that a lot of progress has been made, but certainly we 
can see that there are many, many challenges ahead.
    We will be going back next week--or 2 weeks from now, to the Senate 
to consider the supplemental appropriations bill. And it is extremely 
important that we were here on the ground to be able to make an 
assessment for ourselves how the funds are being spent and the needs 
for them so that we can move forward and continue to make progress here 
in Iraq.
    SENATOR REID. We're fortunate to have with us on this trip one of 
the most experienced people in the United States Senate. Senator Lamar 
Alexander has been a Governor of the State of Tennessee, he's been a 
Cabinet officer, been Secretary of Education. He's run for President of 
the United States, and now a United States Senator.
    Senator Alexander.
    SENATOR LAMAR ALEXANDER (R-TN). Thank you. I want to thank Senator 
Reid for the way he's conducted this trip. It used to be said that the 
United States Senate was always bipartisan when it came to foreign 
relations, and I think that's been the approach this week, and I give 
him credit for that.
    I've been impressed with the courage of the Americans I've seen in 
Iraq, and of the Iraqis themselves and this incredible mix of danger 
and hope that we see here. It's clear to me that this is--it's too 
early to leave; it's too early to declare success; and it's a good time 
to remind ourselves that once we make a commitment--once the United 
States does--that we must have the stomach to see it all the way 
through to the end.
    There's no such thing as an instant army--we've seen that. There's 
no such thing as an instant democracy. And I've been impressed with 
what good students of the United States democracy many of the Iraqi 
leaders are. They know that we Americans have had a democracy that's a 
work in progress. I was thinking, it took 12 years from the date of our 
Declaration of Independence to our Constitution, and we had to lock the 
press out in order to write the Constitution. And the Iraqis are doing 
it within a matter of a couple of years, or 2\1/2\ years, in an era of 
24/7 television and news coverage. So I'm impressed with the success 
we've seen so far, and I'm glad to have had this opportunity.
    SENATOR REID. Senator Ken Salazar, the State of Colorado.
    SENATOR KEN SALAZAR (D-CO). Thank you, Senator Reid.
    I'm hopeful about Iraq and its future. I also am realistic that 
there are some huge challenges that the Iraqi people and the world and 
the United States face in Iraq in the future. I'm very proud of our 
soldiers and Marines who are here on the ground, both here in Iraq and 
in Kuwait and around the world.
    I think the key challenges that face Iraq in the future have to do 
with security, political change and reform, and economics, and in 
surmounting those issues and challenges, I think there's still a long 
and difficult road ahead.
    I think the true signs of a mature democracy--which we may not see 
here for some time to come--are based on many principles, but two 
principles that are very important to me are, one, an inclusive 
society, and that's a society that's inclusive of women and a society 
that is inclusive of minorities, and that means all the components of 
the population of Iraq; and second, a society that stands up for the 
respect of law. And you can only have a respect of law when you have 
the kind of security that allows a society to function. And while there 
has been progress made in security here in Iraq, it's equally obvious 
that there's still a long ways to go before we can have the kind of 
security that we can then say we have a free Iraq.
    Thank you.
    SENATOR REID. We'll be happy to answer questions now.
    Q. (Through interpreter.) During your visit, I think that you have 
met with members of the Iraqi government.
    And one of the congresswomen talked about meeting al-Ja'afari. 
(Pause.) During your visit you met the Iraqi leaders. You met with the 
Iraqi leaders in the phase of forming the new Iraqi government. How do 
you find the process of forming the new Iraqi government? And did you 
give advice to the Iraqi politicians about the formation of the new 
Iraqi government?
    SENATOR REID. We listened to--as has been indicated by Senator 
Boxer, we've met with the Shia, the Sunnis, the Kurds. And we were not 
in the business of giving them advice. We did listen to them. I think 
we all got the same impression in listening to every one of them. That 
is that they believe, all political constituencies we met with, they 
believe that there can be a government formed on the 26th of this 
month. They're not certain, but they all believe that it can be; if 
not, sometime thereafter. They believe that once a government's formed, 
that there will be increased stability in this country, that the people 
of Iraq are looking for a government of their own. Without question, 
everyone was very impressed with the elections that took place January 
30th.
    But I don't think we're here--we're not here giving advice. We're 
here listening and taking back to America what we think is appropriate 
for us to help the Iraqi people gain their ultimate freedom, which is a 
government of their own.
    Yes?
    Q. (Through interpreter.) Abbas Salahey (ph) from Sawa. I take this 
opportunity to ask you a number of questions, gentlemen. My first 
question, how do you assess the situation in Iraq during this visit? 
And second, what is the goal of your mission in this phase in the 
history of Iraq? And have you negotiated----
    SENATOR REID. Let me get those two of them. That's about the best I 
can handle at a time.
    INTERPRETER. All right.
    SENATOR REID. First of all, the condition of Iraq. For the people 
who have been on the ground here for a number of months, they all agree 
that things have stabilized, things are better. The number of insurgent 
attacks are down.
    There is no one that said that, as Senator Bennett said, that we're 
over the hump. We still have a long ways to go. I think we all agree 
that Iraq has a long ways to go.
    Let's see. That was one question. What was your other question?
    SENATOR MURRAY. Our mission.
    SENATOR REID. Oh, our mission. Our mission here is as I've 
indicated.
    SENATOR. Yeah.
    SENATOR REID. Our mission here--thanks, Patty--our mission here is 
to see with our own eyes, to feel the people of Iraq, so that when we 
return to America, we will have a better understanding of what the 
money that we're appropriating, which is--the request this time from 
the administration is $80 billion--where this money's going.
    Yes?
    Q. Colin McMahon from the Chicago Tribune. Thank you. Two 
questions, one about your meeting today with General Casey. Did General 
Casey tell you anything that he needs, whether it's more personnel or 
more equipment or different equipment or anything like that, that he's 
not getting?
    And secondly, it's about politics. With Vice President Ja'afari 
today, did he give you an indication of how quickly the government 
would be formed? And did he give you any indication of what might be 
the holdup? Thank you.
    SENATOR REID. I'll answer the last question. Then Senator Durbin, 
from your State, can--your newspaper's State can answer the second--the 
first part of the question.
    He indicated, as everyone has said here today, the 26th is the 
date; that they feel confident that that can be the date. They are--
they wouldn't guarantee that date, and he didn't either. But he felt 
the 26th was the date.
    Dick, would you answer the other questions about General Casey?
    SENATOR DURBIN. Let me say about--General Casey did not make any 
specific requests that I recall in terms of equipment or additional 
personnel. But I will tell you that in our visit to Kuwait last night 
there were a lot of discussions, particularly about armor on humvees 
and trucks. And we went into that issue at great length.
    I was very anxious to ask that question because, like most of my 
colleagues here, I've visited Walter Reed Hospital. I've seen our 
soldiers who have been in these humvees and who have lost an arm or a 
leg. And I felt duty-boound to come here and to make that point to each 
of the leaders--military leaders that we had to respond to this 
quickly.
    We were shown a timetable about armoring up the vehicles to a 
higher level of protection. We have been given a target of the end of 
the summer for this additional armament for humvees and for trucks. I 
wish it were sooner. But I think there is a sense of urgency by our 
military leaders to move on this as quickly as possible.
    I don't know if there were--there was another request, 
incidentally, that Senator Boxer just reminded me--our soldiers need 
more M-4 rifles.
    They're currently using M-16s. And unfortunately, in the truck, the 
cabs of the truck, it's a much longer gun than is practical to use, 
sticking out the window. So we asked about more M-4s, we asked about 
the new Kevlar helmets. They are coming. If there's any way for us to 
accelerate the production of this equipment, or tourniquets for each of 
our soldiers, which is another issue near and dear to me, I'm going to 
do everything I can on a bipartisan basis--I don't think there's 
anything partisan about this at all--to make sure that equipment's 
forthcoming.
    SENATOR REID. And Dick, I would just add to that, the end of the 
summer sounds pretty quick to us the way a lot of things move in 
Washington. But for the troops there on the ground, that's an eternity. 
And we're going to do everything we can to try to squeeze that time a 
little bit.
    Any other questions? Yes.
    Q. Sam Dagher with AFP News Agency. A question for Senator Boxer. 
You mentioned that you--in your meeting with the front-runner for the 
premiership, Ibrahim Ja'afari, he talked about the readiness of Iraqi 
forces, and you said his views differed from the views given by the 
commanders. Are you able to elaborate on that? And the second part of 
my question is, what was your impression of him as--as the next leader? 
Thank you.
    SENATOR BOXER. Okay. My--I'll take your second question first.
    He seemed to us--you know, we--we spent about an hour with him. 
It's hard to know someone in one hour, but he seemed to be very much in 
favor of being inclusive, he seemed to be very much in favor of 
bringing women into equal power in this country--equal rights, I should 
say. He's very grateful to the Americans, and that would lead me to the 
final point. I asked him a question as to how long he felt America 
should stay. He kind of changed the question to the multinational 
forces, but clearly we have probably 95 percent of the multinational 
forces, so to me it's the same question. He basically said that he--he 
says it takes a long time to build an army, essentially. That's a loose 
translation. And I got the sense that he--he's not as upbeat about how 
it's going as our people, who seem to be very excited about the quality 
of the Iraqi police force and army now that the training has been 
accelerated.
    So that was my own feeling. I don't speak for everybody up here. 
But that was my sense, was that he was certainly in no rush to hand 
over security to his police force and army. That was my impression.
    SENATOR REID. Let me just say this, too. Those were your words that 
he would be the next leader. We're not here being involved in who's 
going to be the next leader. That will be up to the Iraqi people. We're 
not----
    Q. Excuse me, sir, I said prospective front-runner. I qualified it.
    SENATOR REID. Okay, one more question.
    Yes?
    Q. (Through interpreter.) You came here to see how the $18 billion 
are spent here in Iraq. The Iraqi citizens didn't feel the benefit of 
these $18 billion. I think that you should spend this on electricity; 
it would have been better for the Iraqis to spend this fund on 
electricity.
    SENATOR REID. We--the money that we're talking about spending is 
$80 billion. There's been set aside previously $18 billion for 
reconstruction, and not a lot of that has been spent. And I don't think 
it's only electricity, the infrastructure is--not only was it run down 
during the days of Saddam but, of course, has been damaged 
significantly during the conflict here. And there are all kinds of 
complaints about water and sewer and, of course, electricity. And 
reconstruction cannot go forward as we want it to go forward until 
there's a security situation that can allow the work to go forward. 
We've done some reconstruction that's been destroyed.
    Everyone understands in the American government that reconstruction 
is a part of our success here, and we're going to do the very best we 
can to make sure that the money is well spent.
    The $80 billion, we're going to take a look at that closely, as 
we've indicated, on a bipartisan basis. The trip here will help a great 
deal to help us direct where some of that money should be spent. And so 
we are comfortable with the fact that we've been here, it will make us 
better members of the legislature.
    Again, thank you all very much for being here.
    Q. One last question? Senator, can I ask one last question?
    SENATOR BOXER. With The Hill.
    SENATOR REID. Well, we already had one last one. But because you 
are up on Capitol Hill, we'll give you one last question.
    Q. Thank you. I deserve one question since I gave up a Colorado ski 
vacation.
    But I want to ask Senator Salazar, this is the first time you've 
been here. And you've read and seen a lot about Iraq. Is there anything 
you saw or heard here that surprised you or was different than what 
you----
    SENATOR BOXER. They want you to speak into the mike.
    Q. Sorry.
    You had been here once--you have not been here before; it's your 
first trip. And you've read and seen a a lot about Iraq in the papers 
and TV. Is there anything in your trip here that you heard or saw that 
surprised you, that you didn't expect, either good or bad?
    SENATOR SALAZAR. I think the enormity of it--of the challenge that 
still lies ahead was reinforced by what we've seen through the air and 
what we've seen on the ground. The fact is that there has been a lot of 
progress made, and I think we're optimistic that the last six weeks 
have seen a decline in the level of violence here in Iraq.
    But the security issues are huge, the economic issues and the 
poverty that still is very much a part of Iraq. The political process 
that is currently under way, I think, should be a cause for all of us 
to make sure that we're very thoughtful as we move forward.
    Someone--I think it was Senator Boxer--asked a question of one of 
the people that we met with today about what was the worst-case 
scenario for Iraq. And the worst-case scenario would be a civil war. 
None of us here want that to happen. There has been too much life and 
blood and resources invested into where we are today.
    And so I think that for me, what this trip has done is to simply 
reinforce the enormity of the challenge that we face here in Iraq in 
helping the Iraqi people themselves establish their self-determination 
and their own democracy.
    SENATOR REID. I would recommend you go to Lake Tahoe for that ski 
vacation. (Soft laughter.)
    STAFF. Thank you, everybody. Thank you, Senators.
    SENATOR BOXER. Right. On the California side. (Laughter.)
    SENATOR BENNETT. Traveling through Utah.
    SENATOR MURRAY (?). Traveling through Utah to the California side. 
(Laughter.)

    Senator Boxer. And so, the point was, the Iraqis were going 
to take this over, and you were as optimistic as anyone I've 
ever seen on the point.
    Now, that's what the Brits have done--they've let the 
Iraqi's take over--and, that's what Senator Kerry talked about. 
They said they were redeploying our of Basrah, because they 
said, and I quote, ``It makes sense to hand over to Iraqi 
forces.'' They went outside, and they redeployed to the 
perimeter--to the airport.
    In my visit to London, 2 weeks ago, the foreign policy 
people I met with told me that they had to get out because they 
were viewed as occupiers, not liberators, and they were 
targets. They said 90 percent of the violence, they felt, was 
occuring because they were there.
    Now, let's look at some of our casualties since this surge, 
which has been referred to by several of my colleagues. I have 
them on a chart. To me, this speaks volumes about the surge. 
The deadliest summer for U.S. forces in Iraq has been since the 
surge began.
    Now, I think the notion of being seen as occupiers is key. 
And this is what you said about being seen as occupiers, if we 
could hold that quote up by General Petraeus. I'm rushing 
through this because of time limits. I'm sorry.
    You said, in 2003, ``We want to be seen as an army of 
liberation, not an army of occupation. There's a half-life on 
our role here. You wear out your welcome at some point. It 
doesn't matter how helpful you are, we aren't here to stay.''
    Now, let's see what the seven sergeants and staff sergeants 
said in an article referred to by Senator Hagel, ``We need to 
recognize, our presence may have released Iraqis from the grip 
of a tyrant, but it's also robbed them of their self-respect, 
their dignity, and they're calling us what we are, an army of 
occupation. Enforce our withdrawal. Until that happens, it 
would be prudent for us to increasingly let Iraqis take center 
stage in all matters, to come up with a nuanced policy in which 
we assist them from the margins, but let them resolve their own 
differences.''
    I don't consider the surge a nuanced policy. It's killing 
our soldiers at a great rate.
    I think we need to look at reality. Senator Biden talked to 
you about what the Comptroller General said, and you're going 
to argue about it? I think the Comptroller General ought to be 
listened to. He says you're cherry picking your numbers, in 
terms of the overall violence.
    Let's look at what General Casey has said. And I'd ask--
well, we have consent to put that in the record. He says that, 
in essence, the surge has only a temporary tactical effect.
    Let's look at the poll both of you tried to discredit 
yesterday. An ABC-BBC-NHK poll found that 42 percent of Iraqis 
says their children will have a worse life; 25 percent say it 
will be no better--that's 67 percent saying their kids' lives 
will not be better than their own--70 percent says the surge is 
making matters worse. Is that what our troops are dying for?
    I ask you to take off your rosy glasses. You had them on in 
2005. I believed you. I thought for sure we were going to see 
the Iraqis take over their own defense.
    Now, the President is the Commander in Chief. If anyone 
disagrees with that, let me know. The Commander in Chief is the 
President. He makes the policy. You carry it out. And if you 
don't want to carry it out, I think you just need to leave your 
post.
    Now, this is the President who said, ``Mission 
accomplished,'' and thousands of our own died. Then he said, 
``Bring it on,'' and more and more died. And, just the other 
day, he was quoted in the Australian press as saying, ``We're 
kicking A-S-S in Iraq.'' And since the President made that 
comment, we have lost 28 soldiers in 6 days.
    Who wants to keep this course? Not the Iraqis. Not the 
American people. Not the majority of the Senate and the House. 
Seventy percent of the Iraqis say the surge is making matters 
worse. Ninety percent of the Sunnis want us gone. Eighty 
percent of the Shia want us out. So, we are sending our troops 
where they're not wanted, with no end in sight, in the middle 
of a civil war, in the middle of the mother of all mistakes.
    So, please, General, I ask you, please don't do what you 
did in 2004, when you painted a rosy scenario in an op-ed 
piece. Turned out to be wrong. Like you did in 2005, when you 
told us--and we believed you--that the Iraqis were just about 
there, that they were going to take over their own defense. And 
please consider that others could be right--the Brits, General 
Casey, Comptroller General, Lee Hamilton, and Tom Keane, who 
just wrote in an op-ed piece that our presence in Iraq is 
recruiting terrorists for al-Qaeda. Listen to the Iraqi people, 
the American people, and the majority of the Congress.
    My question is--and I know I've run out of time, so I will 
have to take it in writing--but it's a very important one. Don 
Rumsfeld said that this war would last ``no more than 6 
months.'' How long will it take, now that we've spent $20 
billion and we've trained 350,000 Iraqis in counterinsurgency? 
When, General Petraeus, can they take over their own defense? 
Call me old-fashioned--you have a country, you defend it.
    Thank you.
    The Chairman. Thank you very much.
    If you could respond to that in writing, I'd appreciate it.
    [The written information provided by GEN Petraeus follows:]

    Iraqi Security Forces are already providing for their own defense 
in a number of areas and are slowly, but steadily, assuming 
responsibility for more. There are, for example, no coalition forces in 
Muthana province and only a single Special Forces team in Najaf 
province. In the Kurdish provinces, the only coalition forces are 
Liaison Teams (LNOs). Successfully transferring further security 
responsibility to the Government of Iraq and the Iraqi Security Forces 
(ISF) depends on several key conditions. These include achieving 
sustainable security environment commensurate with ISF capabilities to 
maintain it, eliminating sectarian behavior within the security 
organizations, continuing ISF expansion, developing ISF combat 
enablers, especially logistics and administration, and growing a 
sufficient number of ISF leaders. Additionally, asuccessful transfer of 
responsibility will depend on the further institutional development of 
the Ministries of Interior and Defense.
    Achievement of these conditions takes significant effort from all 
involved, including MNF-I, the U.S. Embassy, and, most importantly, the 
Government of Iraq. The Government of Iraq, the Ministries of Defense 
and Interior, and senior leaders within the Iraqi Security Forces are 
taking their commitment to improving their forces and their 
institutions seriously. Though many challenges still exist, we are 
seeing progress in several areas, most notably the steady increase in 
both the number and quality of Iraqi military and police units. They 
are in the fight throughout the country, showing increasing resiliency, 
often in the face of heavy combat operations and with minimal coalition 
assistance. As we look to the future--growing a larger force as well as 
sustaining the current one--we are also assisting Iraq in developing 
their institutional base. The recent establishment of a bomb disposal 
school at Besmaya is but one microexample of how Iraq is increasing its 
ability to expand and replenish critical security functions now largely 
performed by coalition forces. Additionally, the coalition continues 
its concerted effort to assist the Iraqi Government in making maximum 
use of the Foreign Military Sales (FMS) program, as it constitutes the 
majority of ISF capital expenditure. In 2007, Iraq's Ministry of 
Defense has so far dedicated $1.1B in FMS, and the Ministry of Interior 
plans to invest $500M. We project that in 2008 both ministries will 
maintain or expand their use of FMS.
    Depending on the conditions on the ground and capabilities of the 
Iraqi forces in a partitular area, coalition forces either lead, 
partner, or provide overwatch for the ISF. Where conditions reqire, 
coalition forces remain in the lead and bear significant support 
responsibilities for the ISF. In less demanding environments, coalition 
forces partner with the ISF, conducting joint operations that not only 
help improve the Iraqi forces but also help demonstrate to the Iraqi 
citizens the increasing capabilities of the ISF. In overwatch status, 
the ISF take the lead in conducting operations and providing for Iraq's 
defense and coalition forces provide enablers and have quick reaction 
forces available to respond if needed provide backup.
    Based on the security improvements we have made and additional 
improvements we expect to make as well as on the continuing development 
of the Iraqi Security Forces we have already recommended a drawdown of 
five surge brigades, two Marine battalions, and a Marine Expeditionary 
Unit. In fact, the Marine Expeditionary Unit has already left Iraq. We 
believe that we will be able to execute this reduction in forces 
without jeopardizing the security gains that we have fought so hard to 
achieve. Further reductions and potential changes to our mission will 
take place, but in my professional military judgment, it is premature 
to make those recommendations at this time. By mid-March of next year, 
we believe we will have an adequate appreciation for the pace of 
further troop reductions and mission adjustments beyond the summer of 
2008. By then, we will know more about the enemy situation, the 
capabilities of the Iraqi forces and the concerned local citizens, and 
further improvements to the security situation, and will then be 
prepared to make recommendations for additional drawdown and potential 
change in mission.
    As we move forward, we must remain mindful of the fact that 
achieving sustainable stability and successfully transferring security 
responsibility to the Government of Iraq and Iraqi Security Forces will 
not be quick or easy. Doing so will take continued time, commitment, 
and resources on the part of our country. While our Nation is eager to 
transition security responsibilities to the Iraqi Security Forces and 
they are eager to assume greater responsibilities and to have coalition 
forces assume an overwatch position, we must ensure the gradual 
transition is based on conditions on the ground and the capabilities of 
the Iraqi forces. Transitioning responsibility prematurely--and before 
the Iraqi forces are fully ready to handle it--would most likely result 
in a rush to failure, creating the conditions in which a deterioration 
of the security environment would again become far more likely.
    Our plans call for sustainable security to be established 
nationwide by the summer of 2009. By then, we also expect Iraqi forces 
to be in the lead in providing for Iraq's defense throughout the 
country, but that does not end the commitment of American forces, which 
I would expect to continue well into the next admnistration, though the 
number of personnel and resources will be far smaller than at present 
time. I expect long-term force levels will be determined by a long-term 
strategic relationship that will be negotiated between the Government 
of Iraq and our own government.

    The Chairman. Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Thank you both for being here. For people that may be just 
seeing you on television or in the public for the first time, I 
think it's worth mentioning that you've been taking on 
incredibly difficult jobs, not just for a few months, or even a 
few years, but for a few decades, I think, in both cases. And 
you really are to be saluted for that.
    I will take my question and answer time to ask questions, 
if it's all right with the committee and the witnesses.
    I want to begin with you, Ambassador Crocker. There's been 
a lot of discussion about areas of improvement, Anbar, Diyala, 
locally driven. And I think that's been fairly well recognized. 
But there's a simple concern--there are probably many 
concerns--but a simple concern is: What happens when we leave? 
How do we ensure that local progress on politics, local 
progress on reconstruction, local progress on recruiting police 
officers, is sustained? And I'd like you to describe, in your 
mind, what you think the specific institutions, resources, or 
additional steps are that will be required if that progress, at 
the local level, is going to be sustained once these 
withdrawals are completed.
    Ambassador Crocker. There are several elements to that 
excellent question. First, as I've said before, I think that 
ensuring that local developments relate to the center in ways 
that both the localities--the provinces--and the center agree 
are the most beneficial to larger interests. I think that is 
essential. And that is why we've placed such emphasis, in 
Anbar, for example, on ensuring that police are recruited from 
the locality, but paid for by the central government.
    Iraq may, as time goes on and conditions stabilize, evolve 
into an entity that is different than it is now. But, right 
now, the center is important to the provinces, because it 
controls the finance, for example, and it affects development, 
to a large extent, because projects in provinces, in many 
cases, are carried out by offices of Baghdad ministries. So, 
that's one part of it--ensuring that there is an appropriate 
connection between provincial initiatives and the central 
government.
    In terms of what we can do, as you know, in terms of U.S. 
assistance efforts, we have moved from major infrastructure 
projects into a focus on capacity-building. And we've got 
additional people coming out, for example, to assist that 
effort at the federal level, advisors to ministries to help 
them deliver services more efficiently, including services to 
the provinces. We have also, through the expansion of our 
Provincial Reconstruction Teams, carried that effort, in very 
close coordination with the military. And, as you know, most of 
the--all of the additional reconstruction teams are embedded 
with military units. We've carried that down to the provinces. 
We've increased staffing. And, thanks to Congress, we now have 
what are called Quick Response Funds available to supplement 
the military's CERF funds. And Brigade Combat Team leaders and 
Provincial Reconstruction Team leaders coordinate to ensure 
that they're complementing each other, not competing, on 
efforts to develop provincial capacities, because I think that 
that is going to be critically important.
    Provincial governance is new in Iraq. It did not exist at 
all in any meaningful way under Saddam, and it really didn't 
exist even prior to that. So, their learning curve has got to 
be a very steep one. So, our effort to help that, I think, is 
also key.
    Senator Sununu. With regard to reconstruction, in your 
testimony you mentioned $10 billion in oil resources. You've 
also mentioned the very important critical assistance, U.S. 
taxpayer funds, for the reconstruction--for the provincial 
reconstruction teams and for reconstruction efforts. Capacity-
building is a problem. What other obstacles are there, however, 
to spending that $10 billion effectively? What confidence level 
do you have in the accountability? What confidence level do you 
have in the current quality of the investments that are being 
made? Are you confident that this money is going to be used 
effectively, not just for the long term, but in the next 6 to 9 
months?
    Ambassador Crocker. We're talking about Iraq's own 
investments here, the $10 billion in their capital development 
budget?
    Senator Sununu. Yes.
    Ambassador Crocker. Yeah. There are a number of mechanisms 
and measures that the Iraqis have in place to monitor waste, 
fraud, and mismanagement--inspectors general, the Commission 
for Public Integrity, the Board of Central Audit----
    Senator Sununu. Do those really work? Are they working now?
    Ambassador Crocker. To a degree. I mean, it's like a lot of 
other things in Iraq, quite frankly, Senator, works in 
progress.
    Perhaps the most effective check on this is, I think, the 
healthy watchfulness between center and provinces. The 
provinces want to be darn sure that they're getting everything 
that is supposed to be coming to them. And the center, out of 
whose treasury it comes, has a pronounced interest in seeing 
that the money is used, and not pocketed. And, ultimately, of 
course, in even the very imperfect open society that Iraq is at 
this point, people are watching, too. Provincial councils are 
watching how this is spent.
    Senator Sununu. Thank you.
    General Petraeus, you've described withdrawals--or 
reduction of troop levels, to begin this month; reduction of 
30,000 to be completed by July. You've also spoken about a mid-
March assessment, at which point you'll decide whether to 
recommend withdrawals beyond that 30,000-troop reduction that's 
in your testimony. What factors--what specific factors are you 
going to look at in assessing whether or not there are further 
troop reductions recommended in that mid-March assessment? And 
how might those factors be different than the factors you look 
at in making these recommendations for force reductions?
    General Petraeus. I think, Senator, that the operational 
and strategic considerations that I laid out in my testimony 
actually will all still obtain as we work out the pace of the 
further reductions beyond the situation that we've recommended 
for mid-July right now. Highlighted among those, needless to 
say, would be the local security and political situations. And, 
again, the political piece of that is quite important, because, 
as we saw in Anbar province, that really was--what changed so 
dramatically there was, again, sort of a political change, 
really, of tribes and their leaders choosing to oppose al-
Qaeda, as opposed to being in league with, or at least tacitly 
accepting their presence.
    So, again, that's what we will be looking at very, very 
closely. Similar considerations. Again, it will be informed by 
the strain on our ground forces. That was a factor in this 
particular set of recommendations, and we'll continue to do 
that again next time, as well.
    The Chairman. Thank you----
    Senator Sununu. Thank you, General. Thank you----
    The Chairman [continuing]. Very much, Senator.
    Senator Sununu [continuing]. Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Bill Nelson. Gentlemen, thank you for your public 
service.
    Mr. Ambassador, can Iraq be stabilized without political 
reconciliation between Sunnis and Shiites?
    Ambassador Crocker. No, sir.
    Senator Bill Nelson. What is the chance of that political 
reconciliation in the course of the remainder of this 
administration, over the next 16 months?
    Ambassador Crocker. Senator, I could not put a timeline on 
it, or a target date. I can point to some of the--as we've 
discussed earlier--some of the processes that are underway, 
some of the hopeful signs. Clearly, there is a great deal more 
to do, both at the national level and down in the streets, in 
mixed areas. We've talked a bit about the situation in Baghdad. 
How long that is going to take, and, frankly, even ultimately, 
whether it will succeed, I can't predict. I think there is 
enough in the way of positive signs here to justify the course 
we're on, but, again, I can't give you any timelines, dates, or 
guarantees.
    Senator Bill Nelson. Is the success in Anbar province a 
success because the question of political reconciliation is not 
there, since it is all Sunni?
    Ambassador Crocker. Yes and no. Where the reconciliation 
aspect comes in is through the efforts by the central 
government to connect to the province and the people in the 
province, the hiring of the policemen, for example, the 
furnishing of additional financial resources, as well as steps 
in Abu Ghraib, close to Baghdad--some Baghdad neighborhoods. 
So, it's--I would say what happened in Anbar-proper, that would 
be a precursor to reconciliation. The connections we're seeing 
between the central government and the province, the beginnings 
of reconciliation, but clearly there's a lot more to do. 
Diyala--the province of Diyala, to the northeast of Baghdad, 
may be a more accurate measure as to how this proceeds, because 
of the fact that Diyala is a very mixed province--Sunni, Shia, 
and Kurds--and it has also suffered from extremists excesses, 
both al-Qaeda and extremist Shia militias. So, that process of 
reconciliation would be directly linked, I think, to the 
overall Sunni-Shia and, indeed, Sunni-Shia-Kurd process.
    Senator Bill Nelson. As a diplomat, given the fact that the 
General has testified here that at the end of next summer we 
would likely be in the range of about 130,000 American troops--
with only about 4 months left in the Bush administration--
handing that situation off, with 130,000 troops, to the next 
President--what is your analysis of the diplomatic conditions 
and the chances of success under those conditions?
    Ambassador Crocker. Well, quite frankly, Senator, that's 
just not where my focus is. It's looking at the conditions 
inside Iraq. General Petraeus referred to a battlefield 
geometry. There's also, if you will, a political-military 
trigonometry that comes into play, as well, in making the 
determinations as to, again, ability and orientation of Iraqi 
forces, conditions in areas that obviously are going to affect 
redeployment decisions. But that's where the focus is, not on 
the U.S. political calendar--for me.
    Senator Bill Nelson. All right. Well, let me ask you about 
something that you're engaged in right now. You have been 
having discussions with the Iranian Ambassador. Do you see any 
signs of change? Do you have any optimism, with regard to your 
conclusions from your discussions with Iran, that would give us 
any indication that Iran does not want to take full advantage 
of the conditions in Iraq, to the detriment of the interests of 
the United States?
    Ambassador Crocker. The discussions we've had so far have 
not resulted in any visible improvement of the security 
situation in Iraq, as it is attributable to Iran, whether it's 
training, funding, or providing munitions to radical Shia 
militias, as I've noted. Iran is a complicated place, and they 
make complicated calculations. And I don't pretend to be able 
to read their minds. I don't--therefore, I am not prepared to 
say that this channel is not worth pursuing. It has not 
produced results, as of yet. Maybe that will change in the 
future.
    Senator Bill Nelson. Let me ask you this final question, 
then.
    And, Mr. Chairman, my time's about up, isn't it?
    The Chairman. You have another minute.
    Senator Bill Nelson. Sixty-seconds' worth. Are you 
concerned, as you talk to Iran and as you observe that process, 
that Iran is going to be behind a Hezbollah-type 
destabilization in Iraq in order to exact a price upon the 
United States interests?
    Ambassador Crocker. Sir, they already are, in my judgment, 
involved in that sort of process.
    Senator Bill Nelson. And are they utilizing that Sunni-Shia 
split?
    Ambassador Crocker. They are seeking to expand their 
influence in Iraq using extremist militias. And those militias 
have been a major factor in the sectarian violence, yes.
    The Chairman. Thank you very much, Senator.
    Gentlemen, you've been testifying for a long time. Why 
don't we, in a moment, take a 5-minute break.
    I'd like to recognize, though, a former staff member here, 
Rich Houghton. And I mention him as illustrative of the 
civilians that are over there. For 29 months, he's been in 
Iraq. He was on this committee for years, as Senator Thomas's 
staffer. And I want to point out that it's been 8 months since 
he's been home, and, as both our colleagues know, he ushered us 
around, and he puts his life on the line, too. He's out there 
in those vehicles, he's flying all around. And he's not the 
only one, but I don't know many that have been there much more 
than 29 months.
    Why don't you stand up. I want the committee to remember 
who you were. There you go.
    And, by the way, he----
    [Applause.]
    The Chairman. By the way, General, a special-forces guys 
that take us around, they don't think he can handle himself. I 
don't know what the story is. But, at any rate. [Laughter.]
    The Chairman. So, let's take a 5-minute break.
    [Recess.]
    The Chairman. The hearing will come to order.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ambassador, General, I, too, want to echo my appreciation, 
my admiration for your work, for your service, and to echo the 
support of all Americans for those men and women that are 
serving us in such an incredible way in so many different 
places.
    You know, we had asked you to come and report to Congress 
this week. I think your testimony has been one of the most 
anticipated testimonies, certainly that I can recall, here in 
the Congress. Many of us have withheld either comments or 
projecting on what may happen, until we heard directly from 
you. So, we appreciate this report today.
    We also acknowledge that, preceding your testimony, we have 
received numerous reports, all giving various assessments. So, 
this much-anticipated testimony is, in many ways, a little bit 
preempted by some of what we anticipated that we would be 
hearing.
    So, rather than focus on whether or not we agree or 
disagree with the number of benchmarks that have been met, or 
whether you support the Jones report, I would like to focus a 
little bit, this morning, on how we move forward, and, to use 
your words, General Petraeus, your recommendations for the way 
ahead, because I think that's what people want to know. What 
happens next, now that we know this information and all this 
data that has been collected?
    And you have been very helpful, General, in outlining the 
various drawdowns that will take us through to March. Those 
recommendations will be presented to the President. But, as I 
listened to your testimony and the comments, I'm struck by the 
statement that what we are doing with our recommended force-
reductions mission shift--and I appreciate the slide that 
you've got here--we're saying that--and these are your words, 
General--we are showing the recommended reductions of Brigade 
Combat Teams--``as the surge runs its course, and, illustrating 
the concept of our units, adjusting their missions and 
transitioning responsibility to Iraqis, as the situation and 
Iraqi capabilities permit.'' This sounds very much--it sounds 
identical to what President Bush has been saying all along, 
that U.S. forces will draw down as the Iraqis are able to stand 
up.
    So, the question is: Is this a change in strategy? Is this 
a mission shift? Are we continuing the same path that we have 
laid out before, entirely reliant on the ability of the Iraqis 
to come together to achieve that political reconciliation, and, 
unless they are able to do that, we are not able to execute 
your recommended force reductions?
    General.
    General Petraeus. Well, Senator, thank you. We have, 
indeed, already been shifting responsibilities to Iraqis in a 
number of different places around Iraq, some of them surprising 
places. The most surprising, probably Fallujah, a city in which 
the--first of all, after us clearing it, in November 2004, we 
had to bring in an Iraqi Army and substantial coalition forces 
to hold it, because there were no local young men that would 
volunteer to serve in the police, or even in the army, for that 
matter, in Anbar province at that time. We've just completed a 
process of establishing 10 police precincts in Fallujah, with, 
actually, gated communities, the same as we do in some of the 
very difficult ethnosectarian areas, but so that the local 
individuals in those neighborhoods, those 10 precincts, can 
actually control access to the areas, have population control, 
if you will, to keep al-Qaeda out of Fallujah, something that 
they've worked hard to do. And this has allowed us, not only to 
thin out our own forces--we do still have a Marine squad or so 
in each of those precincts, but a substantial amount less than 
we have in the past--but we're even thinning out the Iraqi Army 
forces, which, as I mentioned earlier, have gone from three 
battalions there, most recently, now down to just one, so that 
the other two can move up and, in fact, replace our forces that 
are coming out of an area in--the ones that are going home 
later this month.
    Mosul is another example. That city has been under enormous 
pressure by al-Qaeda. Al-Qaeda has tried to open a second front 
there, as they did to successfully in November 2004, when they 
brought the police to their knees in Mosul, as we went into 
Fallujah. This time, the Iraqi Army and the police have really 
hung very tough, and we're down to a single combat U.S. 
battalion there. There's a brigade headquarters also, that has 
all Ninawa province--again, a smaller force than in the past.
    That shows what it is that we are trying to do, and will 
do, over the course of the months ahead.
    It is clearly conditions-based, but we're trying to push 
the conditions as fast as we absolutely can, without, again, 
rushing to failure. And what we do not want to do is put 
ourselves back in the position that we found ourselves, say, in 
the latter part of 2006, which did enormous damage, frankly, to 
the entire effort that we had launched.
    I believe that my optimism, back when I showed those very 
fine Iraqi forces to Senator Boxer, was justified. I felt that 
the--and, by the way, if you read the op-ed piece, I don't 
think it's all that dramatically optimistic. It was stating 
what we were doing.
    Senator Murkowski. Can I----
    General Petraeus. A lot of this was undone by that 
sectarian violence in 2006, which did cause, not just horrific 
casualties, but it also caused the hijacking of certain 
elements of the Iraqi security forces by sectarian interests.
    Senator Murkowski. I don't want to interrupt that, but I 
want to ask one very important question that really hasn't been 
brought up here today, and that's the civilian side. When I was 
in Iraq and had a sit-down with General Odierno, he said, ``As 
important as the military surge is going to be the civilian 
surge.'' And that piece, in his opinion, had not yet played 
out, had not yet been effective. And, Ambassador, you have--
you've stated that there is ``appropriate civilian posture.'' 
And I think that that means that you're satisfied with the 
level of the civilian commitment that you have with your PRTs. 
Yet, we look at the economy, we recognize--to use your words, 
``The economy is performing under potential.'' Is the civilian 
surge adequate to support the military surge? And, Ambassador, 
I'm going to, kind of, let you off the hook, because you have 
said that it is appropriate. General, do you have the support 
that you need on the civilian side?
    General Petraeus. We would like to see more. I agree with 
the Chairman of the Joint Chiefs of Staff, who has said, 
repeatedly, that certain elements of our government are at 
war--DOD, State, AID--but not all of the others. So, we can use 
help in those areas. Some of these areas are quite thin--
Agriculture, Health, and some others. The PRTs are enormously 
helpful. We need to make sure that they are filled as they are 
supposed to be. The protection is, they will be, but that's 
something we need to watch carefully. And, even, frankly, in 
our own DOD, the FMS system really has to respond more rapidly, 
given all of the commitment that the Iraqis have made in 
becoming one of our bigger foreign military-sales customers. 
And we've got to try to push that process as rapidly as we can 
so that we can, in fact, equip them in the way that we had 
promised to do.
    The Chairman. Thank you very much, Senator.
    Senator Obama.
    [The prepared statement of Senator Obama follows:

  Prepared Statement of Hon. Barack Obama, U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this hearing and for giving us 
an opportunity to gather more information about the situation in Iraq. 
I also appreciate the willingness of General Petraeus and Ambassador 
Crocker to provide an update on the situation from their perspectives. 
I look forward to their assessment of the situation on the ground in 
Iraq, a situation that can only be described as grave.
    We've heard from the administration and from many of our Senate 
colleagues this summer that we need to give the President's surge 
strategy more time before we can make a decision to redeploy our 
troops. However, two reports issued over the past week paint a bleak 
picture of the prospects of the current strategy. These reports 
reinforce the conclusion that there is no military solution in Iraq, 
that we need to get our troops out of the middle of Iraq's civil war, 
and that this war must be brought to a responsible conclusion.
    The U.S. Government Accountability Office concluded that the Iraqi 
Government has failed to meet 11 of its 18 benchmarks. Another 4 
benchmarks have been only partially met. In particular, GAO cited the 
failure of the Iraqi Government to enact legislation on de-
Baathification, oil revenue sharing, provincial elections, amnesty, and 
militia disarmament. Moreover, according to GAO, the Iraqi Government 
has not eliminated militia control of local security, it has not 
eliminated political intervention in military operations, it has not 
ensured even-handed enforcement of the law, and it has not increased 
the number of army units capable of independent operations. The effect 
of this failure to act has been a high level of sectarian violence that 
can only be seen as having abated when it is measured against the 
explosion of violence late last year and early this year.
    And last week, an independent commission chaired by GEN James Jones 
offered a similarly bleak assessment.
    The Jones Commission found that the Iraqi security forces will not 
be able to carry out their essential security responsibilities without 
assistance for at least 12 to 18 months. The Commission also found that 
the Iraqi Police Service is incapable of providing adequate security to 
protect Iraqis from insurgents and sectarian violence and that the 
National Police is so infiltrated by sectarian militias that it should 
be disbanded and reorganized.
    These independent assessments--and the stunningly bleak NIE 
released at the end of last month--make clear that there has been zero 
national political progress. The consensus from the NIE, GAO, and 
General Jones is that the Iraqi security forces have made little 
progress.
    Rather than identify the very limited tactical gains that have been 
made at great cost and using them to justify the maintenance of a 
failing strategy, I believe it is time to change course. Over 3,700 
American service men and women have died in this war and over 27,000 
have been seriously wounded. Each month, this misguided war costs us a 
staggering $10 billion, and when all is said and done, this will have 
cost us $1 trillion.
    Changing the definition of success to stay the course with the 
wrong policy is the wrong course for our troops and our national 
security. The time to end the surge and to start bringing our troops 
home is now--not 6 months from now. The Iraqi Government is not 
achieving the political progress that was the stated purpose of the 
surge, and in key areas has gone backward.
    Our military cannot sustain its current deployments without 
crippling our ability to respond to contingencies around the world. 
It's time for a change of direction that brings our troops home, 
applies real pressure on the Iraqis to act, surges our diplomacy, and 
addresses Iraq's urgent humanitarian crisis. I can only support a 
policy that begins an immediate removal of our troops from Iraq's civil 
war, and initiates a sustained drawdown of our military presence.
    It is long past time to turn the page in Iraq, where each day we 
see the consequences of fighting a war that should never have been 
authorized and should never have been waged. We in Congress must take 
action to change the President's failed policy.

    Senator Obama. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Obviously, with 7 minutes, it's a little frustrating, 
because we're dealing with an extraordinarily complex 
situation, so I just want to stipulate to a couple of things.
    No. 1, the performance of our troops has been outstanding, 
and we thank them for their service. They have done everything 
that's been asked of them throughout this process.
    No. 2, I think that both of you gentlemen are doing the 
absolute best that you can, given an extraordinarily difficult 
situation. And so, I appreciate the work that both of you are 
doing.
    I would say that the mission that's been given to you is 
what's at issue here in the Senate. The question is one of 
strategy, not tactics. And the difficulty we have, I think, is 
that each time we've talked to you, questions have been posed 
to you about the broader strategy of our war in Iraq, you've 
punted a little bit, because you've said, ``Look, that's a 
little outside my bailiwick.'' But, as Senator Feingold pointed 
out, we don't have limitless resources, and we've got to make 
these decisions, at least in the Senate, based on priorities 
and the costs, as well as benefits to pursuing a particular 
strategy.
    I have to say--and this hasn't been commented on--I think 
that we should not have had this discussion on 9/11 or 9/10 or 
9/12, because I think it perpetuates this notion that somehow 
the original decision to go into Iraq was directly related to 
the attacks on 9/11. And this is not to relitigate the original 
decision to go into Iraq. It is to suggest that if the American 
people and the Congress had understood then that, after 
devoting $1 trillion, which is what this, optimistically, will 
end up having cost, thousands of American lives, the creation 
of an environment in which al-Qaeda in Iraq could operate, 
because it didn't exist prior to our invasion, that we have 
increased terrorist recruitment around the world, that Iran has 
been strengthened, that bin Laden and al-Qaeda are stronger 
than at any time since 2001, and that the process of Iraqi 
reconstruction and their standard of living would continue to 
be lower than it was preinvasion, that, if that had been the 
deal, I think most people would have said, ``That's a bad deal. 
That does not make sense. That does not serve the United States 
strategic interests.''
    And so, I think that some of the frustration you hear from 
some of the questioners is that we have now set the bar so low 
that modest improvement in what was a completely chaotic 
situation, to the point where now we just have the levels of 
intolerable violence that existed in June 2006, is considered 
success. And it's not.
    This continues to be a disastrous foreign policy mistake, 
and we are now confronted with the question: How do we clean up 
the mess and make the best out of a situation in which there 
are no good options? There are bad options and worse options. 
And this is not a criticism of either of you gentlemen, this is 
a criticism of this President and the administration, which has 
set a mission for the military and for our diplomatic forces 
that is extraordinarily difficult now to achieve. And there has 
been no acknowledgment of that on the part of this 
administration, so that we have the President, in Australia, 
suggesting somehow that we are, as was stated before, ``kicking 
A-S-S.'' How can that--how can we have a President making that 
assessment? And it makes it very difficult, then, for those of 
us who would like to join with you in a bipartisan way to 
figure out how to best move forward, to extricate this from the 
day-to-day politics that infects Washington.
    So, I just wanted to get that on the record.
    Final stipulation. I think the surge has had some impact, 
as I suggested. I would hope it would, given the sacrifices and 
loss that have been made. I would argue that the impact has 
been relatively modest, given the investment. And I have to say 
that, based on my testimony, it is not clear to me that the 
primary success that you've shown in Anbar has anything to do 
with the surge. You said, in this testimony, that it's 
political, the reason for the success in Anbar, not because of 
an increase in troop strength. We have, maybe, seen some modest 
decline in sectarian violence inside Baghdad, as a consequence 
of our troop patrols. That's been purchased at the cost of 
increased U.S. casualties, and is unsustainable. What we 
haven't seen is a significant disarming of the Shia militias. 
I've--again, during your testimony, you've told us that, 
essentially, the Shias decided, even before we got there, to 
stand--to get on one knee and to wait it out. We haven't seen, 
most importantly, any significant improvement, in terms of the 
central government's performance. It continues to be 
ineffectual, and we have not seen national reconciliation of 
the sort that was promised prior to the surge.
    So, I just think it's important for us to get all that 
clear and on the record, because that provides the context in 
which we are going to have to be making a series of decisions.
    That, of course, now leaves me very little time to ask 
questions. And that's unfortunate.
    The Chairman. That's true, Senator.
    Senator Obama. Let me----
    [Laughter.]
    Senator Obama. Let me ask--let me, then, just pick up on a 
question that I think was relevant, and was posed by Senator 
Murkowski. And that is, the general theory has been that we 
will drawdown when Iraqi security forces stand up and/or the 
Iraqi Government stands up. General Petraeus, in the 
counterinsurgency manual that you wrote, it says that, ``Even 
the strongest U.S. commitment will not succeed if the populace 
does not perceive the host nation government as having similar 
will and stamina to our own.''
    The question I think that everybody is asking is: How long 
will this take, and at what point do we say, ``Enough''?
    Ambassador Crocker, you said, ``The patience--the Iraqi 
people understand that the patience of the American people is 
not limitless.'' But that appears to be exactly what you're 
asking for in this testimony. I don't see, at any point, where 
you say, ``If this fails,'' or, ``If that does not work,'' or, 
``If we are not seeing these benchmarks met,'' or any 
conditions in which we would make a decision, now, to start 
drawing down our troops. And you suggest, somehow, that our 
drawing down troops will not trigger a different set of 
behaviors on the part of the Iraqis. But I don't see what will. 
And if we're there, the same place, a year from now, can you 
please describe for me any circumstances in which you would 
make a different recommendation and suggest, ``It is now time 
for us to start withdrawing our troops''? Any scenario. Any set 
of benchmarks that had not been met.
    Ambassador Crocker. Senator, I described, for Senator 
Sununu, a little bit ago, some of the things that I think are 
going to be very important as we move ahead.
    Senator Obama. Can you repeat those? And I know I'm out of 
time, so I'm just going to ask for both the General and----
    The Chairman. Well, Senator----
    Senator Obama [continuing]. The Ambassador to answer this.
    The Chairman [continuing]. We are--let me just make it 
clear, we're not going to have much--these guys have to testify 
at 2 o'clock. It's in the record. But--why don't you try to 
summarize, quickly, what you said. OK?
    Ambassador Crocker. OK. I mentioned several points. As 
General Petraeus has said, what is happening in Iraq is an 
ethnosectarian competition for power and resources. That's 
simply the way it is. So, the question is: Is it played out 
violently or by other ways? So, I think one key indicator is 
going to be levels of violence, going forward. They've come 
down substantially, they need to go down farther, and they need 
to stay down. So, that is obviously something we're going to be 
looking for.
    As they go down and stay down, it's going to be very 
important to see the kinds of political responses that we saw, 
for example, in Anbar, and are starting to see in Diyala and a 
few other places, the degree to which the issues do move to the 
political arena. And then, related to that, a third point is 
the linkages, then, that need to develop between the center and 
the provinces, the outlying areas, as security conditions 
stabilize, assuming they do.
    And the final point, coming back to your comment on 
militias, I think it's going to be very important to see what 
happens in the months ahead with respect to the government's 
ability to take on militia elements in Baghdad and elsewhere.
    The Chairman. Thank you, Senator.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Thank you, General, and Mr. Ambassador, for your service. 
Whenever I'm frustrated and worried about our country because 
of the political process, I'll tell you, General, I'm never 
more proud or optimistic about the future of our country than 
when I'm standing with our troops somewhere in the world. And I 
thank you and all of them.
    I particularly appreciate both of you for enduring our 
hearings. As you have found, our hearings are more about 
listening to ourselves than listening to our witnesses, and I 
promise to continue that tradition, myself.
    I think many of us, or most of us, would admit, at this 
point, that when we went into Iraq we got into a lot more than 
we bargained for. We were unprepared, politically and 
militarily, for the task. The loss of life and injury to our 
troops, with makeshift bombs, should shame our military and 
political leaders for our lack of forethought and planning.
    Perhaps an even bigger issue is that our approach in Iraq 
has demonstrated that our own government no longer completely 
understands how and why freedom works. We have established a 
premature democracy in Iraq, and it's become increasingly 
apparent that the private-sector institutions that are 
necessary to sustain a democracy and a free society do not yet 
exist in Iraq.
    Nevertheless, we're there now and are asking our troops to 
provide security and maintain order while we work desperately 
to create a functioning government, military, police force, 
economic system, and a free society. Our only other choice is 
to abandon our mission, disgrace our country, dishonor our 
fallen troops, and leave Iraq, and the whole region, in a 
deadly turmoil.
    Our mission is overwhelmingly complex. The fact that you're 
both here reporting some success, and that you now believe our 
goals are attainable, is, in my view, a cause for celebration 
and will certainly encourage the American people, who, in large 
part, have been convinced that the war is lost.
    We know that your report will be resisted and maligned by 
many who have staked their political future on the belief that 
America's goals in Iraq were wrong and that our mission has 
failed. In my view, the only relevant question now is: Where do 
we go from here?
    General, your recommendation to drawdown troops to the 
presurge levels is encouraging. Your plan to further reduce 
troop levels as soon as possible is very welcome.
    Ambassador Crocker, your report that some leadership is 
emerging from within the Iraqi Government is heartening. And I, 
frankly, believe that if Iraq was located anywhere else in the 
world, that a functioning democracy would likely emerge in the 
relatively short term. But it's not located anywhere in the 
world; it's in the Middle East, with the world's biggest 
sponsors of terror on its borders and nearby in the region.
    So, my question to you both is this: Is there any 
reasonable expectation for long-term viability of a peaceful, 
democratic Iraq, as long as the current regime rules in Iran 
and the conditions in Syria and Saudi Arabia remain the same?
    And, Mr. Ambassador, I would just ask you to, maybe, make a 
political observation; and, General, of just some military and 
security implications of the border states in the region, for 
Iraq.
    Ambassador Crocker. It's a great question, Senator. Iraq's 
problems are difficult enough in their own terms, but they 
don't play out in their own terms. Iraq's in a rough 
neighborhood, and that complicates the issue considerably.
    I think it can. Iran has been a malign actor in Iraq, but, 
even with the worst of intentions, there are limits on what 
Iran can do. Iran is not an Arab state. Iraqi Shia Arabs are 
not Persians. There is the legacy of an 8-year bitter war 
between the two countries, in which tens of thousands of Iraqi 
Arab Shia died for Iraq against the guns of Iran. So, Iran's 
influence has its limits, and popular tolerance for Iran has 
its limits, particularly when Iran overreaches. And that's what 
I think is the significance of the incidents in Karbala, about 
10 days ago. It was an Iranian-backed militia element. The fact 
that it attacked shrine guards on one of the most holy days of 
the Shia Islamic calendar created a lot of Shia anger, and a 
lot of that anger was--is directed against the militias, is 
directed against Iran. So, there are limits to Iran's 
hostility--or ability to turn its hostility into deeply 
destabilizing action.
    The Arab neighbors may be turning a new page. I mentioned, 
in my testimony, that Saudi Arabia has now decided to reopen 
its Embassy in Baghdad. I met with their delegation when they 
came through, and they said, ``Look, it's time to get on with 
relations with a key Arab country, and that's Iraq.''
    Jordan's made some positive statements. There are still 
reservations. There's no question. There is still more they can 
do. But I think this may be moving in a more positive 
direction.
    Syria is, as I said, problematic. They've hosted a number 
of--almost a million Iraqi refugees, but they've also allowed a 
certain number of foreign fighters, suicide bombers, to cross 
the border. They need to do more.
    Senator DeMint. Thank you.
    General Petraeus. Senator, I would just pick up on that and 
say that, first of all, the Ambassador and I have, on several 
occasions, said that you cannot win in Iraq; just in Iraq. And 
so, you're absolutely right about the importance of neighboring 
countries and the influence that they have on the activities in 
Iraq.
    Iraq very much needs Syria to tighten its airport--
Damascus, Aleppo--and also its borders, much more to the 
movement of individuals that come through. They're foreign 
fighters, some of whom become suicide bombers, and then move 
through the borders into Iraq.
    We believe there are also some training camps over there. 
It is something the intelligence is still certainly developing 
to try to determine how accurate that is, but there are 
concerns about that, as well.
    But tightening that, because, again, although al-Qaeda may 
not be the source of the most violence in certain areas of 
Iraq, it is the organization that, again, has ignited the 
ethnosectarian violence, and it is the Sunni Arab organization 
that generally was carrying out the ethnosectarian violence in 
Baghdad, as well.
    With respect to Iran, we have learned a great deal more 
about Iranian activities in Iraq since the capture, some months 
back, of the head of the so-called ``special groups'' that are 
associated with Sadr's militia. These are individuals who have 
been trained, equipped, armed, and funded by Iran. And, along 
with that individual, we captured the deputy commander of the 
Lebanese Hezbollah Department 2800, which we had not been aware 
of, but it turns out to be an organization that has been 
created to support Iran's activities with respect to the 
special group and some of the other militia extremists in Iraq.
    Again, that makes the situation vastly more difficult for 
Iraq, obviously, than it otherwise would be. A lot of the 
munitions that are shot at innocent civilians, shot at our 
forces, Iraqi forces, certainly those used by these militias, a 
very large number of those, in fact, come from Iran in the form 
of the rockets, the explosively formed projectiles, and some of 
the other arms and munitions that are provided to them.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And thank you both for your service. I admire the 
extraordinary sacrifice of our men and women in uniform, which 
is why I believe that we must give them a policy worthy of 
their sacrifices. And I just don't believe the policy that 
we've had, or I've heard here today, meets that standard.
    General Petraeus, you say in your testimony, ``The 
fundamental source of the conflict in Iraq is competition among 
ethnic and sectarian communities for power and resources. This 
competition will''--and you emphasize--``will take place, and 
its resolution is key to producing long-term stability in the 
new Iraq.''
    So, we have the sons and daughters of America dying for 
Iraqis to compete over power and resources, instead of trying 
to establish a nation.
    General Petraeus. Actually, Senator, our mission is to try 
to help what is an inevitable competition--I have tried to 
describe this as accurately as I could----
    Senator Menendez. And I appreciate----
    General Petraeus [continuing]. Of ethnosectarian competi-
tion----
    Senator Menendez [continuing]. It. You say that the----
    General Petraeus. Our mission----
    Senator Menendez [continuing]. Fundamental----
    General Petraeus [continuing]. Is to----
    Senator Menendez [continuing]. The fundamental source----
    General Petraeus [continuing]. Try to----
    Senator Menendez [continuing]. Of the conflict.
    General Petraeus [continuing]. Get that to be carried out 
more peacefully rather than more violently. And that is what we 
are trying to help the legitimate Iraqi forces and the----
    Senator Menendez. But at the----
    General Petraeus [continuing]. Government of Iraq to----
    Senator Menendez [continuing]. Core of it--what we're doing 
is trying to referee, with the lives of Americans, a 
competition for power and resources, not for building a nation. 
And, in my mind, that is a misguided policy from the outset. I 
appreciate that you put that up front, on page 2 of your 
testimony. But it seems to me that if we were dying for Iraqis 
to build a nation, versus edging each other for power and 
resources, that would be different. But that is clearly not the 
case. If the ``street fight,'' as Ambassador Crocker said, may 
go on if we were to leave, it seems to me, you've defined that 
there is a street fight going on right now over power and 
resources.
    Let me just ask you this. I heard the testimony yesterday, 
saw the headlines today, but, as I understand it, all you're 
doing, in terms of reducing the numbers, which has been much 
heralded, is acknowledging the very same timeline that had 
largely been established. You're accelerating it somewhat, but 
you're ending around the same timeline, to bring the surge 
troops back home. Isn't that a fair statement?
    General Petraeus. Senator, it is correct that what I am 
doing is recommending the beginning of the reduction of the 
surge forces in mid-December, rather than as late as April, if 
you just ran it all the way until the----
    Senator Menendez. But you'll basically----
    General Petraeus [continuing]. 15-months mark.
    Senator Menendez [continuing]. Be there around the same 
timeframe.
    General Petraeus. Well, what I'm also not doing, Senator, 
is recommending continuing the surge or recommending continuing 
some portion of the surge forces, if you will. So, this is a 
reduction of forces that are on the ground right now. It will 
represent one-quarter of our ground combat brigades. And, to a 
commander, that's a substantial reduction----
    Senator Menendez. So, you're----
    General Petraeus [continuing]. Reduction of forces.
    Senator Menendez. But, basically, I think everybody 
understood that, beyond that type of deployment, it would be 
very difficult to continue it under any set of circumstances. 
So, what we're going to end up with, in July of next year, is 
largely where the administration was at February of this year, 
before the surge.
    General Petraeus. It will be the same number of combat 
brigades that we had in Iraq in----
    Senator Menendez. And so, therefore, the----
    General Petraeus [continuing]. In----
    Senator Menendez [continuing]. The policy that we had in--
--
    General Petraeus [continuing]. In January of this year.
    Senator Menendez. And so, therefore, the policy that we had 
in February is going to be the policy we're going to have next 
July, in terms of troops on the ground and what was being 
achieved.
    General Petraeus. The mission will be slightly modified, in 
terms of the emphasis on supporting the Iraqi forces and, as 
quickly as possible, but without rushing to failure, 
transitioning tasks to them.
    Senator Menendez. I appreciate not rushing to failure, but 
I'm looking at your chart, the Iraqi Security Forces 
Capabilities. Now, as I read that chart, I put my ruler across 
your timeline, and it seems to me that, in the category of 
``fully independent,'' they are just about, or less so, than 
they were in November 2006; that in the category of Iraqi lead 
with coalition support, they are just about the same level as 
November 2006; and only when we get to the category of fighting 
side by side do we see an increase. So, 11 months later, where 
we have to depend upon the Iraqis to do a lot of what you're 
suggesting needs to take place, we are at about the same levels 
as of November 2006.
    General Petraeus. And a key reason for that, Senator, is 
because Iraqis have been fighting and dying, and, in fact, have 
lost leaders, soldiers, and equipment, which, in fact, has made 
it difficult for them to maintain their readiness assessments.
    I think it's important not to get too fixated on these ORA 
numbers, the Operational Readiness Assessment numbers, because 
the fact is that, in a number of provinces in Iraq, you have 
Iraqi organizations who are not assessed as level 1, because 
they--just like our own readiness system, they're lacking in 
some equipment or some leaders or some people----
    Senator Menendez. But, General----
    General Petraeus [continuing]. But they are still 
performing--in fact, in some cases, completely independently of 
our forces.
    Senator Menendez. You put the chart to substantiate that 
we're making progress. And----
    General Petraeus. Oh, I put the----
    Senator Menendez [continuing]. Clearly----
    General Petraeus [continuing]. Chart to inform, Senator.
    Senator Menendez. Well, all right.
    General Petraeus. That was just to lay out----
    Senator Menendez. All right. Fine. So----
    General Petraeus [continuing]. The facts----
    Senator Menendez [continuing]. We are now informed----
    General Petraeus [continuing]. Because this isn't----
    Senator Menendez [continuing]. That we are not----
    General Petraeus [continuing]. This isn't----
    Senator Menendez [continuing]. Much better in the two----
    General Petraeus. I mean, there's been----
    Senator Menendez [continuing]. Categories that are 
critical.
    General Petraeus [continuing]. A discussion about it, and I 
want it--to have it out there. It's the same as I put the chart 
in about the violence trends that have been all over the map--
--
    Senator Menendez. General, with what you know today, if the 
Commander in Chief said to you, ``General Petraeus, how many 
more years do American soldiers have to continue in Iraq?'' 
what would your answer to him be?
    General Petraeus. I would give a forthright answer, 
Senator, which is that I cannot predict that; and I cannot do 
that to you here, either, today.
    Senator Menendez. And if he pressed you, clearly you would 
give--he would--you would be able to give him some timeline. 
Two----
    General Petraeus. I would not----
    Senator Menendez [continuing]. Years? Five years?
    General Petraeus [continuing]. Sir. Sir, I would be doing a 
disservice to our soldiers if I tried to lay out a specific 
timeline, at this point, that took us all the way out. What I 
have done here is laid out for you what our conceptual plan is. 
And, obviously, we all want--you know, I'm as frustrated with 
the situation as anybody else. This is going on 3 years for me, 
on top of a year deployment to Bosnia, as well, so my family 
also knows something about----
    Senator Menendez. And I----
    General Petraeus [continuing]. Sacrifice.
    Senator Menendez [continuing]. Appreciate that sacrifice--
--
    General Petraeus. And what we're----
    Senator Menendez [continuing]. And so do----
    General Petraeus [continuing]. Trying to do is to----
    Senator Menendez. There are millions----
    General Petraeus [continuing]. Get it down as quickly----
    Senator Menendez [continuing]. Millions of----
    General Petraeus [continuing]. As we can.
    Senator Menendez [continuing]. Millions of American 
families who are looking at what is happening to their sons and 
daughters who are in Iraq today, and some who will be in Iraq 
tomorrow, including from my home State of New Jersey. And they 
question: How long is this going to continue, under what 
circumstances, with what benchmarks? Benchmarks which we've 
seen to be erased here, even though it is the law. The 
benchmarks were established, created with the Iraqi Government, 
signed on by the President, passed by the Congress, signed into 
law, and now we basically say, ``Well, let's forget those 
benchmarks.'' That is not something that the American people 
can continue to be called upon for.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Isakson.
    Senator Isakson. General Petraeus, Ambassador Crocker, 
thank you very much for your service. We all admire you.
    I think it's instructive to me that in the New York Times 
poll yesterday, General Petraeus, 60 percent of the people 
trusted you to make the decisions, and 20 percent of the people 
trusted us. So, I think we ought to all pay attention to what 
you've got to say. And that's really a tribute, also, to the 
job that you have done, and the job that Ambassador Crocker has 
done, in Iraq.
    My memory, at the start of this, was that the United States 
went into Iraq because of Resolution 1441, passed by the United 
Nations, where, unanimously, the world thought that Saddam 
Hussein had weapons of mass destruction. And we had some faulty 
intelligence, but we were not alone; the world thought that. 
The President, in his speech, outlined three specific goals 
before we went in. One, to depose Hussein and find weapons of 
mass destruction. Second was to allow the Iraqis to have free 
elections and write a constitution. And third was to train 
their military sufficiently to protect that fledgling country.
    The way I see it, goals one and two have been met. Hussein 
was deposed, and the Iraqis tried him in their courts--not us. 
Weapons of mass destruction weren't found exploding, but their 
components were there, from buried Scud missiles to massive 
graves of people that had been killed. Because of our troops, 
they held three elections, they wrote a constitution, and we're 
now at the third goal.
    Now, yesterday, General Petraeus--or last week--General 
Jones and his group made an assessment, on the training of the 
Iraqi military, that we were about 18 months away from them 
having their numbers levels met and their training completed. 
Is that a fair estimate?
    General Petraeus. I think it is, Senator. Again, what 
you're talking about is the general structure----
    Senator Isakson. Right.
    General Petraeus [continuing]. Because there are already 
cases, as I mentioned, of units that are performing local 
security, but then there are other units about which we have 
concern over sectarian influence. So, again, there is a big mix 
in there. But, as a generalization, I believe that is correct.
    Senator Isakson. Well, your point regarding the turnover in 
Basrah, to the Iraqi Army, when the Brits were leaving--as I 
remember it, the mosque bomber that was captured and killed 3 
weeks ago, that was an Iraqi operation, with only close air 
support by United States troops, if I'm not mistaken. Is that 
right?
    General Petraeus. That's correct. And, in fact, in another 
case, it is Iraqi Army forces that both identified and then 
killed the al-Qaeda emir of Mosul, the senior al-Qaeda leader 
in Mosul, as well. So, there have been some shining examples of 
Iraqi forces conducting operations, in some cases on their own, 
in some cases with some support from us. And, certainly, the 
latter is the model that we're trying to get to. And it works 
quite well in certain provinces. But, in some other very 
challenging provinces, we're obviously a long way from that.
    Senator Isakson. Well, as I read your recommendations, 
which are reflected by this chart, you are recommending a 
gradual change from American troops leading the security of 
Iraq to American military personnel overseeing or overwatching 
operations in Iraq, and that it has four or five stages, which 
will be determined by multiple factors, but one significant one 
will be the number of Iraqi troops that are trained and capable 
of taking over what's represented as the red here, which is the 
leadership. Is that right?
    General Petraeus. That is correct, Senator.
    Senator Isakson. So, this is really a recommendation for a 
way forward to reduce American involvement in combat, increase 
the involvement of the Iraqi troops, and have an oversight--an 
overwatch, if you will--of those operations by American troops. 
Is that correct?
    General Petraeus. That is correct, sir.
    Senator Isakson. And you can't put a timetable on it, 
because none of us ever can, but certainly we're in reach, or 
in sight, of some of those significant goals that were 
established 5 years ago that would then trigger the ability to 
make some of those reductions.
    General Petraeus. That's correct. You know, one thing I 
have not talked about is the Prime Minister of Iraq 
establishing 120 percent as the authorized level of personnel. 
And this will compensate for the challenges they have of the 
leave program, where soldiers literally have to take money 
home, or their family doesn't get the money. And, of course, 
those soldiers are in this for a very, very long time. They are 
not redeploying at all, they are in the fight, and they will 
stay in the fight. So, raising that authorization level has 
already helped bring units up to strength.
    The challenge for Iraq, in the months and, really, years 
ahead--in fact, the challenge in them getting the Operational 
Readiness Assessment numbers up higher--is going to be leaders. 
They've lost a number of leaders in combat. They have formed 
units at a pretty rapid rate, actually, and, you know, it's 
easy--it's one thing to train an infantryman. It's not easy, 
but it's one thing to train an infantryman. It's something very 
different to have a company commander, a battalion commander, 
or a brigade commander, or their staffs. Those take years of 
experience and professional military education. They have 
reached out, actually, to former members of the Iraqi Army, 
all--of all ethnosectarian backgrounds, recently, which is a 
pretty important step for them--tens of thousands. They've got 
about 5,000 or so that they've offered commissions to, or 
noncommissioned officer positions to, and then others who will 
move under the retirement rolls, which is significant, as well, 
because they had not had that status, and others, still, to 
civilian positions.
    Senator Isakson. Again, thank you very much for your 
service.
    Ambassador Crocker, you have to dodge verbal bullets, which 
sometimes are more penetrating than the real ones, I know, and 
I appreciate all that you've done.
    You made a statement in July, the week after the interim 
report, which has stuck with me. And then, when I read your 
testimony last night, it came back to me. You said, ``Failure 
to reach benchmarks politically in Iraq should not necessarily 
be indicative of a lack of progress.'' And what you stated 
about some of the local de-Baathification, some of the local 
reconciliation that's taken place, I presume, was probably what 
you were referring to at that particular time.
    I take it, from what General Petraeus has said, and from 
what you're saying, is that ground-up, if you will, movement 
toward de-Baathification and reconciliation is picking up 
steam. Is that correct?
    Ambassador Crocker. I think it is, sir. But it is also--
it's ground-up, but it's also top-down, because the decision to 
make offers to former military officers, many of them Baath 
Party members, that was a central government decision. It's 
just that, rather than address the matter through complex 
legislation that has been very, very difficult to negotiate, 
they dealt with it as a specific, immediate issue, finding ways 
to deal with these former officers. So, you've got both bottom-
up and top-down, but neither in the form of comprehensive 
national legislation.
    The Chairman. Thank you very much, Senator.
    Senator Isakson. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Let me first start, as most of my 
colleagues have, to express my appreciation, on behalf of all 
the people of Maryland and our Nation, for your service and 
your leadership and the extraordinary service of our soldiers 
and the support teams and their families that are--been 
operating in Iraq.
    But I want to follow up on some of the frustration that's 
been expressed here, not only by the two of you, but by the 
Members of the United States Senate. And I'm not going to go 
back to 2002 and 2003--and I could--when I opposed the U.S. 
military involvement in Iraq. But the purpose of this hearing 
is to evaluate the President's surge policy that was 
implemented in January of this year, and I'd go back to last 
fall, when we began our national debate on a new chapter for 
the United States and Iraq. We have just completed national 
elections. We had the Iraqi--Iraq Study Group Report. And the 
President made a decision, in January, which was a 
controversial decision, to surge United States troops in Iraq.
    Now, during that debate, there were certain goals and 
expectations that we expected to be able to achieve through the 
surge policy. We expected to reduce violence, to set the 
climate for political reconciliation and accommodation, and 
reduce U.S. troop levels. That was the expressed goals of our 
surge policy. It's now time for the Senate and the American 
people to evaluate what has been achieved by the surge policy.
    When we look at violence, I appreciate the charts and 
information that's been made available today. And, as you know, 
by our own acknowledgment, violence is too high in Iraq today. 
We can debate some of the numbers, although there have been 
other reports that we have received that indicates the violence 
actually has accelerated in many parts of Iraq. But the 
National Intelligence Assessment--Estimate--points out that a 
significant part have been dislocated individuals, people who 
have moved out of harm's way. And, General, as you pointed out, 
some of this--numbers are violence of Iraqi soldiers, 
themselves--1.1 million of displaced people within Iraq, 
200,000 in Baghdad itself. Well, that's going to reduce the 
targets, if they move from the--and participate in being 
ethnically cleansed. And, of course, the poll today, the Iraqis 
themselves believe that they are no safer today than they were 
before the surge.
    Senator Menendez pointed out that your chart on the Iraqi 
security forces indicate that there's been little improvement 
on level 1 and 2, for whatever reason. And the independent 
report from General Jones indicates that the national--Iraqi 
national police force is in terrible shape and could even be 
disbanded.
    So, in regards to violence, we all acknowledge that we have 
not achieved the objectives that we set out in January of this 
year.
    Now, the second was a climate for political reconciliation 
and accommodation. Now, here the results are pretty clear. We 
have, again by your own testimonies, an acknowledgment that the 
government is dysfunctional. We have the withdrawal of the 
Sunni Arab consensus front from the government, so the Cabinet 
is badly numbered, as far as who's participating. The agreed-to 
benchmarks, which my colleagues pointed out were not our 
benchmarks, but the administration's benchmarks, have not been 
achieved in regards to political considerations.
    So, we have not made the progress necessary on the 
political front, which gives--leads us to the third standard 
that you asked us to judge on, and that is the expectation for 
the reduction of U.S. troops. And, General Petraeus, you 
indicate that hopefully within 10 months we will be able to get 
our troop levels down to 130,000, which is where we started, 
which is no troop reduction. We're back to where we were before 
the surge, which doesn't seem to be the goal we set out last 
January.
    So, I'm just suggesting we shouldn't try to change the 
rules or the evaluation procedures. We failed on our own 
standards that we set up last January. And that's why a lot of 
us are frustrated, because, yes, we do want to look forward. 
Where do we go from here?
    And now, we all agree we need to increase diplomacy; we 
need a stronger diplomatic effort. But, Ambassador Crocker, I 
guess the question I would like to ask you is: In this climate, 
where it's perceived, if it's not reality, that America is the 
occupation force in Iraq, and there's little motivation for 
other countries or entities to take proprietary interest in 
trying to help the Iraqis, diplomatically, when we're trying to 
get international organizations, including the United Nations, 
and, I hope, OSCE, which we're using now in Afghanistan, what 
motivation is there, with the United States taking on just 
about the complete burden, outside the Iraqi themselves, in 
trying to help the Iraqis--what incentive is there to help in 
training the security forces, in helping provide the security 
they need, in helping to train the different public agencies 
that are needed in Iraq, to establish the type of government 
they need, from the judiciary to their utilities--what 
incentive is there for other countries to get involved, or 
organizations to get involved?
    Ambassador Crocker. Senator, I think there is a growing 
realization in the region and in the international community 
that what happens in Iraq is important to the world. And I 
think that is why you have seen some of the things I described 
in my testimony, of both regional and international initiatives 
that are developing some momentum. I talked a little bit about 
the neighbors forum that brings all of Iraq's neighbors, plus 
the P5 and the----
    Senator Cardin. And that was a positive development. But my 
point is this, that as long as the United States continues its 
military presence in Iraq, which is not popular 
internationally, the incentives for diplomatic help and on-the-
ground help, is marginalized.
    Ambassador Crocker. Senator, I'd give you a slightly 
different view on that. I mentioned the new mandate for the 
United Nations assistance mission in Iraq----
    Senator Cardin. Which you mentioned earlier.
    Ambassador Crocker. Right. They've got a much more 
ambitious and robust mandate now than they did in the past. And 
it is the intention of the Secretary General that the United 
Nations be more active in Iraq. They----
    Senator Cardin. With most of those countries disagreeing 
with our military policy.
    Ambassador Crocker. Well, the United Nations will be 
looking to us, and our military, in particular, to help 
facilitate their security, which we're already doing, and to 
help ensure the safety of their movements. So, not only is 
there not an aversion to us, as the military--the primary 
military force on the ground, there is the hope and expectation 
that we will use those security assets to assist an 
international mission.
    The Chairman. Thank you, Senator.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    I want to begin, as almost all of my colleagues have, by 
thanking you both for your very dedicated, very impressive, 
very courageous public service. And I would like to take this 
opportunity to salute the courage of all of our men and women 
in uniform, and, indeed, all of our citizens serving in Iraq, 
including those out of uniform as well. This may sound 
predictable or trite, but, given our current political 
environment, and given that today is 9/11, I think it's 
important that we all recognize the service of our men and 
women in uniform, and how important it is to our Nation's 
security. I really hope all of us join together on the Senate 
floor and pass an amendment, that's on the Senate floor now, 
specifically decrying the MoveOn.org personal attack against 
you, General Petraeus. I hope we all join in doing that.
    At this point of the hearing, it is difficult to ask an 
original question, but I think I may have one for you. I 
haven't heard it asked during this discussion, or all month. 
General Petraeus, you have said several times, and I believe 
correctly, that we do not want to rush to failure. I certainly 
agree with that. What gives you complete confidence that even 
the redeployment you have mapped out over the next several 
months might not, in retrospect, be rushing to failure, given 
that it is a somewhat earlier end to the surge than previously 
suggested?
    General Petraeus. Well, again, there have been 
developments, both on the ground in local areas and with Iraqi 
security forces. With respect to the local developments--again, 
I don't want to replay Anbar province yet again, but, I mean--
--
    Senator Vitter. Well, if I could, let me put the question 
to you in a different way.
    General Petraeus. Sure.
    Senator Vitter. Our time in Iraq has, so far, been 
characterized by two fairly consistant factors. The first is an 
unstable and unpredictable security environment, which has 
resulted in large up-and-down swings in violence and perceived 
success and failure on the ground. The second, at least until 
the surge in troops was fully implemented, is that we have had 
fewer troops on the ground, in retrospect, than necessary for 
the mission at hand. So, let me ask it this way: Why not have 
more of a cushion against a backslide into instability and 
greater violence because of too few troops and delay 
redeployment rather than ending the surge earlier than 
absolutely necessary?
    General Petraeus. Again, the reasons for the timing and the 
locations have to do with the so-called battlefield geometry 
and the other considerations that I laid out, including, again, 
a keen sense of awareness of the strain that this has put on 
our ground forces, in particular, and their families, and those 
of other high-demand, low-density assets, as they're called.
    Our sense--General Odierno, myself, other commanders--is 
that we can do what we have recommended doing, based on, again, 
the progress that's been achieved in these various areas where 
we expect to thin down, to redo the--again, the tactical 
geometry, in this case, and the developments of Iraqi security 
forces in those areas.
    And, again, it may be that the unit is not an ORA-1, or 
maybe even ORA-2, because of some kinds of shortages of 
equipment or leaders, in particular. Iraq just can't find more 
leaders. There's not--they're not sitting on the shelf out 
there, that you can just draw on and put into battalion command 
or other positions. So, there are going to be units that may 
not be at the level we'd like them to be at. However, they may 
still end up being capable of doing what is needed to be done 
in that area, particularly, again, when you can get the level 
of violence down, and the level of local support up.
    It's just a lot easier to be a cop on the beat now in 
Ramadi or Fallujah than it has been at any time since 
liberation, because the locals support them.
    Yes; it is--that is a political development, but our forces 
then enabled, and took advantage of, along with Iraqi forces, 
that opportunity. So, the opportunity finally presented itself, 
and we made the most of it, I believe, together with our Iraqi 
counterparts. And now, the national government has tried to 
support that, and reinforce it, by making these individuals 
part of these national ministries, paying their salaries, 
providing equipment, and so forth--never enough, always want 
more, logistical systems are inadequate, and so forth--but 
that's all coming along, and you can see your way forward----
    Senator Vitter. General, let me ask you this----
    General Petraeus [continuing]. In that regard
    Senator Vitter [continuing]. Because I think it's related. 
On page 6 of your testimony, you say ``long-term U.S. ground-
force viability will benefit from force reductions as the surge 
runs its course.'' What exactly do you mean by that?
    General Petraeus. Well, again, that is taking into account, 
again, a very keen awareness of the strain that we have put on 
the Marines and the Army, in particular. We've asked an 
extraordinary amount of them. Were we to have continued the 
surge beyond, really, what is programmed right now, would have 
required extraordinary measures, and we've got to help the Army 
and the Marine Corps, the--our military at large--sort of, 
reconstitute some of its forces to get longer dwell time. 
Again, as I mentioned, I'm pretty personally aware of the 
strain that this does put on our families. I was also in an 
assignment with the Army before this, where we oversaw some 18 
different schools and centers, and I got to see lieutenant--
really, captains, more importantly, and midgrade NCOs, who have 
served one, two tours, and have the prospect of going back. So, 
again, there's an awareness of that, that I think is very 
important. And it's also important, if you do see that you're 
going to be engaged in Iraq, albeit at a much-less level, you 
do have to have the assets to do that, over time, as well.
    Senator Vitter. Mr. Ambassador, are there lessons from the 
bottom-up regional-based, province-based reconciliation 
progress that are applicable to the central government?
    Ambassador Crocker. I think there are.
    Senator Vitter. What are they? And how do we get the 
central government to learn them and act on them?
    Ambassador Crocker. Well, the----
    The Chairman. Ambassador, if you can make it brief, you 
have two more folks, and I know you have to leave, so--it's up 
to you, but----
    Ambassador Crocker. Yes, sir; I'll be brief.
    The most important lesson is the one that the central 
government is already demonstrating it has picked up, and that 
is recognizing, supporting, and reaching out to political--
positive political change when it occurs at the grassroots 
level. That's what they've done in Anbar, that's what they're 
doing in Diyala, that's what they've done closer to Baghdad, 
just to the west, and that is what I--that is--probably the 
single most important lesson from this is being sure that 
provincial development and central government are linked.
    Senator Vitter. Thank you.
    The Chairman. Thank you.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    General Petraeus and Ambassador Crocker, we appreciate your 
presence here, and we appreciate your extraordinary service to 
the country. I want to say, personally, when Senator Durbin and 
I were in Baghdad, I appreciated the time you spent with us 
there and the information you provided.
    General, I'll start with you, and direct your attention to 
the overall question of Iraqi security forces and the training 
of those forces. I just have a couple of questions along those 
lines.
    First of all, General, it's true, isn't it, that you were 
the commander of the training mission in Iraq from October 2004 
to September 2005--or through September 2005?
    General Petraeus. It was from June 2004 to early September 
2005.
    Senator Casey. Through early September 2005.
    General Petraeus. Right.
    Senator Casey. And you'd agree with me, wouldn't you, that, 
in terms of that assignment, that you had to learn a great deal 
about the training mission and the importance of that, is that 
correct?
    General Petraeus. Certainly. Absolutely.
    Senator Casey. And I'm looking at an excerpt here from the 
National Intelligence Estimate from just recently, where they 
say, in part, and I'm quoting, ``We''--meaning those 16 
intelligence agencies--``We judge that the Iraqi security 
forces have not improved enough to conduct major operations 
independent of the coalition on a sustained basis in multiple 
locations, and that the ISF remain reliant on the coalition for 
important aspects of logistics and combat support.''
    Just in light of the National Intelligence Estimate, that 
particular part of it, do you have any reason to refute that, 
or do you have any evidence to suggest that that particular 
assertion is false?
    General Petraeus. No; I think that's correct. As I 
mentioned earlier, Senator, we've had a number of experiences 
where we have, indeed, seen that it is one thing to train 
infantrymen, or even battalions of infantrymen, even brigades; 
it is yet--and much, much more--to help an institution be 
reestablished, to help, literally, to rebuild depot systems, 
logistical structures, to--you know, in--candidly, in the early 
fall of 2004, there were--there was no doctrine, there were no 
manuals, there was not even a parts system at all, there was--
there were--in fact, there was no depot, either; there were 
also no parts. But, again, the magnitude of reestablishing the 
institutional underpinnings of the Iraqi Army and the other 
military services, and of the Iraqi police services, has been 
an enormous task, and enormously challenging, particularly 
because, as I mentioned earlier, it really took steps backward 
during the ethnosectarian violence, the height of that, in 
2006, where units of the national police, in particular, were 
really hijacked by sectarian interests. And that is something 
that Iraq is still dealing with today, despite the Minister of 
Interior having replaced national police commander, two 
division--both division commanders, all the brigade commanders, 
and 17 or 27 battalion commanders, and they still have work to 
be done.
    Senator Casey. And I'd ask you, also, with regard to the 
report on the Independent Commission on the Security Forces of 
Iraq, the so-called Jones Report, which, of course, was an 
independent report put together by distinguished individuals in 
the military and law enforcement. One of their conclusions was 
that the Iraqi security forces--or the--yeah, the Iraqi 
security forces would continue to rely upon coalition forces 
for key enablers, such as combat support, combat support 
service, and supply-chain management and training, and, because 
of that, they say they will not be ready to independently 
fulfill their security role in the next 12 to 18 months.
    Also, in the GAO report, not only do they make the finding 
that the measure of increasing the number of Iraqi security 
forces--security-force units capable of operating 
independently, but that benchmark was not met. They also 
mention, in the GAO report, that we've spent $19.2 billion to 
train and equip Iraqi security forces.
    I think you know that--where I'm headed, in terms of those 
particular reports.
    And, finally, with regard to data--and I'm holding up your 
Iraqi Security Force Capabilities chart. And, of course, when 
we're talking about the levels, just so those who are listening 
understand what we're talking about, you referred, earlier, to 
Operational Readiness Assessment ratings, levels 1 through 4, 
level 1 being the highest level of readiness. And, as you can 
see, and as the chart--your chart--clearly indicates, the green 
section, meaning the level-1 readiness, that they can 
independently take on the enemy, has increased virtually not at 
all since--in the last year and a half, so to speak, April 2006 
until the present.
    I say all that, and I point to all that, because, when you 
see that data and those reports, two of which are put together 
by, I think, clearly and unambiguously, independent sources, 
and then you juxtapose that data about their security forces 
not being ready, not being prepared at level-1 readiness, which 
has to be our goal, and then I compare that, or juxtapose that, 
to some of your statements. You said, yesterday in your 
testimony, that, ``We have challenges ahead. The coalition and 
Iraqi security forces have made progress toward achieving 
sustainable security.'' In October 2005, you talked about 
``enormous progress'' with Iraqi security forces. September 
2004, you asserted that, ``We have--we've seen''--or, you said, 
``I see,'' in your case, ``tangible progress for the Iraqi 
security forces.''
    And I'd just ask you, when you look at both of those, your 
testimony and your references to progress at different points 
in time, and the reality of what's not happening with regard to 
Iraqi security forces, I think you can understand--and I'd ask 
you to comment on this----
    General Petraeus. Sure.
    Senator Casey [continuing]. Not just the general 
frustration that we feel, but, frankly, some of the skepticism 
we feel about your assertions in the past, your assertions 
here, as it compares to what the reality is on that particular 
question of the Iraqi security forces.
    General Petraeus. Well, actually, I appreciate the 
opportunity to address that, Senator.
    I really don't think that saying that one sees tangible 
progress is an extraordinary statement. I did see tangible 
progress. Iraq had gone from zero battalions, in May or so, to, 
I think, at that point in time, a modest number of eight or 
nine. That's tangible progress. We were reestablishing a whole 
variety of different structures. They were training. I mean, it 
was--that's what it was. And if you read the rest of the op-ed, 
there's also qualifications. It talks about challenges, it 
likens, I think, the effort to, you know, building the world's 
biggest aircraft while in flight and while being shot at, at 
the same time.
    I think it's very important--and I've tried to mention this 
earlier--not to get too hung up on ORA-1 or ORA-2. Those are 
readiness assessments that we established, actually, a couple 
of years ago, I think, and it has to do with, you know: Do they 
have a certain percentage of the people they're supposed to 
have, the leaders, the equipment, and a variety of other 
assessments?
    Senator Casey. Let me just----
    General Petraeus. That doesn't----
    Senator Casey [continuing]. Interrupt you one----
    General Petraeus [continuing]. Doesn't mean----
    Senator Casey. That still has to be the goal, though. 
Doesn't level 1 have to be the----
    General Petraeus. Well, certainly. As I said in my long 
statement, we take that very seriously, and we want to fix all 
those shortcomings. But the fact is that I don't know that 
they're going to be able to fix some of the shortcomings in the 
number of noncommissioned officers, in particular, or number of 
officers. It just takes time to develop them. And, let's 
remember, they've taken serious losses. And I would state, 
again, that one big difference between October 2005, or 
whenever it was that I had some optimism--and, actually, my 
words, already, even at that time, if you look at any briefing 
to your colleagues, was ``qualified optimist.'' And I've 
dropped even ``optimist,'' at this point, and just say 
``realist.'' But the point really is that a unit may not have 
all the NCOs it had--it's supposed to have. It may not reach 
the level for ORA-1, where it's supposed to have--to do 
independent operations. It still may do independent operations. 
And that is the case in a number of different areas. And it 
depends a great deal, actually, on the local conditions. If we 
can get the local conditions to a better state, as, say, is the 
case in--say, in Nasariyah or Anbar, even, or some of the other 
areas, then all of a sudden they can actually do reasonably 
well. Even without having, sort of, met these criteria, they're 
actually doing it. In fact, we have some other criteria that 
just asks the assessment of: Can they do independent 
operations?--just judgment--as opposed to: Do they have all the 
equipment? You know, every time they lose a piece of equipment 
in combat, which happens fairly frequently, it's--until they 
can get their logistical structures set up, it's just going to 
drive them down that readiness. And I put the slide in there to 
be up front, to show, in fact, that they did go backward in 
some areas between last year, because of the sectarian violence 
and the tough fighting.
    So, I think, again, we don't want to get too fixated on 
these ORAs. They're important indicators. We need to try to 
help them, everywhere we can, to get those levels up, just as 
we would with our own units. But it doesn't mean that they 
cannot be conducting, actually, independent operations because 
they're ORA-2 instead of ORA-1, if that makes sense to you.
    Senator Casey. I know I'm out of time.
    The Chairman. Thank you very much, Senator.
    Senator Casey. Thank you.
    The Chairman. Senator Webb, God love you, as my mother 
would say.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I know you have had a long day, and have got a 
long day ahead of you. And, actually, I do, too, because I'm on 
Armed Services Committee, as well. So, regard me as a 
transitional interrogator, here. As soon as I'm done, I'm going 
to step over there, where Senator Vitter was, and await your 
return.
    I have three observations that I would like to make, just a 
result of the give-and-take on the hearings, and then a 
question for you, General Petraeus.
    The first observation I'd like to make is: I think that you 
understand, both of you--and I hope most people understand--
that one of the reasons we're struggling so hard with this is 
that there are a large number of people in this country who had 
national-security experience, who believed that this war was a 
horrendous strategic blunder. I mean, people like General 
Scowcroft and General Zinni and General Hoar, who both 
commanded CENTCOM. And so, we're trying to find a way to work 
the United States out of this situation without further 
destabilizing the region. And, I know, Ambassador Crocker, when 
you were talking of the consequences of failure, there were 
many of us who were pointing out that those were actually going 
to be the consequences of an invasion, if we invaded. And so, 
that's the conundrum that we're in, here, that so much of this 
discussion is based on.
    The second observation would be--I would have to associate 
myself with something that Senator Obama said when he was 
talking about all of the events that have occurred in Al Anbar 
province. And I think you should be careful about how much of 
that you actually attribute to the surge. I say that from some 
personal perspective of my own--my son fought as an infantry 
marine in the worst sections of Ramadi for the last 4 months of 
last year and the first 5 months of this year. Actually, it was 
extended as a result of the surge. But the last 4 months of 
2006 were pretty tough months for the 1st Battalion 6th 
Marines, and they have been given a great deal of credit for 
the turnaround there, just as a point of observation.
    The third is that I was watching, and reading about, the 
hearings yesterday, something did return to my mind, and that 
was the hearings of 2002. Watching government witnesses during 
those hearings was one of the reasons I decided to eventually 
get into elective politics, because, when the questions were 
being asked of them in those hearings--over a period of a year, 
not just the hearings leading up to the vote on going to war--
the question was always: How long are we going to be in Iraq? 
And the answer was always a litany; it was, ``As long as is 
necessary, and not one day more.'' I would venture that I heard 
that said 50 times, watching different hearings. And we're 
looking for some specificity. That is the point.
    And the other thing that occurred to me, reading, this 
morning, the results of that, was a statement that General 
Eisenhower made in 1952, when he was deciding to run for 
President, talking about the fact that the Korean war had gone 
on for 2 years and needed to be resolved. And he said, ``When 
the enemy struck, what did America do? It did what it has 
always done in times of peril, it appealed to the heroism of 
its youth. The answer to that appeal has been what any American 
knew it would be, it has been sheer valor, fresh scars, new 
graves. Now, in this anxious autumn from these heroic men there 
comes back an answering appeal. It is no whine, no whimpering 
plea. It is a question that addresses itself to simple reason. 
It asks: Where do we go from here? When comes the end? Is there 
an end?'' And Eisenhower said, ``The first task is to bring the 
Korean war to an early and honorable end.'' An early and 
honorable end.
    And when I look at all of this debate about the surge, the 
first thing I would say is, this is not a strategy--it was not 
a change in strategy, in my view, in any sense of the word, 
unless we were able to put into a strong diplomatic effort. And 
what you're calling reconciliation, Ambassador Crocker, you've 
spent your entire life in that region; I have enormous respect 
for what you've done--I don't see reconciliation, I see, maybe, 
an attempt at conciliation, somehow to bring Iraq together. But 
without those this is simply a tactical adjustment. And the one 
inarguable result of this--the surge policy has been the 
disruption of the rotational cycles of deployment for our 
soldiers and our marines. On the one hand, we had the viewpoint 
of General Casey, that fewer Americans on the streets of Iraq's 
cities would require the Iraqis to take greater responsibility 
for their own future.
    We had Admiral Fallon testifying before the Armed Services 
Committee in his confirmation hearing, essentially saying the 
same thing, that it wasn't the number of troops, it was the 
missions that they were being assigned. On the other, we have 
this policy, which has resulted in extended tours, 15-month 
deployments for soldiers, with only 12 months at home, and a 
situation that I personally--and, looking at data, also--have 
come to believe is very perilous to the well-being of the 
Volunteer Army, it's system, the volunteer military system, and 
to the well-being of these people, just the plain well-being of 
these people. And we are the stewards of these people. Our 
traditional policy, from the time that I was in the Marine 
Corps, was ``two for one.'' If you're gone a year, you're back 
2 years. If you're gone 6 months, you're back a year. The 
British, in Iraq, had a policy of ``four to one.'' Six-month 
deployment, two years back. The policy right now, particularly 
on the Army side, is ``three-quarters to one.''
    General Petraeus, what is your view of that policy, that 
dwell-time policy?
    General Petraeus. Senator, my view is that I obviously 
would like to see our soldiers and our marines and other--all 
forces--have more time with their families between deployments. 
It's one reason that, on the record in that confirmation 
hearing, I believe I stated that our ground forces, in fact, 
because of the strain and so forth, needed to be larger.
    In this mission, though, I am the Multinational Force-Iraq 
Commander, and what I've been charged to do, and I think what 
all of you want me to do, or what Americans should want a 
commander on the ground to do, is the best he can to accomplish 
the military tasks associated with the policy that has, in 
fact--from which that mission is derived.
    Senator Webb. So, what is your view of a one-to-one floor 
for troops?
    General Petraeus. Senator, again, just as a general 
proposition, the more time that our soldiers can have at home 
with their families, obviously, is the better. And, as I 
mentioned, I, also, am acquainted with that, personally, and 
I'm also very keenly aware of the stress and strain that this 
has put on our ground forces, in particular, and, as I said, 
some of the other high-demand, low-density assets.
    Senator Webb. Here's the difficulty that I have. And it's 
the reason that I put this amendment into the system. When the 
Army went to 15 months, General Casey, as Chief of Staff, 
called me to inform me, and I said, ``How can you do this? How 
can you cause people to serve 15-month deployments with the 
supposed good news that they're going to get 12 months at home? 
It just violates everything that I've ever heard about, from 
the day I was born, being around the United States military.'' 
He said, ``We feed the strategy. They tell us the number of 
people that they need, and we feed the strategy.'' And then, 
from the strategic side, it's, ``We build the strategy, and 
they feed us the troops.'' And somewhere in here, in my view, 
there has to be the notion that, after 4\1/2\ years in Iraq, we 
need to be shaping the operational environment to the well-
being--on a floor for our troops.
    General Petraeus. Senator, that is--as I mentioned, that is 
something that very much informed my recommendation. In fact, 
as I mentioned, several of the brigades will, in fact, come out 
before the 15-month mark because of the way that we will be 
withdrawing brigades without replacement. And the strain on the 
force, again, was very much one that informed the 
recommendations that I have made, and it will inform the 
recommendations that I made for the point beyond--which we've 
already made recommendations on.
    Senator Webb. Well, my time is up, Mr. Chairman. I may want 
to revisit this a little bit in the next hearing.
    Thank you.
    The Chairman. Senator, I hope you do.
    Gentlemen, I appreciate your testimony, and I think it's 
long past time we level with the American people.
    You know, General, you talk about the ORA, whether it's 1 
or 2. That doesn't mean anything to the American people. What 
they want to know is what they were promised, and that is, when 
an Iraqi force can be able to supplant an American force. And, 
with all due respect to both of you--you're not setting the 
overall strategic doctrine here--I don't see anything that 
leads to an early and honorable end to this war. The truth is, 
we're going to be down to prewar level--presurge levels next 
summer. And the truth is, if you listened to all the testimony, 
it's going to be at least a year after that before you're going 
to have Iraqi troops, at a minimum, be able to replace American 
troops. You're talking about American troops being there in the 
numbers like they're in now, 130,000, for a couple more years, 
if you level with the American people. And there is no clear 
political plan the administration is pushing--none whatsoever.
    In my conversation with my chairman, here, Senator Lugar, 
and others, the idea that we have a generic plan, other than 
``stand up the Iraqis'' and ``bring together the folks in 
Baghdad for a government that is not engaging in a competition 
for power among ethnoreligious groups'' is--I don't see any of 
it, and I think the obligation we have is to bring this to an 
early and honorable end. And I don't see--I respect you both 
very much. You've given great tactical judgments here about 
what's going on. But I don't see any plan, in terms of leveling 
with the American people, where you're going to--we're going to 
be able to tell them their kids are coming home, being able to 
be replaced, either because you have a unity government in 
Baghdad and/or--and the end of sectarian violence or Iraqis who 
can take over for all the American forces there.
    But you have a long day. You've had a long day. I look 
forward to being able to continue to talk with you fellows. I 
wish you luck in the next hearing. And, God love you, I don't 
know how your physical constitution is going to handle this, 
going straight through. I hope you get a few minutes to get--
someone bought you a sandwich or something.
    So, thank you both for your testimony.
    We're adjourned.
    [Whereupon, at 1:55 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                     Record by Senator Joseph Biden

    Question. On September 15, the International Organization for 
Migration estimated that roughly 1.06 million Iraqis had been 
internally displaced since February 2006. On July 31, the Iraqi Red 
Crescent put the number at more than 1.12 million displaced since 
February 2006 and reported that ``the number of displaced people is 
increasing at a rate of 80,000-100,000 each month,'' up from about 
40,000 a month between February and December 2006.

  <bullet> What is the Department of State's best estimate as to the 
        rate at which Iraqis are being displaced from their homes?

    Answer. The Department of State does not have an independent 
estimate of the number of internally displaced Iraqis. Official 
statistics on Internally Displaced Persons (IDPs) are maintained by the 
Iraq Ministry of Displacement and Migration (MODM). As of September 
2007, the MODM, based on information developed with the United Nations 
High Commission on Refugees (UNHCR), International Organization for 
Migration (IOM) and its partners, estimates that an average of 60,000 
individuals per month are being displaced from their homes.
    Increases in registrations of displaced persons are caused by:

  <bullet> First-time newly displaced individuals;
  <bullet> New registrations from past displacements (post-February 
        2006);
  <bullet> Old case (pre-February 2006) registrations;
  <bullet> Increased capabilities to register IDPs by the Iraqi 
        Government; and
  <bullet> Secondary or tertiary displacements.

    Question. How many Iraqis do you estimate have been displaced 
within Iraq (as internally displaced persons) since February 2006?

    Answer. The International Organization for Migration, drawing on 
figures from the Iraqi Ministry of Displacement and Migration, 
estimates that approximately 1.1 million Iraqis have been internally 
displaced since February 2006.

    Question. How many Iraqis do you estimate have fled outside of 
Iraq, as refugees, since February 2006?

    Answer. UNHCR estimates that 1.4 million Iraqi refugees are in 
Syria and Jordan, the two primary countries of refuge for Iraqis, with 
smaller numbers in Egypt and other countries. Until recently, Syria and 
Jordan were issuing entry permits at their borders to Iraqis and were 
not tracking these permits. Therefore, there is no accurate data on the 
number of Iraqis who have entered Syria and Jordan and remained there 
after the expiration of their permits. During most of 2006, UNHCR was 
reporting that as many as 2,000 Iraqis per day had been entering Syria 
and 1,000 had been entering Jordan, but those estimates do not account 
for returns of businesspeople, tourists, etc. In early 2007, Jordan 
effectively closed its land border to Iraqis and Syria has announced 
plans to begin imposing a visa requirement on Iraqis as of October 15.

    Question. What is the Embassy doing to provide assistance to 
internally displaced persons within Iraq?

    Answer. The U.S. Agency for International Development's Office of 
Foreign Disaster Assistance (USAID/OFDA) is the lead agency on issues 
related to internally displaced persons (IDPs) in Iraq. Focusing 
largely on post-February 2006 IDPs, USAID/OFDA assisted approximately 
550,000 Iraqi beneficiaries in FY 2007, which included IDPs and host 
community citizens and families. OFDA funds activities through five NGO 
and international organization partners to implement a program that 
spans all of Iraq's 18 governorates in the following sectors:

  <bullet> Health;
  <bullet> Water and Sanitation;
  <bullet> Nonfood Relief Item Distribution;
  <bullet> Temporary Shelter Improvements;
  <bullet> Income Generation;
  <bullet> Host Community Support; and
  <bullet> IDP Data Collection and Analysis.

    Some projects are multisectoral. A typical example would include 
expanding a school and upgrading its water and sanitation facilities to 
accommodate IDP children, while simultaneously providing jobs for IDPs 
with the work involved and supporting the host community through the 
school improvements.

    Question. To what extent are Iraq's ethnic and religious minority 
communities (i.e, Assyrians, Chaldeans, Mandeans, Sabeans, Shabaks, 
Turkmen, Yazidis) impacted by these population movements?

    Answer. Reporting from the International Organization for Migration 
(IOM) and statistics gathered by the Office of the U.N. High 
Commissioner on Refugees (UNHCR) in Jordan and Syria indicate that the 
makeup of the externally and internally displaced Iraqi population is 
in rough proportion to the overall population in Iraq. Therefore, 
minority communities are also being displaced, with many moving north 
to Ninawa province and the Kurdish region.

    Question. What steps is the Embassy taking to ensure the safety of 
its current or former Iraqi Foreign Service nationals, and that of 
their families?

    Answer. Ensuring the safety of Iraqi Foreign Service national (FSN) 
employees and their families is a top priority for the Department of 
State and a matter of urgency, which the Embassy has taken immediate 
steps to address. The Department has developed processes to allow 
Iraqis at risk of violence owing to their association with the United 
States Government to be considered for admission to the United States 
as refugees on a priority basis. Our Embassy in Baghdad is making 
referrals to the U.S. refugee program, and the direct access program 
established in Jordan allows employees of the U.S. Mission in Iraq and 
employees of other U.S. entities to proceed directly to prescreening 
for resettlement in the United States.
    Under existing law, Iraqi translators/interpreters working with the 
U.S. military or under Chief of Mission authority also have access to a 
special immigrant visa (SIV) program that provides an opportunity to 
emigrate to the United States with their immediate family. The Embassy 
has established a Special Immigrant Visas (SIV) Review Committee and 
has procedures in place to assist in processing SIV applications. The 
administration has put forth legislation that, if passed, would allow 
the Department discretion to lower the minimum years of service for all 
FSNs serving in extraordinary conditions, such as our Iraqi employees, 
to become eligible for SIV consideration.

    Question. How many of its current or former Iraqi Foreign Service 
nationals does the Embassy estimate have been displaced either within 
Iraq?

    Answer. The Embassy does not track the location of Iraqi locally 
employed staff after they have departed the mission unless they seek 
admission to the U.S. Refugee Admissions Program. To date, the Refugee 
Coordinator at Embassy Baghdad has referred 67 cases of Iraqis who have 
worked with the USG to the U.S. Refugee Admissions Program (USRAP) for 
consideration of resettlement in the United States; these 67 former 
employees would be considered externally displaced. In addition, 36 
Iraqi employees have resigned due to security concerns; however, we do 
not have a way to determine how many of them have left the country or 
relocated within Iraq.

    Question. How many State Department Iraqi Foreign Service nationals 
have been referred to the United Nations High Commissioner for Refugees 
for resettlement to the United States and what efforts, if any, has the 
Embassy made on their behalf?

    Answer. USG-affiliated Iraqis, including Foreign Service nationals 
who have worked for the Department of State in Iraq, are being referred 
for resettlement consideration to the U.S. Refugee Admissions Program 
(USRAP) by UNHCR, our embassies in the region (including Embassy 
Baghdad), and the Department of State. Some 530 individuals in this 
category have been referred by embassies or the Department of State 
during 2007, and UNHCR has referred an additional few hundred Iraqis 
with links to the United States.

    Question. To what extent does ethnic cleansing account for the 
diminution in the level of sectarian violence in Iraq, especially in 
Baghdad?

    Answer. Many of Iraq's provinces, and Baghdad in particular, have 
seen a decrease in sectarian violence since the beginning of Operation 
Fardh al-Qanoon and the surge in U.S. forces. A number of factors are 
at work, in our view. There are fewer mixed neighborhoods in Baghdad as 
the city becomes increasingly segregated. Moqtada al-Sadr has ordered 
the Jaysh al-Mandi to stand down. Some Sunni groups formerly involved 
in sectarian violence have begun cooperating with us. But there are no 
data to determine the specific impact of increasing segregation on the 
diminution of sectarian violence.

    Question. On August 14 a series of coordinated attacks devastated 
Qahtaniya and other nearby Yazidi villages in northern Iraq, killing 
more than 500 civilians according to some accounts. This atrocity is 
the worst example of the tremendous stress facing Iraq's ethnic and 
religious minorities.

  <bullet> What is the Embassy doing to provide humanitarian assistance 
        for the victims of the August 14 bombings?

    Answer. The Provincial Reconstruction Team (PRT) in Ninawa worked 
with USAID's implementing partners to assist affected Yezidi villages. 
Following the August 14 attacks, coalition forces worked with the Iraqi 
Government and Kurdistan Regional Government, the Iraqi Army, and local 
and provincial governments to provide relief to the villages. PRT 
Ninawa and USAID implementing partners are continuing to work with 
local governments to strengthen their capacity to rebuild and respond 
to disasters. In subsequent meetings with Yezidi leaders, PRT Ninawa 
was informed that the immediate needs of the two villages had been met. 
PRT Ninawa, USAID and coalition forces continue to address medium- to 
long-term needs.

    Question. What is the Embassy doing to protect Iraq's fragile 
ethnic and minority groups (such as Yazidis, Assyrians, Chaldeans, 
Mandeans, Sabeans Shabaks, Turkmen, etc.) from terrorist and sectarian 
attacks, ethnic cleansing physical intimidation, and economic 
dislocation?

    Answer. Embassy officials meet regularly with representatives of 
Iraq's ethnic and minority groups and raise their concerns with the 
appropriate Iraqi Government officials, including the Minister of Human 
Rights. The Provincial Reconstruction Teams (PRTs) in Ninawa, Kirkuk, 
and Arbil--provinces with large minority communities--also meet often 
with representatives from ethnic and other minority groups and work to 
ensure that their concerns are heard at the provincial government 
level.
    The position of these groups in Iraq will become more secure as 
they develop the capability to advocate on their own behalf and 
participate actively in the political system. U.S. Government-sponsored 
programs offer assistance to individuals and groups (from the 
government and civil society) that request such assistance in areas 
such as conflict resolution, political party development, human rights, 
and women's advocacy. However, these programs are not conducted for 
specific minority groups based on ethnic affiliation.
    The Embassy and PRTs, together with coalition forces, are working 
at the national and provincial level to help the Iraqi Government 
provide the necessary protection and safety for all its citizens, 
including minority communities.

    Question. What is the Embassy doing to ensure that these ethnic and 
minority groups benefit from U.S. reconstruction assistance, 
particularly in the Ninawa governorate?

    Answer. Since our goal is to foster a single national identity in 
Iraq that crosses Iraq's diverse political and cultural landscape, we 
do not earmark or track funds based on religious or ethnic identity. 
Rather, USG assistance is based on needs. Minority communities in need 
in Iraq benefit from various USG assistance projects, including the 
following: The Iraq Community Action Program, which works with 
underserved communities to form grassroots groups that develop 
community-driven projects; humanitarian programs aimed at improving the 
quality of child health services in Ninawa; humanitarian programs in 
Ninawa designed to fill gaps in emergency assistance; and nonfood 
assistance in 15 of 18 provinces in Iraq. According to February 2007 
information from the Ninawa Provincial Reconstruction Team, from 2004-
2007 approximately $31.3 million in USG funds were allocated to two 
districts in the Ninevah Plains (al-Hamdaniya and Tel Kaif) with 
majority Christian populations.
    Additionally, the Government of Iraq and provincial governments 
have become more effective at allocating and spending their own capital 
budgets. The Ninawa province has been allocated approximately $226 
million by the central government for capital projects in 2007. 
Provincial allocations were based on population density, which helps to 
ensure they are distributed in an equitable manner. Provincial 
reconstruction teams are working closely with the Ninawa province to 
provide technical assistance and capacity in committing these 
Government of Iraq resources for reconstruction and delivery of 
essential services.

    Question. Some Iraqi parliamentarians have called for the creation 
of an autonomous region in the Ninevah Plains, home to a 
disproportionate number of Iraqi minorities, including Assyrians, 
Turkmen, and Yazidis. What has been the reaction of the Maliki 
government to such proposals? What is the Embassy's position on the 
best way to provide physical and economic security for these fragile 
communities?

    Answer. Some Iraqi parliamentarians and local politicians in Ninawa 
have called for an autonomous region in Ninawa province, citing Article 
125 of the Iraqi Constitution. Iraqi citizens can pursue the creation 
of a separate administrative region through processes consistent with 
this article. The best way to provide physical and economic security 
for vulnerable Iraqis is to help build a democratic, stable, and 
prosperous Iraq with a security force that provides protection for all 
of Iraq's citizens.

    Question. The benchmarks report, released on September 14, says, 
``In the coming months, our strategy will increasingly focus on helping 
the Iraqis knit together this new `bottom up' progress with the `top 
down' political process.'' The interim benchmarks report referred to 
this process as ``latching up.''

  <bullet> Can you provide concrete examples of this ``latching up''?

    Answer. The best example of ``latching up'' is the central 
government's passing investment funds to the provinces so they can fund 
infrastructure and development projects. This has happened across the 
country and provides a ``latch-up'' necessary for effective governance. 
The sharing of oil revenues by the central government with the 
provinces in an equitable manner--despite the lack of a national oil 
revenue-sharing law--provides a similar example.
    A third example involves security, with the central government 
authorizing the integration of citizens involved in locally formed 
protection forces into the Iraqi Army and police forces.

    Question. Are there indicators we can look to in the months to come 
on how effective the ``latching up'' is?

    Answer. The political process of linking ``bottom up'' and ``top 
down'' accommodation efforts is complex and will take time. There are 
several areas in which such ``latching up'' can be observed.
    It will be important, for example, for the central government to 
continue providing timely and adequate budget support for all 
provinces, regardless of their political or demographic makeup. The 
same applies to an equitable sharing of oil revenues.
    On the security front, the continued growth of Iraqi security 
forces manned by representatives of all of Iraq's communities will 
likewise contribute to furtherance of ``bottom up'' progress.
    Economically, infrastructure investment and enhanced delivery of 
essential services among all of Iraq's communities will reflect 
increasing ``bottom up'' validation that all of these communities have 
a stake--and a future--in their country.
    The work of the National Reconciliation Commission is important and 
we will continue to encourage it to build on current efforts as well as 
identifying new means to foster political accommodations.
    Finally it will be important for senior ministry officials in 
Baghdad to continue their outreach to their provincial counterparts.

    Question. What impact have these local understandings had upon the 
national reconciliation efforts?

    Answer. The biggest impact of these local understandings has been 
to improve government effectiveness both in Baghdad and the provinces. 
Building trust between the center and the provinces helps bridge 
sectarian divides and sets the stage for accommodation on more 
difficult issues.
    When local conditions improve, as they have in Al Anbar, the 
relationship between local and national authorities changes. The Iraqi 
central government must act with local authorities to preserve and 
build on gains made at the local levels--to provide security, improved 
services, and infrastructure investment. Local citizens must come 
together to agree on their development needs and set priorities for 
discussions with the national authorities, and, in some areas, they are 
doing so. For example, the GOI has agreed to fund additional projects 
through Anbar's Provincial Council and Deputy Prime Minister Barham 
Salih represented the GOI at the second Anbar Forum, held in September. 
It is essential for Prime Minister Maliki's government and for all 
political leaders to maintain the momentum and demonstrate to Iraq's 
communities that an effective and responsive political process is at 
work. This is critically important for national reconciliation.

    Question. You said in your written testimony, ``There is a budding 
debate about federalism among Iraq's leaders and, importantly, within 
the Sunni community. Those living in places like Al Anbar and 
Salahuddin are beginning to realize how localities having more of a say 
in daily decisionmaking will empower their communities. No longer is an 
all-powerful Baghdad seen as the panacea to Iraq's problems. This 
thinking is nascent, but it is ultimately critical to the evolution of 
a common vision among Iraq's leaders.''

  <bullet> What can be done to support this process? Do you favor 
        letting this process play out on its own or are there specific 
        political, economic, and diplomatic steps we should take to 
        encourage Iraqis to implement federalism?

    Answer. The citizens of predominantly Sunni areas like Al Anbar, 
Salahuddin, and Diyala--along with their fellow Iraqis throughout the 
country--are learning how to direct their affairs and develop effective 
and responsive governance at the local and provincial levels. This is a 
new experience for them. We are assisting with programs aimed, for 
example, at developing local governance capacity, promoting civil 
society, and encouraging economic growth. Iraq's international partners 
have a role to play in this process, and encouraging their 
participation is a focus of our diplomacy.
    The exact nature of the federal system, and, in particular, how the 
provinces and regions will relate to the national government, is a 
matter for the Iraqi people to decide. The debate between proponents of 
a strong central government and those advocating a more decentralized 
federal system is a key theme in Iraqi political discourse. This is 
entirely fitting, as the question goes to the heart of the kind of 
state and nation Iraqis wish to build. In anticipation of the need to 
address this issue, the Iraqi Constitution defines how individual 
provinces can organize together to form single federal regions; it also 
recognizes the existence of the region of Kurdistan as a federal 
region. The Council of Representatives has passed implementing 
legislation that allows provinces to take steps to form additional 
federal regions after April 2008.
    Given the centrality of this question to Iraq's future, we believe 
it is best to allow the Iraqi Government and people to address it at 
their own pace and to agree among themselves what kind of compromises 
might be necessary along the way--as was the case in the early days of 
our own republic.

    Question. What are the factors, in your view, that are contributing 
to the debate on federalism within the Sunni community?

    Answer. Like other political actors in Iraq, the Sunni community 
has a strong and legitimate interest in the debate over federalism. It 
is important to note, however, that there are disagreements on this 
issue within the Sunni community, just as there are within the Shia 
community and to a lesser extent within the Kurdish community. While 
the Constitution envisions a federal system, we do not encourage a 
federal system based on ethnicity or religious sect.
    Sunni political parties generally favor a strong central 
government. For example, many Sunnis living in areas without 
hydrocarbon resources are keen to ensure that revenues from such 
resources are equitably shared from the center, whatever regional 
governments may eventually be established.
    Provincial politics also shape the debate. Because of the 
unfortunate Sunni boycott of the 2005 provincial elections, Sunnis are 
underrepresented in the provincial councils of four provinces. When 
fresh elections are held--in 2009 or before--the new councils will be 
in a position to discuss the issue with a stronger mandate than is now 
the case.

    Question. What role do you see for the international community--and 
particularly for Iraq's neighbors--both politically and economically in 
helping Iraqis resolve the debate over federalism?

    Answer. The debate over federalism is essentially an internal 
issue, best discussed by the Iraqi people and their political 
leadership. The most important contribution neighboring countries can 
make is to pursue policies that contribute to security and stability in 
Iraq and to assist the Government of Iraq to provide services to all 
its citizens.
    Neighboring countries should allow the debate over federalism to go 
forward peacefully and without interference. Under the terms of U.N. 
Security Council Resolution 1770, which extended and expanded UNAMI's 
mandate, the United Nations has a role to play in assisting the 
Government of Iraq, at its request, in advancing inclusive national 
dialogue and political reconciliation. If called upon, UNAMI would 
therefore be in a position to consider how best to use its good 
offices.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                        by Senator Joseph Biden

    Question. What is the Department of Defense's best estimate as to 
the rate at which Iraqis are being displaced from their homes?

    Answer. MNF-I does not specifically track the rate of Iraqis 
citizens being displaced from their homes, but does rely on our Embassy 
counterparts to provide us that information through the United States 
Agency for International Development (USAID), which serves as the lead 
for the mission in tracking internal displacement of persons within 
Iraq. USAID uses the estimated statistical data as provided by the 
United Nations High Commissioner for Refugees and the International 
Organization for Migration. The 16 July 2007 United Nations report 
(Cluster F report) listed the number of Iraqis who have been displaced 
from their homes at just above 60,000 individuals per month, but our 
leaders on the ground believe that rate has slowed considerably in 
recent months.

    Question. How many Iraqis do you estimate have been displaced 
within Iraq (as internally displaced persons) since February 2006?

    Answer. The United States Agency for International Development 
(USAID), which serves as the lead for the U.S. mission in tracking 
internally displaced persons, as well as the Iraqi Ministry of 
Displacement and Migration and the International Organization for 
Migration estimate that approximately 1.1 million Iraqis have been 
internally displaced since February 2006.

    Question. How many Iraqis do you estimate have fled outside of 
Iraq, as refugees, since February 2006?

    Answer. The United Nations High Commissioner for Refugees report of 
24 July 2007 highlights approximately 500,000 Iraqis that have fled 
Iraq and are now registered as refugees since February 2006. Other 
estimates I have seen run as high as 2 million.

    Question. What is the Multi-National Force-Iraq doing to provide 
assistance to internally displaced persons within Iraq?

    Answer. Multi-National Force-Iraq (MNF-I) works closely with our 
counterparts at the U.S. mission and the United States Agency for 
International Development (USAID), which serves as the coalition lead 
for tracking internally displaced persons within Iraq, to provide 
assistance to internally displaced persons within Iraq.
    On a daily basis, MNF-I subordinate units and Iraqi security force 
live among the people and patrol the neighborhoods and villages to 
protect the population from terrorist and extremist threats, they 
update the U.S. mission on displaced civilians that they encounter, and 
they provide humanitarian assistance when required. Our recent 
operations have also enhanced the security, and stability within 
communities by reducing sectarian and terrorist attacks, thus slowing 
the rate of displacement and creating the conditions for some, though 
not many, displaced Iraqis to return to their homes.

    Question. To what extent does ethnic cleansing account for the 
diminution in the level of sectarian violence in Iraq, especially in 
Baghdad?

    Answer. There is no doubt that the population displacement and the 
segregation of ethnic and sectarian groups that have occurred in 
Baghdad and throughout Iraq, while tragic, have contributed to the 
decreased levels of violence in some Baghdad neighborhoods and across 
Iraq. It is difficult to judge the causal weight of displacement and 
segregation on the decrease in violence. I believe the improved 
security situation is in larger part due to a combination of other 
factors, including the surge of operations that commenced in June, the 
increased presence of coalition forces and Iraqi security forces among 
the populace, the increasing capability of Iraqi security forces, and, 
most significantly, the increasing participation of local tribal 
leaders and concerned local citizens in providing security and 
rejecting extremists.

    Question. To what extent are Iraq's ethnic and religious minority 
communities (i.e., Assyrians, Chaldeans, Mandeans, Sabeans, Shabaks, 
Turkmen, Yazidis) impacted by these population movements?

    Answer. MNF-I does not specifically track the displacement of 
Iraq's ethnic and religious minority communities. We rely on our 
Embassy counterparts to provide us that information through the United 
States Agency for International Development (USAID), which serves as 
the lead for the U.S. mission in tracking internally displaced persons 
within Iraq.
    USAID indicates that the current breakdown of internally displaced 
persons in Iraq is as follows: 93 percent Arabs, 4 percent Assyrians, 1 
percent Kurds, 1 percent Turkmen, and 1 percent other remaining 
minorities.

    Question. What steps is the Department of Defense taking to ensure 
the safety of its current and former Iraqi foreign service nationals, 
and the safety of their families?

    Answer. MNF-I ensures Foreign Service nationals who believe they 
are at risk of violence due to their association with the United States 
Government have access to the U.S. Mission-Iraq's process, established 
by the Department of State, by which they can be considered for 
admission to the United States as refugees or immigrants. (I have 
personally signed dozens of letters for individuals in this process.) 
The Department of State has established a direct access program in 
Jordan that allows direct-hire employees of the U.S. mission in Iraq 
and interpreters/translators working for the United States Government 
or United States Government contractors to be considered for 
resettlement in the United States.
    The Embassy has also established a Special Immigrant Visas (SIV) 
Review Committee and has procedures in place to process SIV 
applications. The passage of Senate Resolution 1104 amended the 
National Defense Authorization Act for Fiscal Year 2005 by expanding 
the total number of Special Immigrant Visas (SIV) from 50 to 500 a year 
for FY07 and FY08. This amendment also broadened the category of 
eligible applicants to cover Iraqi and Afghan translators and 
interpreters who are under Chief of Mission (COM) authority. The 
administration has put forth legislation that, if passed, would allow 
any Iraqi employee under Chief of Mission authority to be eligible for 
consideration of an SIV.

    Question. How many of its current or former Iraqi Foreign Service 
nationals does the Department of Defense estimate have been displaced 
either within Iraq or outside of it?

    Answer. MNF-I does not specifically track the displacement of Iraqi 
Foreign Service nationals. We rely on our Embassy counterparts to 
provide us that information through the United States Agency for 
International Development (USAID), which serves as the lead for the 
U.S. mission in tracking displaced persons within Iraq.

    Question. How many Department of Defense Iraqi Foreign Service 
nationals have been referred to the United Nations High Commissioner 
for Refugees for resettlement to the United States and what efforts, if 
any, has the Embassy made on their behalf?

    Answer. MNF-I does not specifically track this number. Both the 
Office of the United Nations High Commissioner for Refugees and U.S. 
Embassies in Baghdad and the region refer Iraqi Foreign Service 
nationals directly to the U.S. Refugee Admissions Program for 
consideration of resettlement in the United States.

    Question. On August 14 a series of coordinated attacks devastated 
Qahtaniya and other nearby Yazidi villages in northern Iraq, killing 
more than 500 civilians according to some accounts. This atrocity is 
the worst example of the tremendous stress facing Iraq's ethnic and 
religious minorities. What is the Multi-National Force-Iraq doing to 
provide humanitarian assistance for the victims of the August 14 
bombings?

    Answer. In the wake of the devastating attacks on the Yazidis on 
August 14, a combination of the Government of Iraq and its provincial 
and local governments, the Kurdistan Regional Government, the Iraqi 
Army, nongovernmental organizations, coalition forces, and the Yazidis 
themselves fulfilled the immediate and short-term relief needs of the 
Yazidi villages in northern Iraq. The Iraqi leadership in particular 
responded quickly and effectively to the tragedy and provided immediate 
support to the Yazidis. The Iraqi Government, with some coalition 
assistance, provided the following humanitarian support: 3 pallets of 
medical supplies, 5,600 Halal meals, 50 tents, 500 blankets, and 17,000 
liters of water. Additional humanitarian supplies were available, but 
based on assessments from the Iraqi Government and international aid 
organizations, they were not needed.
    The coalition, through Multi-National Division-North, took on nine 
reconstruction projects: Five immediate projects (rubble removal, well 
repairs, and purchase of water trucks) that were completed within days 
of the attacks; two short-term projects to repair electrical lines; and 
two long-term road repair projects.

    Question. What is the Multi-National Force-Iraq doing to protect 
Iraq's fragile ethnic and minority groups (such as Yazidis, Assyrians, 
Chaldeans, Mandeans, Sabeans, Shabaks, Turkmen, etc.) from terrorist 
and sectarian attacks, ethnic cleansing, physical intimidation, and 
economic dislocation?

    Answer. The protection of all Iraqi citizens is of geat concern to 
the Government of Iraq and Multi-National Force-Iraq. On a daily basis, 
coalition forces work with Iraqi security forces to provide security, 
further increase the capabilities of Iraqi security forces, facilitate 
reconciliation, and promote nonsectarian behavior. Our forces also work 
with the U.S. mission and Provisional Reconstruction Teams (PRTs) to 
promote better Iraqi governance and to meet the basic needs of the 
population.

    Question. Can you provide concrete examples of this ``latching 
up''? Are there indicators we can look to in the months to come on how 
effective the ``latching up'' is?

    Answer. The concept of ``lashing up'' [``latching up''] refers to 
connecting the groundswell of support by local citizens in rejecting 
extremism to the broader process of Government-led national 
reconciliation. Across Iraq, tribal leaders and local citizens are 
expressing a desire to work with coalition and Iraqi security forces to 
protect their neighborhoods. The vast majority of these tribes and 
local citizens are Sunnis, many of whom previously did not support the 
Government of Iraq and the coalition, and some of whom actively fought 
against us. However, we are now seeing increasing numbers of Shia 
participating as well.
    At the local level, coalition forces are working with these 
concerned local citizens, often legitimizing them and solidifying their 
support through the use of security contracts, and Iraqi security 
forces have also now been directed by the Prime Minister to cooperate 
with these groups. MNF-I and the Government of Iraq are working to 
translate this participation into benefits for national reconciliation 
through two bodies: On the coalition side, the Force Strategic 
Engagement Cell, and on the Iraqi side, the Implementation and Follow-
up Committee for National Reconciliation. These bodies are working 
together to transfer the security contracts to the Government of Iraq 
and to absorb volunteers into the Iraqi security forces and other forms 
of governmental employment. In doing so, the Government of Iraq will 
solidify local support and also improve local security while tying the 
local initiatives to the central government.

    Question. What impact have these local understandings had upon the 
national reconciliation effort?

    Answer. To date, local security accommodations with former 
insurgents have been primarily against al-Qaeda-Iraq with coalition 
force units. By design, these accommodations have been security 
oriented, vice reconciliation oriented. There is no doubt that 
``Concerned Local Citizens'' have enhanced security for both coalition 
forces and Iraqi citizens, but this is not synonymous with 
reconciliation. The shared rejection of al-Qaeda-Iraq becomes a 
foundation upon which to build one bridge toward reconciliation. Also, 
the positive interaction between Sunni tribes and the Government of 
Iraq on the issue of security is working as a confidence building 
measure between these two previously mutually reticent parties. These 
local understandings therefore represent the first steps on that long 
road--as the Sunni community has begun to demonstrate to the Government 
of Iraq that they are prepared to reject foreign extremists, the 
Government has begun to soften its position toward them. However, much 
work obviously remains to be done.

    Question. Is the United States working with Shia tribes in southern 
Iraq against the Jaysh al-Mahdi?

    Answer. Several Shia tribal leaders, especially in the southern 
belts of Baghdad, are seeking cooperation with MNF-I to combat 
extremist militia influence. We are now working with them, although not 
as extensively as we have with the tribal structures in Anbar province 
and various Sunni areas. It is important to note that we are not 
working against Jaysh al-Mahdi (JAM) per se. We recognize the right of 
mainstream JAM to participate in the political process, and we welcome 
Moqtada Sadr's call for a cease-fire. We do not recognize the right of 
extremist JAM members or JAM Special Groups to use violence or commit 
criminal acts designed to intimidate, displace, or extort money from 
the local populace. The local populace is also rejecting these tactics, 
and we are seeing some indicators of growing disaffection with JAM's 
heavy handed presence in many areas where there is no AQI threat. We 
will continue to work with concerned local citizens, regardless of 
their affiliation, to combat extremists.

    Question. Is the United States providing assistance to the Badr 
Organization against the Jaysh al-Mahdi?

    Answer. The Badr Corps is an armed militia affiliated with the 
Islamic Supreme Council of Iraq (ISCI) whose historical raison d'etre 
was to oppose Saddam Hussein. As that reason no longer exists, the Badr 
Corps, while still existing in some places, has, for the most part, 
dissipated. Many members of the former Badr Corps have, in fact, joined 
the legitimate forces of Iraq under a CPA program designed to recruit 
former militia members for the ISF. The remnants of Badr Corps that do 
exist clash in particular with Jaysh al-Mahdi elements in the southern 
provinces. To the best of my knowledge, neither the United States nor 
any element of the coalition is providing assistance to the Badr 
Organization to confront the Jaysh al-Mahdi, or for any other purpose, 
though we do meet regularly with leaders of the Supreme Council (as we 
do with leaders of other parties) and do discuss security issues with 
them.

    Question. How entrenched in the Shia communities is the Jaysh al-
Mahdi vis-a-vis al-Qaeda in Iraq in Sunni community?

    Answer. Due to its populist themes, its affiliation with Office of 
the Martyr Sadr (OMS), and its long tradition in Iraq, Jaysh al-Mahdi 
(JAM) is deeply entrenched within some Shia communities, However, the 
rogue elements of JAM, especially its Special Groups and other elements 
receiving support from the Islamic Revolutionary Guard Corps-Quds 
Force, are not well-received by the majority of Shias. Recently, 
Moqtada al-Sadr issued an order backed by a pledge of honor to cease 
committing violent acts. The Special Groups as well as other criminal 
elements of JAM are generally defying that order and continuing to 
conduct violent acts. In response, we are seeing these groups being 
rejected by many mainstream members of JAM and by a significant portion 
of the Shia community at large.
    Compared to JAM, al-Qaeda in Iraq's roots in the Sunni community 
are far shallower. Al-Qaeda in Iraq is a foreign-born organization that 
continues to be led by foreigners, and it espouses an extremist 
ideology that has no history or tradition in Iraq. Sunni Iraqis have 
increasingly realized the true nature of al-Qaeda-Iraq. As they do so, 
they are rejecting it and deciding instead to work with coalition and 
Iraqi security forces to secure their areas.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                        by Senator Richard Lugar

    Question. Can the successes with Sunni tribes be extrapolated to 
the Shiite dominated south and south-central? If so, who are you 
reaching out to and promote in the Shia heartland where there is no 
apparent unity among the Shiite syndicate? Is there any diminution in 
the rivalry between SIIC and the Sadrist?

    Answer. There is no direct parallel between the Sunni ``Tribal 
Awakening'' and the Shia south that would allow for the easy 
extrapolation of that model. The Shia south is defined more by the 
struggle for power and economic resources between major Shia groups 
than by tribal structure. Overlaid on this struggle are competing 
theologies and political philosophies. The Sunni awakening is more 
characterized by tribal rejection of foreign-led extremists committing 
barbaric acts against the Sunni people. That being said, coalition 
forces and the Government of Iraq remain committed to reaching out to 
all political, religious, and tribal forces in the south that are 
willing to help reduce malign external influences and contribute to a 
stable environment.
    There has been little if any reduction in the rivalry between the 
Islamic Supreme Council of Iraq (ISCI) and the Sadrists. Indeed, the 
two groups remain engaged in a struggle to empower their respective 
blocs both in the ruling coalition in Baghdad and in the southern 
provinces, and I believe we can expect an enduring ideological and 
political rivalry between the two blocs. Recent events, including the 
late-August incident at Karbala and the assassination of the governors 
of Muthanna and Qadisiyah, both of whom were ISCI members, are examples 
of spikes in violence related to that competition, though the conflicts 
were initiated nearly exclusively by rogue elements of Sadr's Jaysh al-
Mahdi (JAM). In reaction to the perception that they are losing popular 
appeal--and to regain internal control of the organization--Moqtada al-
Sadr recently declared a ``freeze'' in JAM operations. This cease-fire 
is likely an attempt on the part of the Sadrists to regroup and present 
a more acceptable image of themselves, one free from thuggish violence 
and Iranian influence. We welcome the freeze and any outreach to the 
coalition from the Sadrists. Over the next several months, we believe 
we will gain better indicators of the direction in which Sadr's 
movement is heading.

    Question. Can you describe from your experience how U.S. presence 
in Iraq and increasing perceptions of U.S. stridency toward Iran--are 
received in the region? How is this affecting long-range stability and 
prospects for peace?

    Answer. My diplomatic counterpart Ambassador Crocker works closely 
with the Government of Iraq leaders on these important diplomatic 
issues, and I respectfully request that regional diplomatic questions 
be referred to the Department of State and U.S. Central Command. With 
regards to MNF-I, one of our objectives is to counter the malign 
influences of Iran in Iraq, and to encourage Iran to contribute 
positively to a secure and stable Iraq who is at peace with its 
neighbors. We welcome the positive contributions of Iran to a safe and 
secure Iraq, and are waiting to see if Iran holds to the pledge its 
leaders made to Prime Minister Maliki to stop illicit arms flow from 
Iran into Iraq.

    Question. Are the gains you have noted sustainable without 
continued U.S. involvement, or that of other peacekeeping forces? Do 
you foresee conditions reaching a level where more international 
peacekeepers could be employed?

    Answer. One goal of the Joint Campaign Plan (JCP) is to develop 
Iraqi security forces capable of sustaining security for Iraq. The JCP 
provides for a phased reduction of U.S. capability as we and our Iraqi 
counterparts move through a ``lead'' to ``partner'' to ``overwatch'' 
relationship. This process is specifically designed to preserve the 
security gains achieved to date while allowing the Iraqi security 
forces to assume growing responsibility as their capabilities and 
conditions on the ground allow.
    International peacekeeping forces could be employed in Iraq at any 
time during the execution of the Joint Campaign Plan, assuming this 
meets the desires of the Government of Iraq and the specific conditions 
on the ground in the area of Iraq in which peacekeepers would be 
deployed.
    The coalition is currently seeking wider participation and will 
host a coalition conference in late October 2007.

    Question. What do you reasonably expect from the new mandate given 
to UNAMI, and its new special representative?

    Answer. Multi-National Force-Iraq and the United States Mission-
Iraq welcome UNAMI's efforts to contribute to a stable, secure Iraq, 
and we look forward to the arrival of the new special representative, 
Mr. Staffan Di Mistura. As outlined in UNAMI's new mandate, we hope to 
see increased efforts to strengthen institutions for representative 
government, promote political dialogue and national reconciliation, 
expand electoral support, resolve disputed internal borders relating to 
Article 140 of the Iraqi Constitution, and intensify efforts to deliver 
humanitarian assistance.

    Question. Do you have any inclination that there are as many Sunnis 
waiting us out as we have participating with us?

    Answer. My inclination is that the majority of Sunnis have 
genuinely turned against al-Qaeda-Iraq and toward a longer term 
political settlement with the Shia majority. Undoubtedly, a sizeable 
minority remains skeptical of sustainable security and is wary of a 
coalition withdrawal that could leave them vulnerable again to both al-
Qaeda and Shia extremists.

    Question. What do you make of recent violence in the north aimed at 
Yazidis and Kurds?

    Answer. In response to increasingly effective security measures in 
major urban centers, al-Qaeda-Iraq (AQI) has shifted its attacks to 
isolated, and relatively defenseless, targets. This is part of AQI's 
continuing efforts to incite ethnosectarian violence in Iraq in general 
and in the north in particular, while discrediting the Iraqi and 
coalition efforts to protect the population. Aggressive targeting of 
AQI by both coalition and Iraqi security forces has resulted in AQI 
having fewer seasoned and capable operators to attack targets, 
especially the better protected targets in large urban areas. As a 
result, we are increasingly seeing them try to attack softer targets, 
such as checkpoints and isolated villages, as opposed to crowded 
markets and neighborhoods. Iraqi security forces, who man many of these 
checkpoints, are generally performing quite well and preventing many 
attacks from being much worse. Furthermore, coalition and Iraqi forces 
as well as Special Mission Units endeavor to interdict attacks through 
continued targeting. Last, the recent sensational attacks that occurred 
in the north have actually hardened the population against AQI instead 
of inciting further ethnosectarian violence.

    Question. Understanding the NIE's recommendations and your own 
against near-term mission changes, how integrated and studied are your 
plans to reduce force levels and change missions as you have spoken of 
today?

    Answer. As we develop plans to adjust force posture or change the 
mission, Multi-National Force-Iraq will closely coordinate those 
efforts with the United States Mission-Iraq, coalition members, and our 
Iraqi partners to ensure we do not lose the gains we have made in these 
areas of Iraq. Both the NIE and my testimony described the importance 
of not changing the mission of population security before conditions 
warrant. The mission of MNF-I, as reiterated by the President in his 
speech on 13 September, calls for a conditions-based transition to help 
ensure that gains are not reversed as Iraqis assume the lead in their 
own security.

    Question. Please provide more fidelity to the information provided 
on chart No. 14, particularly regarding integrated planning for 
indicated changes in force levels and missions. Describe what you mean 
by ``Overwatch.'' What would be the impact on regional stability of a 
redeployment? Would you recommend a buildup elsewhere in the region?

    Answer. Multi-National Force-Iraq defines three types of 
``Overwatch'' through which coalition forces will transition security 
responsibility to the Iraqis:
    Tactical Overwatch: Coalition forces (CF) provide a Quick Reaction 
Force (QRF) and the majority of essential enablers for Iraqi Security 
Force (ISF) units, which are capable of independently planning and 
executing Counter Insurgency (COIN) operations within their assigned 
Area of Operations (AO). Essential enablers include: Mobility support; 
joint fires; Intelligence, Surveillance and Reconnaissance (ISR) 
systems and intelligence linkage; air medical evacuation (MEDEVAC); 
Level II/III medical facilities; long-range command and control 
communications; and emergency logistics.
    Operational Overwatch: CF provide an operational reserve to 
reinforce ISF Quick Reaction Forces in order to sustain the ISF's 
ability to independently plan, execute, and sustain COIN operations. CF 
may also provide specific enablers to assist ISF operations and ensure 
operational success, such as joint fires, air MEDEVAC, ISR systems and 
intelligence linkage.
    Strategic Overwatch: The ISF provide security for the nation of 
Iraq as they focus on COIN, Counterterrorism, routine policing, and 
border security operations. CF position units to deter external 
threats, support counterterrorism operations, and provide a strategic 
reserve. CF will provide limited enabler support such as joint fires, 
ISR systems, and intelligence linkage. The relationship becomes one of 
security assistance as part of an alliance described in a long-term 
security agreement.
    A redistribution or augmentation of forces within the Central 
Command area of operations is not within my purview and is a question 
better addressed to the Commander, U.S. Central Command.

    Question. What is the current DOD policy on the tour lengths for 
DOD reservists and civilians who volunteered to initially staff the new 
ePRTs?

    Answer. The current Department of Defense (DOD) policy is for 
personnel assigned to the embedded Provincial Reconstruction Teams 
(ePRTs) to be replaced no later than 10 months after their arrival in 
theater.

    Question. Will DOD support their serving the full year?

    Answer. DOD has agreed to allow personnel to serve a 12-month tour 
provided the following guidelines are followed: Personnel volunteer to 
serve 12 months; the ePRT team leader and the Director, Office of 
Provincial Affairs (OPA) within the U.S. mission approve the 
volunteer's 12-month request; and the volunteer agrees to serve in 
accordance with the Office of the Secretary of Defense and his or her 
respective Service Component mobilization policy.

    Question. Are you advised of the State Department's plan to train 
new people and rotate them in?

    Answer. Yes. The Department of Defense and Department of State 
Memorandum of Agreement dated 22 February 2007 asserts that DOD 
personnel will be replaced by DOD-provided personnel as part of the 
transition.

    Question. How many DOD-hired translators and interpreters have been 
admitted to the United States under the Special Immigrant Visa (SIV) 
program?

    Answer. Multi-National Force-Iraq and the United States Mission-
Iraq do not have visibility over the Special Immigrant Visa program for 
Department of Defense-hired translators and interpreters. The 
Department of Homeland Security screens the applicants and forwards the 
individual packets to the Department of State office in Amman, Jordan, 
for processing and granting of visas.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                     Record by Senator Bill Nelson

    Question. In testimony before the committee, you noted that Diyala 
province would be a more accurate measure of the state of political 
reconciliation in Iraq than Anbar province, given the former's mixed 
Sunni, Shiite, and Kurdish population. What is the current state of 
political reconciliation efforts in Diyala province?
    To what extent have al-Qaeda in Iraq activities in Diyala forced 
out Shiite residents since the 2003 invasion of Iraq?
    What are the State Department's current estimates of the ratio of 
Sunni to Shiite to Kurdish residents in Diyala?
    To what extent are any successes in political reconciliation a 
result of the increasing Sunni homogeneity in Diyala?

    Answer. While there is considerable work to be done toward 
political reconciliation in Diyala, great strides have been made. Many 
tribal leaders decided in recent months to fight al-Qaeda and work with 
coalition and Iraqi forces to drive al-Qaeda from the province. Leaders 
representing 20 of the 25 major tribes in Diyala recently signed 
agreements to support coalition and Iraqi forces. This agreement, in 
conjunction with increased coalition force presence and extensive 
military operations, has resulted in a decline in attacks in Diyala. In 
addition, Sunni and Shia leaders are beginning to engage one another in 
Diyala and are holding meetings to promote reconciliation. These 
efforts show that the success seen in Al Anbar is possible in other 
provinces with more mixed populations.
    There are no figures at the present time that indicate how many 
Shia have been forced from Diyala as a result of AQI activities. 
However, Diyala, like many of Iraq's provinces, has a high number of 
Iraqis displaced both to and from the province. The most recent 
estimate from the Iraqi Ministry of Displacement & Migration (MODM) 
states that about 12,000 displaced families are living in Diyala 
governorate, many of them arriving after the February 2006 Samarra 
Mosque bombing. Most IDP families currently residing in Diyala come 
from Baghdad. The State Department's Diyala PRT estimates that most of 
the IDPs in Diyala are Arabs, approximately 77-percent Sunni and 23-
percent Shia. The Diyala PRT also estimates that Diyala's general 
population is 49 percent Sunni, 36 percent Shia, and 15 percent Kurd.
    Diyala remains a mixed population province. Political 
reconciliation in Diyala stems in large part from the Sunni desire for 
provincial elections and greater political representation. To that end, 
Sunni political leaders have been increasingly cooperative with Shia 
political leaders in the last 2 months. Additionally, Sunni leaders are 
becoming increasingly visible to the people and are taking the 
opportunity to govern. Sunni leaders were among the first to 
participate in Operation Arrowhead Ripper, a comprehensive operation to 
rid Diyala of extremists and restore public services. Leaders who were 
previously marginally involved are now active.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                         by Senator Bill Nelson

    Question. In your estimation, what total number of U.S. service 
personnel, including all Brigade Combat Teams, support and other 
personnel will remain in Iraq at the end of each of March 2008, July 
2008, and September 2008?

    Answer. Multi-National Force-Iraq is currently in the process of 
determining what elements, beyond the five Brigade Combat Teams, Marine 
Expeditionary Unit, and two Marine Battalions, can be withdrawn without 
replacement as the combat units are drawn down. I am thus hesitant, at 
this point, to give more than a range of personnel numbers, depending 
on how much we can reduce the so-called combat enablers--the combat 
support and combat service support units. Such enablers typically 
redeploy after the elements they've supported have been drawn down, and 
some likely will be required to execute base close-out procedures as 
well.
    As I explained to the congressional committees, the redeployment 
without replacement of surge forces began mid-September with the 
redeployment of the Marine Expeditionary Unit. This will be followed by 
the redeployment of five Army Brigade Combat Teams (BCTs) and the two 
surge Marine Battalions that takes place between mid-December and mid-
July. By the end of March 2008, two BCTs, the Marine Expeditionary 
Unit, and two Marine infantry battalions will have redeployed without 
replacement--a total of about 1,000 troops. It is not yet clear how 
many additional enabler elements will have been withdrawn; that is what 
we're working on now.
    By mid-July 2008, the U.S. military footprint will again represent 
a 15 BCT set; however, some of those BCTs (the Stryker Brigades and the 
Armored Cavalry Regiment) are larger than other BCTs. Again, combat 
service, and combat service support enablers support overall missions 
in theater, and we are currently reviewing which enabler units can also 
be withdrawn. Some of these enablers have unique capabilities and will 
have to be retained--such as Task Force 134's military police units 
that conduct detainee operations, certain new counter-IED elements, and 
some intelligence assets--and they will not be affected by the 
reductions in BCTs; in fact, we will have to keep more of those than we 
had when the surge began, as the detainee population has grown. We also 
need to retain a division-like headquarters for the Multi-National 
Division-Center mission and some of the aviation assets that we have 
had during the surge. These factors, and the still-to-be-determined 
pace of the reduction of enablers, make it difficult to predict 
precisely what the U.S. military footprint will be, though we are 
working the issue now and want to reduce whatever we can.
    Having said all that, the drawdown of the singe BCTs and Marine 
units will leave us with between 130,000 and 140,000 U.S. personnel in 
Iraq by the summer of 2008. Rest assured that we are going to try get 
as low as we can, but we need to ensure that we do not reduce enablers 
so far and so fast that they leave our forces without the support they 
need.
    Finally, with respect to beyond July 2008, I cannot currently 
predict the range of possible personnel strengths. As I told the 
congressional committees, force reductions will continue beyond the 
presurge levels of brigade combat teams that we will reach by mid-July 
2008. However, as I also stated, it would be premature to predict the 
pace of further reductions at this juncture, so far out. No later than 
March 2008, I will make recommendations to my chain of command 
regarding further coalition force reductions and mission adjustments 
for the period beyond July 2008.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                       by Senator Robert P. Casey

    Question. Can you explain why the Department of Defense appears to 
be arbitrarily changing its definitions of what qualifies as sectarian 
violence and why it is reclassifying previous accounts of the levels of 
sectarian violence in 2006?

    Answer. The definition and methodology we use to determine if 
violent acts should be classified as ethnosectarian have not changed 
since July 2005. MNF-I defines ethnosectarian violence as ``an event 
and any associated civilian deaths caused by or during murder/
executions, kidnappings, direct fire, indirect fire, and all types of 
explosive devices identified as being conducted by one ethnic/religious 
person/group directed at a different ethnic/religious person/group, 
where the primary motivation for the event is based on ethnicity or 
religious sect.'' I have attached to this response the full MNF-I 
document from which this definition comes.
    The only significant change to the reported level of ethnosectarian 
violence is one that resulted from our receipt of backlogged data from 
the Iraqi National Command Center in March 2007. After verifying the 
data, we updated previous accounts of the levels of sectarian violence 
with these reports to ensure we had the most accurate depiction of the 
sectarian violence we are measuring. This additional data did not 
arrive in time for inclusion in the March 9010 Report to Congress, but 
was reflected in the June 2007 9010 Report. Since then, MNF-I has 
worked hard to improve our coordination with our Iraqi counterparts to 
ensure we receive Iraqi reports in a timely and consistent manner. We 
believe that using verified Iraqi data adds to the accuracy of our 
statistics.

    Question. What is the current methodology used by the Pentagon in 
defining sectarian violence--how do we classify a death as stemming 
from sectarian origins? In calculating sectarian violence, which of the 
following cases are included?

  <bullet> Attacks perpetrated by Iraqi security forces and police?
  <bullet> Car bombings and other large suicide attacks?
  <bullet> Intrasectarian violence, both Shia-on-Shia and Sunni-on-
        Sunni?

    If any of these factors are not included, please explain the basis 
for exclusion.

    Answer. MNF-I's definition of sectarian violence is provided in the 
answer to question one above. To determine whether a particular event 
should be included as ethnosectarian violence, analysts review each 
event, focusing on the ethnicity and/or religious sect of the 
victim(s), the entity being attacked, the demographics of the area 
where the attack occurred, and the method of attack.
    In regards to the specific cases mentioned above, attacks 
perpetrated by Iraqi security forces and police, as well as car 
bombings and other large suicide attacks, are classified as 
ethnosectarian if they meet the criteria outlined in MNF-I's definition 
of ethnosectarian violence. Intrasectarian violence such as Shia-on-
Shia or Sunni-on-Sunni is not considered as ethnosectarian violence, 
but is included in overall statistics and trends data regarding 
violence, such as overall civilian deaths.

    Question. What is the most accurate metric for measuring the levels 
of violence in Iraq? How can the U.S. best determine whether the 
situation is becoming more or less stable? How do we best determine 
whether an incident is a ``sectarian'' incident or not?

    Answer. There is no single metric that can fully measure the levels 
of violence in Iraq and identify if Iraq is becoming more or less 
stable. In fact, Multi-National Force-Iraq (MNF-I) uses a variety of 
different indicators to assess Iraq's levels of violence and its 
stability. I showed the committees several of those different 
statistical assessments during my testimony.
    The primary metrics MNF-I uses to measure violence and determine 
levels of stability include the detailed analysis of the number of 
casualties and number and types of attacks initiated against coalition 
forces, Iraqi authorities, Iraqi security forces, Iraqi nationals, and 
key infrastructure. Due to the particular nature of violence in Iraq, 
MNF-I also focuses closely on levels of ethnosectarian violence, and 
the definition used to classify incidents as sectarian is noted above 
in the answer to question one.

    Question. As the Commander of the Multinational Force-Iraq, you are 
responsible for achieving sustainable success in the Iraq theater; 
accordingly, your recommendations on the future course of the U.S. 
mission there will be made on that basis alone. Chairman Pace, Admiral 
Fallon, and other senior military officers are responsible for 
assessment of the worldwide U.S. military presence and thus are asked 
to judge risks outside of Iraq, including prioritizing the deployment 
of relative U.S. troop levels around the world.
    General Petraeus, does your testimony today reflect your personal 
assessment or does it reflect the consensus view of the uniformed 
military leadership?

    Answer. My testimony reflects my personal assessment as the 
Commander of Multi-National Force-Iraq, not the consensus view of the 
uniformed military leadership. As I stated in my testimony, I briefed 
my assessment and the recommendations for the way forward to my chain 
of command prior to my appearance before Congress. However, I wrote my 
opening statement myself and did not clear it with anyone in the 
Pentagon, the White House, or Congress. During my testimony, when 
answering questions from the various committees, I provided my own 
assessment and did not attempt to provide a consensus view of the 
uniformed military leadership.
    That being said, a consensus does exist among the operational 
commander in Iraq, LTG Ray Odierno; myself; ADM William Fallon, my 
immediate superior and the Commander of U.S. Central Command; and the 
Joint Chiefs of Staff regarding the mission in Iraq; the drawdown of 
the five surge BCTs, the two Marine battalions, and the Marine 
Expeditionary Unit that has just departed Anbar province; and the need 
to make recommendations in March 2008 that deal with force posture 
beyond the surge drawdown we have already begun.

    Question. In making your recommendations for a continuation of the 
U.S. military surge into next spring and summer, to what extent did you 
take into consideration the readiness of U.S. military to respond to 
challenges outside of Iraq?

    Answer. Strictly speaking, as the Commander of Multi-National 
Force-Iraq, I am responsible for identifying the requirements to 
achieve our Nation's strategic objectives in Iraq. How those 
requirements are met is the responsibility of the force providers--the 
various Service Chiefs in coordination with Joint Forces Command and 
the Joint Staff. As such, my recommendation on accelerating the 
redeployment of the surge brigades was based principally on my 
assessment that the military objectives of the surge are in large 
measure being met by the combined efforts of the coalition and Iraqi 
security forces and that our effort can be sustained with a reduced 
level of forces. Still, while the readiness of the U.S. military did 
not drive my recommendations, it did inform them. As a senior military 
officer, I am well aware of the strain on the U.S. Armed Forces, 
particularly on the ground components, caused, among other reasons, by 
the war in Iraq.

    Question. Is it not fair to say that, in developing your assessment 
of recommended troop levels in Iraq, you are focused exclusively on the 
situation in Iraq and are not expected to assess the impact of an 
extended troop surge on our other national security interests? Or, for 
that matter, the impact of a continued surge on sustaining the basic 
readiness of the U.S. Army?

    Answer. I would be remiss in my broader duties as a senior military 
officer if I did not consider the impact of my decisions and 
recommendations on our Nation's other national security interests. 
Furthermore, what happens in Iraq has broad implications for America's 
national security interests, which include stability in the Middle East 
and denying safe havens for terrorists. My broader duties also could be 
construed to include assessing the basic readiness of the U.S. Army, 
which is one of our Nation's most significant means of protecting all 
our national security interests. However, my specific responsibility is 
to provide recommendations for what is required to achieve our Nation's 
strategic objectives in Iraq, not in other parts of the world. 
Therefore, these other considerations informed, but did not drive, my 
recommendations.

    Question. Would you agree that, as the President and the Congress 
determine the next steps on our mission in Iraq, we should keep in mind 
that you can only comment on the situation in Iraq and should not be 
expected to assess our critical national interests that lie elsewhere?

    Answer. My responsibility as the Commander of Multi-National Force-
Iraq is to provide recommendations on requirements for achieving our 
Nation's strategic objectives in Iraq, However, the situation in Iraq 
has a direct nexus with America's national security interests in other 
places around the world. Among the consequences of failure in Iraq is 
the establishment of a terrorist safe haven, which would have broad 
implications for the security of the U.S. and its allies; regional 
instability fueled by a failed Iraqi state; and the strengthening of 
Iran, which is a state sponsor of terrorism and is also pursuing 
nuclear weapons. Such developments could adversely affect global energy 
flows and thus the U.S. and global economies. Beyond that, an even 
greater humanitarian crisis in Iraq could have implications beyond Iraq 
as well. In noting those points, I do take national security interests 
that lie outside Iraq into my considerations. Still, any primary focus 
is on Iraq.

    Question. The Wall Street Journal reported yesterday that the 
Pentagon is preparing to build a base for U.S. forces near the Iraqi-
Iranian border in order to interdict the flow of Iranian arms and 
explosives to allied Shiite militant groups in Iraq. According to the 
news report, the new base is designed to accommodate at least 200 
soldiers and is likely to open in November. Along with this base, the 
U.S. military is planning new fortified checkpoints on the major 
highways leading from the Iranian border to Baghdad and the 
installation of x-ray machines and explosive-detecting sensors at the 
primary border crossing between the two nations.
    Can you verify whether this news report is accurate? Is the United 
States planning to build a new military base near the Iraqi-Iranian 
border to help interdict the flow of weapons and explosives from Iran 
to Shiite militias inside Iraq?

    Answer. As part of our overarching strategy to improve Iraq's 
Department of Boarder Enforcement (DBE) and Ports of Entry (POE), MNF-I 
is building a coalition combat outpost (COP) approximately 10 
kilometers from the Zurbatiyah Port of Entry, located on Iraq's border 
with Iran in Wasit province.
    MNF-I has multiple Border Transition Teams (BTTs), whose mission is 
to teach, coach, and mentor DBE and customs personnel who operate out 
of Iraq's 19 POEs and Iraq's austere bases located along the border. As 
Iraq's POEs are often remote, the optimal way for BTTs to perform their 
mission is by living in close proximity to their Iraqi counterparts in 
COPs. Currently four such COPs exist, each located near its respective 
Iraqi POE, along Iraq's border with both Syria and Jordan. COP Badra, 
the COP being built near the Zurbatiyah POE, will be the first COP near 
the Iranian border.
    When complete, COP Badra, like the 4 existing COPs, will provide 
BTTs with secure housing, equipment storage, and life support 
facilities. BTT members will no longer have to travel 2 hours each way 
to reach their partnered unit; instead, they will live in a COP that 
adjoins the existing Iraqi base that houses Iraqi border personnel and 
their headquarters. This arrangement will enhance the BTT members' 
ability to perform their mission and it will reduce their risks, as 
they will have to spend far less time on the road.
    Additionally, as part of the Border Strategy, there are plans to 
build improved checkpoints on major highways in Wasit province. These 
checkpoints will be manned by forces from the Republic of Georgia and 
will improve rapport, build relationships, and leverage local Iraqi 
leadership to increase overall border security and interdict weapons 
and illegal goods moving across the border.
    In the article in question, The Wall Street Journal implies that 
new equipment is scheduled to be fielded at border crossing points. 
That is true. However, this equipment is also part of planned 
enhancements to Iraq's ports of entry, much of the scheduled new 
equipment is not yet in use because of the length of time it takes to 
procure, install, and put into operation new technologies in austere 
locations. However, some equipment is already in place and functioning. 
For example, Iraqi Border Security and Customs agents, with BTT 
overwatch, already employ both x-ray and explosive detection equipment 
at many of the POEs. Future equipment upgrades may occur at the 
discretion of the Government of Iraq and will depend on the 
availability of new countersmuggling technology.

    Question. What other steps should the United States take to help 
crack down on Iranian supply flows to Shiite extremist militia groups?

    Answer. In addition to a comprehensive border strategy that seeks 
to disrupt and interdict the flow of Iranian supplied munitions, MNF-I 
and the Embassy are undertaking several other initiatives designed to 
disrupt Iranian supply flows to Shiite extremist militia groups. First, 
the MNF-I continues to target Shia extremist groups and Islamic 
Revolutionary Guard Corps-Quds Force officers--both those responsible 
for attacks against coalition forces and those who provide lethal aid 
to such groups. Second, MNF-I coordinates with the Interagency, 
particularly the Treasury Department, to disrupt and freeze facilitator 
funding in accordance with Executive orders. Used properly, these tools 
allow us to affect not only individuals and organizations but also 
companies that support the spread of Iranian lethal weapons flows. 
Third, MNF-I continues to engage with and provide intelligence 
information to key leaders of the Government of Iraq who are becoming 
more vocal, both publicly and privately, in demanding the end of 
Iranian attempts to destabilize their country. Coupled with U.S. and 
international efforts to highlight malign Iranian influence to the 
wider international community, the increasing demands of Iraqi leaders 
may help provide the necessary diplomatic pressure to persuade Iran 
from supporting nefarious actions within Iraq--and may help make future 
diplomatic efforts with Iran more productive than those in the past. 
Finally, MNF-I is engaging the tribes along the Iraq-Iran border in an 
effort to seek their assistance in disrupting illegal traffic. These 
engagements, as well as technological improvement at border points of 
entry, such as biometrics and search and surveillance equipment, will 
enhance the ability to disrupt the flow of Iranian-provided munitions 
into Iraq.

    Question. To what degree is the increased stability in Iraq the 
result of population displacements and sectarian cleansing?

    Answer. Population displacement and segregation of ethnic and 
sectarian groups have occurred to varying degrees in Baghdad and 
throughout Iraq, and these demographic changes have contributed to 
increased stability in some Baghdad neighborhoods and to a lesser 
degree in the rest of Iraq. However, the improved security situation in 
Baghdad and across Iraq is in larger part the result of other factors, 
including additional coalition and Iraqi security forces, the increased 
presence of coalition forces and Iraqi security forces among the 
populace, the increasing capability of Iraqi Security Forces, and, most 
significantly, the increasing participation of local tribal leaders and 
local citizens in providing security and rejecting extremists.

    Question. If so, what does that tell us about the likelihood for 
national political reconciliation in Iraq--if the stability we appear 
to be acquiring in some parts of Iraq is achieved on the basis of the 
sectarian groups segregating from one another?

    Answer. The goal of the improved security situation in Iraq is to 
provide Iraqi leaders the time and space to deal with the difficult 
issues that must be resolved for national political reconciliation to 
occur. When violence spiraled out of control in the wake of the 
February 2006 bombing of the Al Askari Mosque in Samarra, Iraqi leaders 
did not have the time to focus on issues like de-Baathification reform, 
provincial powers, and the equitable distribution of hydrocarbon 
revenues; their energies were focused on helping contain the violence. 
Now that violence levels are decreasing, Iraq's leaders are able to 
focus their energies more on the issues that we all agree must be 
resolved in order to achieve lasting national political reconciliation.

    Question. General Petraeus, I want to walk through the final slide 
that you presented to the committee in your opening statement. This 
slide is titled ``Recommended Force Reductions/Mission Shift'' and is 
arguably the most important slide of your presentation. The slide 
portrays the eventual shift in the mission of U.S. forces in Iraq, from 
leading combat operations to a supporting role, backing up Iraqi 
security forces as they take the lead in defending their nation. The 
slide demonstrates the eventual reduction of U.S. troop levels to the 
presurge levels of 15 U.S. Army brigades by the summer of 2008, 
returning us to 130,000 troops. Of course, these reductions are more 
or less a matter of necessity--everyone recognizes that the surge 
levels the U.S. Army is currently at in Iraq cannot continue 
indefinitely because we have no more Army troops in reserve.
    The remainder of the slide, however, is very vague. It demonstrates 
an eventual reduction of U.S. Amy brigades to 12 brigades, then 10, 
then 7, and finally an end-state of five U.S. Army brigades in Iraq. 
The mission of these end-state five brigades would be to engage in 
``strategic overwatch,'' as you define it.
    Please outline the key assumptions you have made that would allow 
for such a drawdown of U.S. military forces. To what degree does it 
rely upon capable Iraqi security forces able to act independently on 
the battlefield? What level of national political reconciliation is 
required to enable such U.S. troop reductions?

    Answer. This chart is based, fundamentally, on the assumption that 
the drawdown of U.S. military forces beyond what I have already 
recommended will be primarily conditions-based. It is also based on the 
assumption that coalition and Iraqi security forces will continue to 
make improvements to the security situation, that local political 
situations will evolve in a positive manner, and that the capabilities 
of Iraqi security forces to maintain security will continue to 
increase. As these two conditions are met, additional coalition forces 
can be withdrawn without sacrificing the gains we have fought to 
achieve. Iraqi security forces will continue to maintain the gains as 
they provide security for their fellow citizens.
    U.S. troop reductions are not predicated on national political 
reconciliation; they are predicated on the ability of coalition and 
Iraqi forces to maintain a level of security that enables national--and 
local--political reconciliation. However, as I described in the 
previous answer, a symbiotic relationship exists between security and 
reconciliation: As security improves, reconciliation can occur; as 
reconciliation occurs, security can further improve. Local and national 
political accommodations also are somewhat symbiotic: As local 
reconciliation takes root, national reconciliation initiatives can 
begin to bear fruit.

    Question. You have not placed any specific dates on the ``Y axis'' 
of this chart beyond July 2008, instead asserting that any further 
reductions beyond the 130,000 troops will be ``conditions-based.'' 
Please outline those specific conditions that will allow the U.S. to 
further reduce its military presence in Iraq.

    Answer. The specific conditions that will allow the U.S. to further 
reduce its military presence in Iraq beyond the reductions I have 
already recommended are continuing improvements in the security 
situation--including continued degradation of enemy forces--and 
continuing increases in the capability and capacity of the Iraqi 
security forces. Building a sustainable security environment should 
facilitate national and local reconciliation and economic progress, 
which in turn will have positive effects on the ability to maintain 
sustainable security, which will then enable further reductions to take 
place.

    Question. Why do you believe five U.S. Army brigades are required 
in Iraq for the long-term? Do you believe that the United States will 
need to maintain a permanent military presence in Iraq--over the next 
decade and beyond? Does that mean the United States will be 
constructing permanent military bases?

    Answer. As I said in my testimony, it will probably be spring of 
next year before I have an adequate appreciation for further reductions 
and mission adjustments beyond the summer of 2008. I do believe, 
however, that the U.S. will need to maintain significant forces--
perhaps between five and seven brigades, as shown in the slide--in Iraq 
for some time, although I cannot say for certain how many brigades and 
for how many years. The slide, in that sense, is illustrative, not 
precisely predictive. Iraqi security forces--both police and military--
will, over time, be able to independently perform the internal security 
mission while U.S. forces provide strategic overwatch and contribute 
certain counterterrorism capabilities. I do not believe this equates to 
a permanent military presence. Moreover, the U.S. is not constructing 
permanent military bases, but will continue to utilize temporary bases 
that support our operations and provide an acceptable level of life 
support for our deployed forces.

    Question. An Associated Press article published today described the 
results of a recent poll of Iraqis on the impact of the U.S. military 
surge in Iraq. The key findings of the poll include:

  <bullet> Forty-seven percent want American forces and their coalition 
        allies to leave the country. Immediately, the survey showed, 12 
        points more than said so in a March poll as the troop increase 
        was beginning. And 57 percent--including nearly all Sunnis and 
        half of Shiites--said they consider attacks on coalition forces 
        acceptable, a slight increase over the past half year.
  <bullet> Seventy percent in the survey said they believe security has 
        worsened where the added forces were sent, with another 11 
        percent saying the buildup has had no effect.

    How can you portray the surge as making measurable gains in 
security throughout Iraq when a clear majority of the very recipients 
of that purported progress in security, the Iraqi people, are telling 
us that they do not believe the security situation has improved and 
has, in fact, deteriorated?

    Answer. Iraq's political leaders--although they are still 
developing a sense of responsibility to their constituents--have all 
communicated their sensing that there has been an improvement in 
security over the course of the surge, but much more work is required 
to provide for the basic needs of their citizens. They acknowledge that 
security progress has been uneven, but have also been very clear in 
crediting Multi-National Force-Iraq with much of that improvement. 
Their request for a long-term security relationship with the United 
States is further evidence of their support for coalition forces and 
their acknowledgement of the positive impact of the coalition on 
security in their country.

[Attachment follows:]

               MNF-I Ethno-Sectarian Violence Methodology

    Definition of Ethno-Sectarian Violence. An event and any associated 
civilian deaths caused by or during murders/executions, kidnappings, 
direct fire, indirect fire, and all types of explosive devices 
identified as being conducted by one ethnic/religious person/group 
directed at a different ethnic/religious person/group, where the 
primary motivation for the event is based on ethnicity or religious 
sect.
    Procedure for Determining Ethno-Sectarian Violence. MNF-I gathers 
data from Coalition and Iraqi operations centers as events are 
reported. In the days after incidents take place, MNF-I continues to 
refine the data, verifying and updating initial information, adding 
pertinent details, and analyzing the events. In this way, the first 
report is supplemented by follow-up reporting to ensure that we have 
the most accurate information possible. Analysts then review the 
Coalition reports and a subset of the Iraqi reports (murders, high 
profile attacks, assassinations, and kidnappings), using the criteria 
listed below, in order to determine the ethnicity and/or religious sect 
of the victim(s), the entity being attacked, the demographics of the 
area where the attack occurred, and the method of attack. These 
criteria allow the analysts to determine whether or not a particular 
event should be considered ethno-sectarian violence.
The following criteria are used by MNF-I to determine Ethno-Sectarian 
        Violence
    Ethnicity or Religious Sect of the victim. Each event is reviewed 
to determine the ethnicity and religious sect of the victim. When a 
victim is identified to have been one ethnicity/sect and was killed in 
an area predominantly populated by a different ethnicity/sect or is 
known to have been killed by a different ethnicity/sect, the event is 
considered an ethno-sectarian incident.
    Entity. Each event is reviewed to determine if the attack occurred 
against civilians, civilians of the same sect or ethnicity, Coalition 
Forces, Iraqi Security Forces, or the Government of Iraq. Attacks 
against civilians of the same sect or ethnicity, Coalition Forces, 
Government of Iraq personnel/facilities, and Iraqi Security Forces are 
not considered ethno-sectarian incidents.
    Area. Each event is reviewed to determine the area in which the 
attack took place. Attacks targeting predominantly single-sect or 
single-ethnicity areas are typically considered ethno-sectarian. 
``Predominantly'' is defined as greater than or equal to 50% of one 
ethnic/religious affiliation.
    Target. Each event is reviewed to determine the intended target(s) 
of the attack. The targets of an attack, such as crowds or specific 
types of infrastructure, provide indicators of whether or not an attack 
was conducted for ethno-sectarian reasons. Medical centers, market 
places, mosques or religious symbols, educational facilities, religious 
gatherings, stores/restaurants, and housing areas are some common areas 
where ethno-sectarian attacks occur. These entities are normally run/
owned, attended by, or used primarily by one ethnic/religious group. 
There are cases where the attacking sect may kill or injure individuals 
from his same ethnic/religious group during an attack; however, this 
alone does not prevent an attack from ethno-sectarian, extremist 
ideology permits the killing of any Muslim who is not a member of the 
targeted group and is located among the targeted group, since doing so 
classifies them as apostates.
    Method of Attack. Each event is reviewed to determine the type of 
attack that has occurred. The method of attack is a solid indicator of 
whether an attack is ethno-sectarian or not.
    Example: High-profile attacks, such as suicide car bombs, car bombs 
and suicide vests, are known Sunni-extremist group tactics often 
directed against civilians, Coalition Forces, Iraqi Security Forces, 
and the Government of Iraq. For example, a high-profile attack 
occurring in a predominantly Shia area points is often considered an 
ethno-sectarian attack.
The following explains methods of attack in more detail as well as the 
        source of the reporting for the attack
    Improvised Explosive Device (IED): Locations that are primarily 
targeted by IEDs include, but are not limited to, medical centers, 
market places, mosques or religious symbols, educational facilities, 
religious gatherings, stores/restaurants, and houses in neighborhoods. 
These entities are normally run/owned, attended by, or used primarily 
by one ethnic/religious group. Coalition reports (SIGACTS) are used for 
this category of attacks.
    Example: Threats are made to Sunni individuals living in a 
predominantly Shia area, telling them to leave or face the 
consequences. Following the threat, the homes of two Sunni families in 
the neighborhood are destroyed by an IED. This is considered an ethno-
sectarian incident.
    Car Bombs: Locations that are primarily targeted by car bombs 
include, but are not limited to, medical centers, market places, 
mosques or religious symbols, educational facilities, religious 
gatherings, stores/restaurants, and houses in neighborhoods. These 
entities are normally run/owned, attended by, or used primarily by one 
ethnic/religious group. Coalition reports (SIGACTS) are used for this 
category of attacks.
    Suicide Car Bombs: Locations that are primarily targeted by suicide 
car bombs include, but are not limited to, medical centers, market 
places, mosques or religious symbols, educational facilities, religious 
gatherings, stores/restaurants, and houses in neighborhoods. These 
entities are normally run/owned, attended by, or used primarily by one 
ethnic/religious group. Coalition reports (SIGACTS) are used for this 
category of attacks.
    Suicide Vest: Locations that are primarily targeted by suicide vest 
attacks include, but are not limited to, medical centers, market 
places, mosques or religious symbols, educational facilities, religious 
gatherings, stores/restaurants, and houses in neighborhoods. These 
entities are normally run/owned, attended by, or used primarily by one 
ethnic/religious group. Coalition reports (SIGACTS) are used for this 
category of attacks.
    Example: A suicide vest explodes in a crowded market located in a 
mixed neighborhood but mainly frequented by Shia. Although the attack 
was in a mixed neighborhood, the assessed target is Shia civilians. 
This assessment was derived from the fact that the predominant 
population using the market was Shia. Some Sunnis may have also been 
killed or injured in the event; however, extremist ideology permits the 
killing of any Muslim who is frequenting an area used by a different 
sect, since they are considered apostates. This suicide vest attack is 
considered an ethno-sectarian incident.
    Direct Fire: Direct fire often targets religious gatherings, such 
as individuals entering and exiting mosques; individuals entering and 
exiting educational facilities; and individuals entering and exiting 
medical centers, market areas, and gatherings for work. Coalition 
reports (SIGACTS) are used for this category of attacks.
    Example: Individual day laborers of the same sect or ethnicity 
gather while waiting for work and are killed by direct fire that is 
shot by individuals of a different sect or ethnicity,
    Indirect Fire (IDF): Indirect fire often targets medical centers, 
market places, mosques or religious symbols, educational facilities, 
religious gatherings, stores/restaurants, and houses in neighborhoods. 
It also often targets Coalition Forces, Iraqi Security Forces, and 
Government of Iraq facilities and personnel. Due to the inaccuracy of 
IDF, it must be assessed as being directed against civilians of a 
specific sect/ethnicity, and there must not be any Coalition Forces, 
Iraqi Security Forces, or Government of Iraq facilities or personnel in 
the area; if they are, it cannot be construed that they were not the 
intended target. Coalition reports (SIGACTS) are used for this 
category.
    Executions: Executions include civilians that show signs of 
torture. This includes evidence of individuals being bound, 
blindfolded, or shot anywhere in the head or decapitated, strangled, 
hung, suffocated, or mutilated as well as instances where three or more 
bodies are found together (except in cases of indirect fire). 
Executions against Iraqi Security Forces or any other government 
personnel are excluded. Also excluded are executions conducted due to 
intra-sect violence. For this category of attack, Coalition reports 
(SIGACTS) are supplemented by Host Nation reports, since those reports 
have the best information available from morgues and police stations.
    Murder: Murders can be categorized as ethno-sectarian violence if 
it is determined that the perpetrator is of one ethnicity/religious 
group and the victim is of a different ethnic/religious group. 
Coalition reporting and Host Nation reporting are both used for this 
category of attack.
    Kidnapping: Kidnapping events are considered ethno-sectarian 
incidents if they involve individuals who are kidnapped solely because 
of their ethnicity or religion. Coalition reporting and Host Nation 
reporting are used for this category.
                                 ______
                                 

  Responses of Ambassador Ryan Crocker to Questions Submitted for the 
                 Record by Senator George V. Voinovich

    Question. Is our Government doing any integrated planning for a 
potential drawdown or change in mission focus (which some might refer 
to as an exit strategy)? If so, what kind of missions would we continue 
to perform in the long term, if we reduced forces to a minimal 
presence?

    Answer. There will be adjustments to our strategy in the coming 
months. General Petraeus has recommended to the President, and the 
President has accepted, that beginning in December 2007, we can 
transition to the next phase of our strategy. During this phase, U.S. 
forces will gradually transition from surge operations and transfer 
responsibility for population security to Iraqi forces. Adjustments in 
the missions of U.S. forces and transitions to Iraqi forces will vary 
based on local conditions.
    We have begun to develop with our Iraqi partners the framework for 
a long-term security relationship between Iraq and the U.S. that will 
encompass significant security, economic, and diplomatic ties with a 
reduced U.S. military presence as soon as conditions allow.
    The President has directed General Petraeus and me to update our 
joint campaign plan and to adjust military and civilian resources in 
accordance with that updated plan.
    Iraq's problems require a long-term effort. There are no easy 
answers or quick solutions. Every strategy requires constant 
recalibration, and a balanced focus on both population security and 
transition will be necessary. The best way to secure our national 
interests and avoid an unfavorable outcome in Iraq is to continue to 
focus our operations on securing the Iraqi people while targeting 
terrorist groups and militia extremists and, as quickly as they are 
ready, transitioning security tasks to Iraqi elements.

    Question. What motivates Sunni tribal leaders to cooperate with the 
United States? What role do they see for themselves in the future of 
Iraq? Do you believe it is possible that U.S. support for Sunni Arab 
militia groups will undermine Sunni-Shiite reconciliation efforts?

    Answer. Years of intimidating activities by al-Qaeda in Iraq 
(AQI)--including the targeting of Sunni tribal leaders--and the 
realization that AQI was not representing the interests of Sunnis in 
Iraq have led many tribal leaders to begin cooperating with coalition 
forces in Al Anbar province. Together, local sheikhs, Iraqi security 
forces, and coalition troops drove the terrorists from the provincial 
capital of Ramadi and other population centers. Even after the murder 
of Sheikh Abdul Sattar abu-Risha, one of the tribal leaders who opposed 
AQI, Ramadi is still safer than it was just 1 year ago. Businesses 
continue to open, and the situation is slowly returning to normal.
    During his September 3 visit to Al Anbar province, Sunni tribal 
leaders told President Bush that they now see a place for their people 
in a democratic Iraq. These leaders want to play a role in national 
politics because they want to improve the living conditions of their 
people. We expect them to continue to be influential in the areas from 
which they come and to continue to work together to advance 
reconciliation.
    The United States does not support the creation of militias, 
neither Shia nor Sunni. Instead, we have encouraged young Sunnis who 
once would have joined the insurgency to join the Iraqi Army and 
police, and they have increasingly done so.

    Question. How will the U.S. military forces handle the instability 
in the Shia-dominated south where several militias are vying for power? 
Can the Sunni Awakening lessons be applied there as well? Are there 
moderate forces that can work with U.S. forces?

    Answer. There are indications some influential tribal leaders in 
the Shia heartland are determined to counter militia and Iranian 
influence and bring stability to their areas. The political and 
security dynamics in the Shia areas are different from those in Al 
Anbar, but the determination is there. The Shia have seen in Al Anbar 
that groups of concerned local citizens can effectively take back their 
communities from extremists.
    Just as al-Qaeda's brutality and criminality alienated the 
population of Al Anbar province, the recent attacks by the Jaysh al-
Mahdi on worshippers in Karbala provoked a strong backlash among 
moderate Shia. This backlash led Moqtada al-Sadr to call for a 
suspension of JAM activity.
    These developments offer opportunities for the Government of Iraq 
to expand its support for tribal movements in the south and south-
central areas of Iraq, and we are encouraging the GOI to do so. 
Nevertheless, intra-Shia violence in the south remains a major concern.

    Question. Do regional states understand that the worse Iraq 
becomes, the worse it becomes for them? How are they contributing to 
Iraq's stability? Do they meet regularly? What is the best forum or 
diplomatic tool for bringing the right players together to discuss the 
future of Iraq? For example, was the forum in Sharm el-Sheikh useful? 
Do you expect the Istanbul regional ministerial meeting to make a 
difference on these issues? Do you expect much from the new mandate for 
the U.N. assistance mission (UNAMI) and its new special representative? 
Can the U.N. act as a leader in coordinating outside help and making a 
significant difference in Iraq?

    Answer. Based on discussions with regional interlocutors and public 
statements emanating from regional states, we have no doubt that more 
of Iraq's neighbors understand that stabilizing Iraq is crucial to 
regional security. Neighbors such as Jordan and Saudi Arabia are well 
aware of the dangers a worsening security situation in Iraq presents to 
them, for they have suffered from al-Qaeda attacks in the past. 
Moreover, Iraq's neighbors are worried about the humanitarian 
consequences of a failed Iraq which would exacerbate the Iraqi refugee 
problem.
    Even countries that have been unhelpful with regard to the security 
situation in Iraq, such as Syria and Iran, claim to understand what is 
at stake. President Asad said in an interview that he is worried about 
the security threat that transiting foreign fighters could pose inside 
of Syria. The Iranians have said publicly and during U.S.-Iran meetings 
in Baghdad that they support a stable Iraq. However, both Iran and 
Syria seem to have concluded that, in the near term at least, a 
destabilized Iraq gives them leverage and is in their interests. 
Regional forums are an essential lever for pressing Iran and Syria to 
take action for stability in Iraq that is in line with their public 
statements.
    The Iraqis regularly meet with their neighbors, and there are 
several regional and international initiatives in motion.

  <bullet> An Iraqi delegation headed by Iraqi National Security 
        Advisor Rubaie went to Jordan in August to improve security 
        coordination and intelligence sharing.
  <bullet> PM Maliki went to Damascus, Ankara, and Tehran in August and 
        signed security and economic memoranda of understanding with 
        both Syria and Turkey.
  <bullet> The Government of Saudi Arabia sent a delegation to Baghdad 
        in August to explore potential sites for a new embassy.
  <bullet> French FM Kouchner visited Iraq in August and Swedish FM 
        Bildt visited in September. Both have welcomed expanded U.N. 
        involvement in Iraq and have said they will work to increase EU 
        financial, technical, and diplomatic activity in Iraq.
  <bullet> The September 22 High Level Ministerial on Iraq was cohosted 
        by U.N. Secretary General Ban and PM Maliki at the U.N.
  <bullet> The early November Expanded Neighbors Ministerial, a follow-
        on to the first Expanded Neighbors Ministerial held in Sharm 
        el-Sheikh in May, will be hosted by the Government of Turkey 
        and chaired by PM Maliki.
  <bullet> The International Compact with Iraq, an initiative cochaired 
        by the United Nations and Iraq, provides an ongoing mechanism 
        for the international community to support and assist Iraq as 
        it works to build a stable and prosperous nation and a self-
        sustaining economy.

    The first Expanded Neighbors Ministerial, held in Sharm el-Sheikh 
on May 5, was, indeed, useful. Three regional working groups (energy, 
refugees, border security) were created at this conference, and the 
three groups had their inaugural meetings in June and July. Follow-up 
action has been agreed upon in the form of a technical, expert-level 
meeting, tentatively set to take place in Kuwait prior to the Border 
Security Working Group Interior Ministers meeting scheduled for October 
23 in Kuwait. Evaluation of progress in the working groups will be a 
main element of the upcoming Expanded Neighbors Ministerial in 
Istanbul.
    The new UNAMI mandate will increase U.N. activity in Iraq. 
Specifically it allows UNAMI to work with the government and people of 
Iraq in advancing political dialogue and national reconciliation, 
including through constitutional review, the development of processes 
to resolve disputed internal boundaries, and in planning, funding and 
implementing reintegration programs for former members of illegal armed 
groups. We also look to UNAMI to take a leading role in assisting the 
Iraqi Government in facilitating regional dialogue, including 
coordination on the neighbors process. UNAMI will also be able to 
support the Government of Iraq in the coordination of delivery of 
humanitarian assistance and the safe, orderly, and voluntary return of 
refugees and displaced persons.
    Steffan de Mistura, the new Special Representative of the Secretary 
General, is a veteran international civil servant and Iraq hand. We 
have every confidence in his ability to move UNAMI forward under its 
new mandate, and look forward to hearing his ideas and plans.

    Question. Are the players in the region ready for a U.S. 
withdrawal, if it happens? What have you done to get Iraq's neighbors 
to build political reconciliation in Iraq and prepare for a pending 
withdrawal of U.S. forces? Will they be willing to step in and 
contribute significantly if they know that we plan to stay there for 
the foreseeable future?

    Answer. A premature drawdown of our forces would have devastating 
consequences. This could include a marked increase in violence, further 
ethnosectarian displacement and refugee flows, and alliances of 
convenience by Iraqi groups with internal and external forces to gain 
advantages over their rivals. Such a drawdown would exacerbate already 
challenging regional dynamics, especially with respect to Iran.
    Both the Government of Iraq and U.S. officials continue to engage 
Iraq's neighbors to emphasize the importance of reconciliation and 
constructive involvement by Iraq's neighbors. All of Iraq's neighbors 
recognize that they have a stake in the outcome of the current 
conflict, and most are engaging with Iraq in a constructive way. For 
example, Jordan recently issued a statement supporting Iraqi efforts at 
reconciliation, and Saudi Arabia has announced a plan to open an 
embassy in Baghdad. Iraq's neighbors are also already contributing 
significantly in other ways. Seventy-four countries, including Iraq's 
neighbors, pledged to support and assist Iraq as it works to build a 
stable and prosperous nation and a self-sustaining economy at the 
launch of the International Compact with Iraq. Iraq's neighbors also 
came together in support of Iraq at the first Expanded Neighbors 
Ministerial in May. Meetings of the Neighbors process working groups on 
border security, refugees, and energy were held this summer, and a 
second Expanded Neighbor's Ministerial is scheduled for early November.

    Question. Iran's President made a public statement that Iran would 
be ready to fill the vacuum of American power if we withdraw from the 
region. What was the motivation of making that statement?

    Answer. I cannot speculate about President Ahmadinejad's 
motivations. While this is not the first provocative statement that he 
has made, I believe we should take it seriously as an indication of 
Iran's intentions in Iraq. Iran has long had hegemonic aspirations, and 
today we see it trying to flex its muscle at the expense of regional 
stability. We have sent a clear message to the Iranian Government that 
the United States will continue meeting our long-term political and 
security commitments to our regional partners and that we will protect 
our interests in the region. Our commitment to an enduring relationship 
with the Iraqi Government underscores this message.
    In my discussions with representatives of the Iranian and Iraqi 
Governments regarding Iraqi security, I have emphasized that Iran and 
the United States share a common interest in ensuring a stable, secure 
Iraq at peace with its neighbors. To the extent that Iran provides 
reconstruction assistance, Iran can play a helpful role in Iraq. 
However, to the extent that the Iranian Government continues allowing 
the Quds Force to provide lethal support to militants in Iraq, Iran is 
working against both U.S. and Iraqi interests. The Iranian Government 
must curtail the Quds Force's malign activities in Iraq--which include 
providing funding, training, and arms for militias--bringing them into 
line with the Iranian Government's stated policy of supporting the 
Iraqi Government. As President Bush made clear in January, coalition 
forces will also continue to disrupt and destroy foreign weapons 
networks--regardless of nationality--that are facilitating instability 
in Iraq.

    Question. Moqtada al-Sadr recently announced the suspension of 
activities by his Mahdi militia for a period of 6 months. What is 
Sadr's motivation by doing this? How will the Jaysh al-Mandi respond? 
How much control does Sadr personally exercise over the JAM? Do you 
suspect this decision was taken to consolidate the militia's strength 
in preparation for a future offensive?

    Answer. Moqtada al-Sadr's announcement was motivated, at least in 
part, by the fact that the Jaysh al-Mahdi's recent attacks on 
worshippers in Karbala provoked a strong backlash among moderate Shia.
    We welcomed the announcement ordering Jaysh al-Mahdi (JAM) forces 
to stand down. We have seen reduced activity by some of the JAM that 
appear to be honoring his order; however, explosively formed projectile 
attacks and rocket attacks have continued in some areas. We continue to 
monitor developments closely because the degree to which the JAM 
actually abides by this suspension of activities could demonstrate al-
Sadr's degree of personal control. Whether or not he plans a future 
offensive, he apparently hopes to avoid armed confrontations with 
coalition forces and ISF that would prove costly to the JAM.

    Question. What is your assessment of the cooperation of Iraq's 
leaders at the top of the government (the President, Prime Minister, 
and deputy presidents)? Do you believe their cooperation, if 
successful, can lead to agreements on key political issues such as oil 
legislation, de-Baathification, and detainee policy? Do they have the 
proxy of the political parties and Iraqi people to forge these 
agreements? Will they have the ability to get support for these 
agreements through Parliament?

    Answer. Political negotiations take time, but we are seeing some 
progress. On August 26, Iraqi leaders, including Prime Minister Maliki, 
President Talabani, Vice Presidents Abdul Mahdi and Hashemi, and 
Kurdistan Regional Government President Barzani signed an agreement 
pledging cooperation on a number of key political issues. Subsequently, 
agreement was reached on a new de-Baathification reform law that has 
been sent to the Council of Representatives (COR) for discussion. They 
also found common ground on detainees, power-sharing, and other pieces 
of legislation on which they could not agree in the past.
    How these recent political agreements by Iraq's political leaders 
will play out in the Council of Representatives is yet to be seen and 
ongoing tensions among them will continue to be a challenge. However, 
these recent developments are promising and may represent important 
steps toward resolution of these previously divisive issues.
                                 ______
                                 

 Responses of GEN David Petraeus to Questions Submitted for the Record 
                     by Senator George V. Voinovich

    Question. Is our government doing any integrated strategic planning 
for a potential drawdown or change in mission focus (which some might 
refer to as an exit strategy)? If so, what kind of missions would we 
continue to perform in the long term, if we reduced forces to a minimal 
presence?

    Answer. We are in the midst of planning for the drawdown of the 
five surge brigades, two Marine battalions, and Marine Expeditionary 
Unit that I discussed during testimony. This planning is being 
coordinated with our parent headquarters, U.S. Central Command, and 
with the Joint Staff. Likewise, we are coordinating this change in 
force posture with the U.S. Mission-Iraq so we can jointly plan for 
needed adjustments to support the political, economic, and diplomatic 
lines of operation. As I noted in my testimony, I will not be able to 
make a recommendation on a change in mission focus or future force 
posture beyond the drawdown of the surge combat formations until March 
2008, based on conditions on the ground in Iraq.
    The operational environment, the capacity of the Iraqi security 
forces, and the support of coalition partners will determine what 
missions we could conduct with significantly less forces than are 
available at present. There are certain core missions we envision 
conducting for some time, even after the security situation has become 
sustainable by the Iraqis, including counterterrorism and advising the 
Iraqi security forces. One of the important lessons we have learned, 
however, is that counterterrorism operations work best when combined 
with the population security mission performed by conventional ground 
forces, given the actionable intelligence generated by a population 
that feels secure enough to provide tips and denies sanctuaries to 
terrorists.

    Question. What motivates Sunni Tribal Leaders to cooperate with the 
United States? What role do they see for themselves in the future of 
Iraq? Do you believe it is possible that U.S. support for Sunni Arab 
militia groups will undermine Sunni-Shiite reconciliation efforts?

    Answer. Sunni Tribal Leaders cooperate with coalition forces 
primarily because they recognize al-Qaeda-lraq to be a more proximate 
and severe threat to their basic interests than other possible threats. 
I believe the majority of Sunnis have come to the realization that they 
will not lead Iraq nationally again and that they instead need to band 
together and work with other Iraqi parties to form political blocs, not 
insurgent groups, if they are to have lasting influence in the 
government. It is possible that coalition force support of Sunni Arab 
militia groups could cause defensive reactions by the Shia-dominated 
government. But the Government of Iraq to date, though showing concern 
in many cases, has conducted genuine outreach to Sunni tribes and 
continues to pursue these initiatives through the efforts of its 
National Reconciliation Committee.

    Question. How will the U.S. forces handle the instability in the 
Shia-dominated south where several militias are vying for power? Can 
the Sunni Awakening lessons be applied there as well? Are there 
moderate forces that can work with the U.S. forces?

    Answer. The instability in the Shia south can in general be 
attributed to the struggle between competing political parties. While 
worrisome and tragic, especially in the cases of the assassinations of 
the governors of Muthanna and Qadisiyah provinces, the ongoing struggle 
has remained at a level that has generally been managed by Iraqi 
security forces supported by our coalition partners and several Special 
Forces teams. Moreover, this competition between Shia blocs in the 
south will certainly continue, but I believe that a maturing political 
process, supported by the actions of the Iraqi security forces with 
coalition assistance, will for the most part prevent a slide into 
widespread instability.
    There is no direct parallel between the Sunni ``Tribal Awakening'' 
and the Shia south that would allow for the easy extrapolation of that 
model. The Shia south is defined more by the struggle for power and 
economic resources between two major groups (the Islamic Supreme 
Council of Iraq and the Sadrists) than by tribal structure. Overlaid on 
this struggle are competing theologies and political philosophies. The 
Sunni awakening was characterized more by tribal rejection of foreign-
led actors committing barbaric acts against the Sunni people.
    Coalition forces and the Government of Iraq remain committed to 
reaching out to all political, religious, and tribal forces in the 
south that are willing to help reduce malign external influences and 
contribute to a stable environment. There are many moderates in the 
Shia south that we already work with, and though we don't work directly 
with him, the calming influence of Grand Ayatollah Sistani also plays 
an important role in dampening flareups between the two dominant blocs 
and ensuring that Sunni political influence remains viable in Baghdad.

    Question. Do regional states understand that the worse Iraq 
becomes, the worse it becomes for them? How are they contributing to 
Iraq's stability? Do they meet regularly? What is the best forum or 
diplomatic tool for bringing the right players together to discuss the 
future of Iraq? For example, was the forum in Sharm el-Sheikh useful? 
Do you expect the Istanbul regional ministerial meeting to make a 
difference on these issues?

    Answer. My diplomatic counterpart Ambassador Crocker works closely 
with the Iraqi and regional leaders on these important diplomatic 
issues. This question is best answered by his team and the Department 
of State.

    Question. Do you expect much from the new mandate for the U.N. 
assistance mission (UNAMI) and its new special representative? Can the 
U.N. act as a leader in coordinating outside help and making a 
significant difference in Iraq?

    Answer. MNF-I joins with the U.S. Embassy in welcoming the United 
Nations' efforts to contribute to a stable, secure Iraq and appreciates 
the expanded mandate for UNAMI. We look forward to the arrival of the 
new special representative, Mr. Staffan Di Mistura. As outlined in 
UNAMI's mandate, we hope to see increased efforts to strengthen 
institutions for representative government, promote political dialogue 
and national reconciliation, increase electoral support, resolve 
disputed internal borders relating to Article 140 of the Iraqi 
Constitution, and increase efforts to deliver humanitarian assistance.

    Question. Are the players in the region ready for a U.S. 
withdrawal, if it happens? What have you done to get Iraq's neighbors 
to build political reconciliation in Iraq and prepare for a pending 
withdrawal of U.S. forces? Will they be willing to step in and 
contribute significantly if they know that we plan to stay there for 
the foreseeable future?

    Answer. As the Coalition Military Commander in Iraq, I am focused 
on security conditions within Iraq. Ambassador Crocker is working 
closely with Government of Iraq leaders as they engage with Iraq's 
neighbors to build political reconciliation. I would respectfully 
suggest that this question could be better answered by either the 
United States Mission-Iraq or U.S. Central Command.

    Question. Iran's President made a public statement that Iran would 
be ready to fill the vacuum of American power if we withdraw from the 
region. What was the motivation of making that statement?

    Answer. We have no unique insights into the motivations of the 
Iranian regime leadership. However, his statement is consistent with 
Iran's current actions to undermine the sovereign Government of Iraq by 
arming, training, and funding Shia extremist militants who serve as 
proxies for Iran. The Iranian regime's activities in Iraq are patterned 
after its relationship with Hezbollah in Lebanon.

    Question. Moqtada al-Sadr recently announced the suspension of 
activities by his Mahdi militia for a period of 6 months. What is 
Sadr's motivation by doing this? How will the Jaysh al-Mahdi respond? 
How much control does Sadr personally exercise over the JAM? Do you 
suspect this decision was taken to consolidate the militia's strength 
in preparation for a future offensive?

    Answer. Moqtada al-Sadr stated his motivation for suspending the 
activities of the Mahdi Army was ``to restructure the army in a manner 
that will preserve the prestige of [the Sadrist] ideology.'' However, 
we believe Sadr has two motives. One motive is to distance himself and 
his organization from the conflict in Karbala in August 2007 and the 
spate of political assassinations over the past 2 months that sullied 
the image of his organization in the eyes of many Shia. Sadr hopes the 
cease-fire will help restore respect to his movement and also isolate 
and eliminate ``rogue'' elements of the Mahdi Army that no longer 
respond to Sadr's orders. A second motive is to restructure the 
organization. We believe this stated ``restructuring'' will consist 
mainly of removing leaders who are disloyal or ineffective at 
controlling subordinate JAM members. Sadr will search for new 
commanders he believes are loyal and obedient.
    We expect Jaysh al-Mahdi's response will be mixed--and that has 
been the case so far. Loyal mainstream JAM elements will most likely 
cease activity. Rogue or criminal elements will continue their actions, 
which are largely revenue driven. JAM Special Groups will continue 
their attacks on coalition forces.
    Sadr maintains control over a large number of JAM members. However, 
JAM Special Groups do not appear to believe that Sadr's order applies 
to them and thus continue to attack coalition forces. Other criminal 
elements use the guise of JAM to extort and intimidate local 
individuals and businesses for personal gain and owe no allegiance to 
Sadr. Although the cease-fire has led to a drop in the number of Shia 
extremists we have captured and killed in the past month, we do not 
believe that Sadr's decision to call for a cease-fire was aimed at 
consolidating his forces for a future offensive.

    Question. What is your assessment of the cooperation of Iraq's 
leaders at the top of the govemment (the President, Prime Minister, and 
deputy presidents)? Do you believe their cooperation, if successful, 
can lead to agreements on key political issues such as oil legislation, 
de-Baathification, and detainee policy? Do they have the proxy of the 
political parties and Iraqi people to forge these agreements? Will they 
have the ability to get support for these agreements through 
Parliament?

    Answer. The Iraqi leaders have demonstrated their willingness and 
ability to work with each other, providing an example of reconciliation 
for all Iraqis, though there has been tension among the senior leaders. 
The recent communique that the ``Top Five'' (Prime Minister Maliki, 
President Talabani, Vice President Hashimi, Vice President Mahdi, and 
Kurdish Regional Government President Barzani) issued demonstrated 
their willingness to look past divisive issues of sect and ethnicity 
and to instead focus on transparency and dialogue to solve problems, 
forge political consensus, and establish an Iraqi national identity.
    The communique was a critical first step toward addressing and 
resolving the issues of a high-level political process, oil 
legislation, de-Baathification, and associated national legislation, 
but the leaders require the support of their respective blocs to turn 
these commitments into law. That is the stage we are at now, and the 
outcome is still to be determined. Considerable work remains in the 
Council of Representatives to pass those pieces of legislation, but the 
daily work of the Council is moving forward as Iraqi representatives 
work to resolve these fundamental issues.

                                  <all>

</pre></body></html>
